<html>
<title> - COMMUNICATIONS IN A DISASTER</title>
<body><pre>[Senate Hearing 109-1108]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1108
 
                      COMMUNICATIONS IN A DISASTER

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
64-137                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2005...............................     1
Statement of Senator Burns.......................................     3
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator McCain......................................     4
Statement of Senator E. Benjamin Nelson..........................     9
Statement of Senator Bill Nelson.................................     3
Statement of Senator Stevens.....................................     1
Statement of Senator Sununu......................................     4
    Article, dated September 9, 2005, from The Wall Street 
      Journal, entitled ``Cut Off: At Center of Crisis, City 
      Officials Faced Struggle to Keep in Touch; Mayor's Inner-
      Circle Spent Two Days in the Dark; Web Phone Became 
      Lifeline; Police Chief Rips a Server Free'' by Christopher 
      Rhoads.....................................................     5
Statement of Senator Vitter......................................    34
    Prepared statement...........................................    35

                               Witnesses

Citron, Jeffrey A., Chairman/CEO, Vonage Holdings Corporation....    50
    Prepared statement...........................................    52
Eslambolchi, Hossein, President, AT&T Global Networking 
  Technology Services and AT&T Labs; AT&T Chief Technology 
  Officer and Chief Information Officer..........................    53
    Prepared statement...........................................    55
Martin, Hon. Kevin J., Chairman, Federal Communications 
  Commission.....................................................     9
    Prepared statement...........................................    13
Roth, Paul, Executive Vice President, External Affairs and Public 
  Relations, Cingular Wireless...................................    45
    Prepared statement...........................................    47
Smith, William L., Chief Technology Officer, BellSouth...........    38
    Prepared statement...........................................    39

                                Appendix

Smith, Hon. Gordon H., U.S. Senator from Oregon, prepared 
  statement......................................................    69


                      COMMUNICATIONS IN A DISASTER

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. According to the FCC, Hurricane 
Katrina disrupted service to approximately three million phone-
lines. The storm surge was reported in excess of 20 feet, and 
tens of feet of flood water resulted in a rarely seen area of 
devastation. Thousands have worked around the clock to restore 
phone service, and we appreciate their extraordinary efforts. 
Today we have asked to hear from the FCC, and some of the 
companies involved, about what Hurricane Katrina did to the 
communications networks, and about their efforts to restore 
service. In particular, we hope to hear about three common 
problems.
    Credentialing. First, repair crews were ready to begin 
restoring service, but couldn't get permission from officials 
who were controlling the area to enter the area. There needs to 
be a plan in place for important people who are associated with 
restoring the critical infrastructure and communications.
    As far as security, once the repair crews enter the 
affected area there's no reason they should have to fear for 
their lives. Part of any disaster recovery plan must include 
providing for safety of essential communications personnel.
    And also the issue of power, of energy. Over-reliance on 
the power grid is not acceptable. Companies need to ensure that 
they have sufficient backup generators with sufficient fuel in 
place. Maybe natural gas pipelines could provide a backup fuel 
source for critical infrastructure. We have no solution to 
offer, we want to hear what solutions are being explored and 
how they could be implemented. But above all we intend to 
commend all of you for your efforts during the disaster. 
Apparently we have another one in the wings, a very difficult 
time for all communications people, and we look forward to 
hearing your testimony. I do hope Members will keep their 
opening statements to not more than two minutes, so that we can 
proceed with the second bank of these hearings and finish by 
noon. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you. Mr. Chairman, I'd like to join 
you in commending Chairman Martin for his superb leadership 
during this critical time, and also commend the leaders of the 
industry who did the impossible. Yes, we have work to do but 
considering what we had in place, thank God you were there. 
Now, I ask that my full statement be made part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    We have spent this week examining many of Hurricane Katrina's 
painful lessons, and the possible solutions that this Committee can 
advance to mitigate future disasters.
    We have examined Federal entities that did their job well, like the 
National Oceanic and Atmospheric Administration's forecasting and 
warning systems, and we have considered Federal entities that need to 
do better, like the Federal Trade Commission and its work to protect 
consumers from price gouging.
    Today's hearing is on entities that attempted to do their best in 
dangerous and difficult situations, where, in many cases, the hard 
infrastructure limited their best efforts.
    Chairman Martin demonstrated strong leadership by swiftly 
marshalling the Federal Communication Commission's (FCC) resources and 
working with the affected communications industries. The FCC's timely 
attention to the crisis, waiving rules and granting necessary 
authorities, helped to bring critical networks back online.
    Additionally, the proposals announced last week to dedicate the FCC 
resources to emergency preparedness functions are right on target. I 
have long supported Commissioner Copps' call for the creation of a 
Bureau that focuses specifically on emergency preparedness and elevates 
this work among the FCC's priorities. These actions will do just that.
    The communications industry also must be thanked for its tireless 
efforts, not only to restore service to its customers, but to provide 
life saving connectivity to local and Federal first responders in the 
Gulf Coast region. Employees of these companies forged ahead under the 
most trying circumstances for the common good.
    Despite the dedication of those before us, there are still 
significant emergency communications problems that must be solved 
immediately.
    I cannot help but think that we are repeating history. We expected 
so much more 4 years after the September 11 tragedy. Yet, here we 
today, asking many of the same questions that we asked then:

  <bullet> Why is it that our first responders cannot communicate with 
        each other?

  <bullet> How dependent are our communications networks on the 
        availability of electrical power?

  <bullet> Is security for critical infrastructure a necessary 
        component for emergency preparedness?

  <bullet> If systems fail, what backups are in place, and how quickly 
        is the response in getting primary systems back online?

  <bullet> Are there baseline critical preparedness standards that 
        should be followed by communications network providers?

  <bullet> What will it take to ensure that the equipment and 
        facilities are hardened to withstand a natural disaster?

  <bullet> Are we spending money on the wrong equipment?

  <bullet> With such focus on interoperability, have we neglected 
        redundancy?

    In my view, the time for talk is over. The inability to effectively 
communicate during the major disasters costs lives. We simply cannot 
repeat these failures.
    I look forward to the testimony of the witnesses.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman. One of the 
questions that I want to ask in this hearing and I thank you, 
Mr. Chairman, you're spot on that we examine this, is how can 
we as a Nation move to an all digital-based communication 
system with an integrated and resilient 9-1-1 emergency system? 
It was with this thought in mind that Senator Burns and I 
introduced a bill a couple of months ago that would ensure that 
the people who use VoIP phone service would be able to have 
full E-911 capabilities. Hurricane Katrina shows that it's time 
for the Committee to consider this bill. We had a personal 
situation several months ago, in Florida, where someone with 
VoIP had an emergency, their child was desperately ill and, of 
course, they found out, unfortunately, that they did not have 
9-1-1 service, and therefore the tragedy ensued.
    Now, with regard to Hurricane Katrina we saw the crippling 
of the 9-1-1 system. Key centers were either knocked out by the 
water or they were overloaded with calls and that left citizens 
with no way to call for help. But backup technology exists 
today to fix this problem. So I think it's urgent that Congress 
act to make sure that 9-1-1 calls go through in the case of 
future emergencies, and that's what Senator Burns' and my 
legislation addresses. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman, for having this 
hearing. I think Senator Nelson makes a valid point. I think as 
we move--now calls for a time of a little bit of wisdom and 
less emotion, and also with some policy that has been sort of 
hanging up and looking for a way to move forward. The 
transition to DTV and to free up some 700 block spectrum is 
necessary at this time, and I think as we move with that there 
comes into the question of Voice over IP, 9-1-1, enhanced 9-1-
1. I would hope the President would see fit to go ahead and 
fund these communication centers so that we can make those 
systems interoperable, and also 9-1-1 would be the--not only a 
locator service but also the emergency number across the 
country. And you're right, the technology is there. The policy 
has not been changed so that we can move that, and it all 
hinges, I think, on how we transition to DTV and start dealing 
with that 700 block spectrum. We need to move on that and come 
to some sort of a decision and policy to allow--when we talk 
about people offering video services, or voice services, or 
data, we don't talk about that any more, we talk about 
bandwidth. Digital is ones and zeros, and it has taken all 
kinds of identification away from anything that should move on 
our wires or wirelessly. And now we've got to understand that. 
More of us fall in the same rule book now than ever before, and 
I think with that transition we will talk about that policy and 
probably come to some sort of a, I would hope, wise decision, 
set the policies, that knowing all of the stakeholders and 
what's at stake, to be honest with you. So thank you for this 
hearing.
    The Chairman. Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I thank you for 
holding this hearing, and as we discuss how Katrina impacted 
Louisiana, Alabama, and Mississippi it's important we apply the 
lessons we learned to the reconstruction effort in New Orleans, 
and to improve the telecommunication infrastructure of other 
cities. One lesson that we're learning, and I hope our 
witnesses today will discuss at greater length, is a need for 
diversity and redundancy in our telecommunications 
technologies. One sliver of good that may result from this 
tragedy is that cities like New Orleans may become proving 
grounds for new and diverse communications technologies. 
Another lesson that we first learned four years ago that was 
highlighted by the 9/11 Commission is that we must provide 
first responders with the spectrum they need to respond to 
catastrophic events. Recently, Chairman Keane on CNN said that, 
``what's frustrating is it's the same thing over again. I mean, 
how many people have to lose their lives? It's lack of 
communication, our first responders not being able to talk to 
each other . . . Basically, it's many of the things that . . . 
if some of our recommendations had been passed by the United 
States Congress . . . could have been avoided.'' That's a very 
tough indictment from the Co-Chairmen of the 9/11 Commission.
    In the last Congress, I introduced legislation to implement 
this recommendation, it was voted out of the Commerce 
Committee, and it saw no further action. I then added 
provisions and amendments to the intelligence reform bill last 
fall to provide this spectrum to first responders. 
Unfortunately, this language was taken out in conference and 
replaced with a, quote, sense of the Congress that such 
legislation should be voted out during the first session of the 
109th Congress. This session I reintroduced the legislation to 
provide spectrum to first responders, still Congress has yet to 
act this year despite its stated intention to do so before the 
current session ends. We're 10 months into this first session, 
and it has almost been a month since Hurricane Katrina, but the 
Senate has yet to take up any legislating providing first 
responders their spectrum. I urge us to take up the Save Lives 
Act as soon as possible so we can begin the process of giving 
our first responders the essential tools to respond to national 
catastrophes. I thank you, Mr. Chairman, for holding this 
hearing--it's very important--and I thank our witnesses 
including Chairman Martin. I thank you, Mr. Chairman.
    The Chairman. Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman. While this hearing 
is going to cover I think a broad swath of emergency-related 
communication issues like spectrum, I'm particularly interested 
in the current issues around IP voice. Voice over IP has a 
great story to tell. I think coming out of New Orleans we see 
that the story is even stronger when it's the only reliable 
source of connection available to the President of the United 
States, people ought to sit up and take notice. I think it's 
particularly timely because we have a FCC ruling that obviously 
puts down a hard requirement on IP voice, and their compliance 
with emergency calling obligations. My concern is that, given 
all the talk about flexibility and innovation, if we start 
imposing hard requirements in a heavy-handed way we risk either 
discouraging innovation and investment in this particular area, 
or ending up without the diversity that everyone says they're 
so interested in. There's no question that IP systems generally 
are very robust, have unique features that allow them to 
respond to certain kinds of disruptions in networks and in 
service, and that's one of the reasons that communication was 
able to take place in New Orleans through an IP voice system. 
There was a reasonably well-written article in The Wall Street 
Journal about this very point and, Mr. Chairman, I would like 
unanimous consent that we include that in the record.
    [The information referred to follows:]

               The Wall Street Journal, September 9, 2005

Cut Off: At Center of Crisis, City Officials Faced Struggle to Keep In 
   Touch; Mayor's Inner-Circle Spent Two Days in the Dark; Web Phone 
            Became Lifeline; Police Chief Rips a Server Free

                         by Christopher Rhoads

    NEW ORLEANS--For days after Hurricane Katrina's devastating rampage 
through this city, a small corps of city leaders holed up at the Hyatt 
Hotel. They had virtually no way to communicate with the outside world.
    A command center set up before the storm stopped working when the 
backup generator ran out of diesel fuel. Cellphone towers had been 
knocked out by high winds. Many land lines in the area were unusable.
    When emergency power finally returned to the Hyatt, Scott Domke, a 
member of the city's technology team, remembered that he had recently 
set up an Internet phone account with Vonage Holdings Corp. He was able 
to find a working socket in a conference room and linked his laptop to 
an Internet connection.
    At 12:27 a.m. on Wednesday, Aug. 31, the mayor's inner circle made 
its first outside call in two days. Eventually, the team was able to 
get eight lines running from the single Vonage account. That evening, 
the phone rang and it was President Bush calling from Air Force One.
    During the first days of Katrina, the besieged mayor's office 
struggled to stay connected. It was forced to rely on ingenuity and 
extreme methods, including breaking in to an Office Depot--as the chief 
of police stood watch and chased away unofficial looters--to obtain 
necessary equipment. The Hyatt group would eventually be forced to move 
to a higher floor as a gang intent on breaking into its stockpile of 
food assaulted the hotel.
    The tragedy has revealed many ways that the city was unprepared for 
the storm, flood and chaos that followed, and its communications system 
was no exception. Greg Meffert, the city's chief technology officer, 
says that the New Orleans emergency communication plan relied heavily 
on basic phone service remaining intact. Cellphone backups also failed, 
and the few older model satellite phones lost battery power and 
couldn't be recharged. But under duress, Mr. Meffert and his three-
member team also found creative ways to cope with the disaster.
    Hurricane conditions first hit the city on Saturday, Aug. 27. Mr. 
Meffert--whose hats include deputy mayor, the mayor's right-hand man 
and CTO--and several of his team and their families had decided the 
Hyatt, which is a couple of blocks from City Hall, was the best place 
to hunker down and establish communications for the storm. The hotel 
was better served with power and food than the city command post. With 
the mayor and some other officials, including the chief of police, they 
moved into some conference rooms on the fourth floor and figured they'd 
be in the hotel for a couple of nights at the most.
    Over the next two days, what remained of the city government that 
had not evacuated before the storm--a core group of about 15 people--
steadily descended into information darkness.
    By the time the eye of Katrina made landfall that Monday morning, 
the group had already suffered more than 24 hours of hurricane-force 
winds, including a tornado that ripped off part of one side of the 
hotel.
    ``When the tornado rolled over us, you could hear a weird rumbling 
sound,'' recalled the 40-year-old Mr. Meffert this week, sitting 
unshaven behind his desk in City Hall in khaki shorts, a black T-shirt 
and white tennis sneakers. Army Rangers and other troops ran through 
the still submerged streets below his window. ``You could hear the 
windows popping out like gunshots,'' he said.
    Mr. Meffert says phone service went out at the Hyatt because of 
power failures and water damage to the hotel's main switch. After that, 
the Hyatt team's only available means of communication were police 
radios. But those were operating at a fraction of capacity because the 
generator serving the main transmission site broke down. Sometimes 
dozens of officers were trying to use one channel.
    For the most part, city officials relied on ``human chains of 
communication,'' he says. ``It was like: `Go tell so-and-so if you see 
them.' ''
    The team slept on floors and tables in the sweaty conference rooms. 
Then they figured the worst was over and that communications--and 
normality--would soon return.
    Instead, the opposite happened.
    On Tuesday, the levee at the 17th Street Canal broke, and water 
poured into the city, raising the water level by a foot or more every 
20 minutes, Mr. Meffert estimates. Within hours, nearby streets were 
submerged in more than 12 feet of water. Water quickly engulfed the 
Hyatt and surrounding government buildings. Mr. Meffert and his team 
spent most of this day helping with rescue efforts, mostly from boats. 
``We were just pulling [people] from the water,'' he says.
    Mr. Meffert evacuated his wife and two young boys to his parents' 
home in San Antonio. The evacuation party included the pregnant wife of 
the chief of police.
    That evening Mr. Meffert realized things would get worse unless 
communications were restored, immediately.
    That's when Mr. Domke had his brainstorm. For the next five days, 
virtually all communications out of New Orleans by the city's top 
officials depended on Mr. Domke's laptop and this single Internet phone 
account.
    Mr. Meffert, a software entrepreneur before he joined the mayor's 
office in 2002, realized he needed more lines and more phones to cope 
with a rapidly deteriorating situation. Before dawn on Wednesday, 
Messrs. Meffert and Domke and some other aides drove a military Humvee 
into the darkness and devastation. They were accompanied by the chief 
of police, Eddie Compass.
    Their destination was Office Depot, where they loaded up on phones, 
routers, printers and fax machines--anything that was needed to support 
a government under siege by weather and crime. The store had already 
been looted of some supplies. While Mr. Meffert was looking for printer 
cartridges, several looters returned. Mr. Compass, the police chief, 
roared at the looters and chased them off, says Mr. Meffert.
    Mr. Meffert told the chief he needed a large computer server for e-
mail. They found the one used by Office Depot in its backroom.
    ``Do you really need this?'' Mr. Meffert says the police chief 
asked him.
    ``Yes, we do,'' Mr. Meffert says he replied.
    The server was screwed into an equipment rack in the backroom. 
Without the use of tools, the chief bent parts of the metal rack and 
ripped the server out of its housing with his hands, Mr. Meffert says, 
adding: ``I have never seen that before.''
    The team was sleeping and working out of a single conference room, 
called Burgundy D. There were enough cots for five people. Another 
half-dozen slept on the floor. In one corner, phones, routers, cables 
and other gear lay in a pile. Dirty blankets and clothes were scattered 
about.
    On Wednesday evening, when Mr. Meffert was manning the phones, one 
rang. On the other end was President Bush in Air Force One. Mr. 
Meffert, now wearing the hat of secretary, scribbled down the number 
and sent someone to find Mayor Ray Nagin.
    The mayor later recounted his conversation with the president in an 
interview with WWL-AM on Thursday. ``I told him we had an incredible 
crisis here and that his flying over in Air Force One does not do it 
justice,'' the mayor said.
    Later in the interview, conducted over the single Hyatt link, the 
mayor blasted the response to date. ``I need reinforcements, I need 
troops, man. I need 500 buses, man,'' he said.
    On Thursday morning, Mr. Meffert's team got word that 200 gang 
members were moving on the Hyatt, apparently aware that it still had 
food, drink and power. To signify that they were in the gang, members 
had made a distinguishing rip in their shirts, says Mr. Meffert. An 
elevated walkway from the Superdome connects to a shopping arcade, 
which in turn connects to the Hyatt.
    Around 10 o'clock that morning, the team evacuated its fourth-floor 
command post for the 27th floor. The only equipment it brought along 
was a handful of cordless phones, which had a range of 300 feet. On the 
27th floor, where the mayor was staying, the phones worked only if the 
user hung over the balcony toward the atrium inside the building.
    ``This was when the last parts of the government were about to come 
undone,'' says Mr. Meffert. ``It felt like the Alamo--we were 
surrounded and had only short bursts of communication.''
    With Police Chief Compass and other officers blocking the entrance, 
looters were not able to enter the Hyatt, Mr. Meffert says.
    At the same time, water continued to rise around the building. Mr. 
Domke and Jimmy Goodson, an aide in charge of security for the team, 
realized that the electronics for the hotel--upon which the single 
communication link depended--were on the ground floor, perilously close 
to the rising water. They dispatched members of their group to throw 
sandbags around the electronics room. The water reached within three 
inches of the room but never damaged the electronics, Mr. Meffert says.
    New Orleans had an emergency communications plan, but it had 
serious flaws. The back-up communications of the city's Office of 
Emergency Preparedness consisted of a few older-model satellite phones, 
but their batteries went dead and couldn't be recharged, Mr. Meffert 
says.
    In the early stages of the storm, the city's emergency command 
office, on the ninth floor of city hall, got power from an emergency 
diesel generator. But by the time the hurricane passed, it had burned 
up about one third of its fuel. Fuel soon ran out completely and 
couldn't be replenished.
    Meantime, the commercial phone systems that the city relied on 
blinked out during the storm and its immediate aftermath, according to 
Mr. Meffert. Land lines went dead in part because of switch and power 
failures, and city-issued cellphones stopped working after towers were 
blown down, he says. BellSouth Corp. says that its nearby telecom hub 
was operative throughout the crisis.
    Mr. Meffert says the satellite phones were used in the early 
stages, but their batteries soon were drained. He tried to recharge one 
phone, but it wouldn't keep the charge, he says. ``It kept flashing 
`low bat,' '' he recalls.
    Mr. Meffert says that the city was unable to spend more on 
emergency communications because of a budget crisis and cuts in federal 
aid. But he doubts that additional money would have helped much. 
``Virtually no city could have ever prepared for something of this 
magnitude,'' he says.
    When Mr. Meffert arrived at the mayor's office in 2002, budgets 
were calculated on cheap calculators, he says. Out of 70 major cities 
in the U.S., the New Orleans municipal website was ranked dead last 
that year in a quality survey.
    This past year, Mr. Meffert's team constructed an innovative 
surveillance bubble over the city consisting of cameras, wireless 
Internet and software in an attempt to lower the city's record murder 
rate. Though controversial with civil-rights groups, the system has 
nearly halved crime in the 20 percent of the city where it operates, 
says Mr. Meffert. He distributed BlackBerrys among senior ranks in the 
government, devices that proved invaluable in this crisis once e-mail 
resumed working late last week.
    In the middle of the chaos several days ago, Mr. Meffert was 
notified that the city's website now ranks No. 1 of those 70 major U.S. 
cities. The site stayed up throughout the storm because Mr. Domke was 
able to shift it to a Dallas server.
    Toward the end of last week, the ``cavalry'' began arriving, says 
Mr. Meffert, in the form of several thousand walkie-talkie phones 
provided by Sprint Nextel Corp. The phones operate directly between 
users within short distances, so they do not require cell towers to 
transmit.
    At the same time, a team from computer supplier Unisys Corp. 
arrived, led by an ex-Army Ranger named Ed Minyard. In addition to 
providing equipment to begin constructing a wireless network in the 
Hyatt and City Hall, Mr. Minyard brought some other supplies: bottles 
of Wild Turkey whiskey.
    ``We had the necessary provisions,'' says Mr. Minyard. ``These boys 
needed it.''
    Peter Grant in New York contributed to this article.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Call Waiting

  <bullet> Sat., Aug. 27: City officials move into the Hyatt Hotel.

  <bullet> Aug. 28: Cell towers go down, power goes out. Many land-
        lines weren't usable. At 10 p.m., the Hyatt group loses all 
        communications.

  <bullet> Aug. 29: Katrina makes landfall.

  <bullet> Aug. 30: After a levee breaks, water engulfs the Hyatt and 
        some government buildings.

  <bullet> Aug. 31: City officials make first outside call in more than 
        two days at 12:27 a.m. Top government communications depend on 
        an Internet phone account.

        Source: Interviews with New Orleans city officials.

    Senator Sununu. As things sit right now we have an FCC 
order that on September 28, IP voice customers are going to be 
cut off from their providers if they don't fully acknowledge a 
notification from their providers, and while the intent of this 
is naturally to make sure that customers have access to 
emergency service, I think most people exercising common sense 
would agree there are also safety risks and personal risks 
associated with someone being cut off from their voice or any 
other communications provider. We all understand the way the 
world works and consumers work, they may not be aware of the 
issues associated with this ruling, and their safety may be in 
much greater jeopardy having suddenly lost their service than 
their safety would ever be improved by having access to 
emergency service. We all want people to have access to 
emergency calling service, but one of the great values of IP 
technology and wireless technology, more broadly, is that it 
can communicate with people when they are on the move, on the 
go, and that has a inherent value to their safety and security, 
regardless of whether or not their provider knows their 
location 24 hours a day. The fact that you can call from remote 
locations, in and of itself, provides a great enhancement to 
safety. These are the issues that we need to balance in making 
any new rulings about E-911. I know the Chairman is fully aware 
of these concerns and I'm sure Chairman Martin is fully able to 
address his thinking on the ruling, but I want to emphasize 
that we need to be very cautious. I think we need to consider 
allowing a good deal more flexibility in implementing emergency 
services, so that in the long run we have the kind of 
flexibility, diversity, and innovation the industry deserves. 
Thank you, Mr. Chairman.
    The Chairman. Ben Nelson.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman. And I want to 
thank all the witnesses from the panels who are going to be 
here today. I'm going to be brief. Clearly the devastation of 
Hurricane Katrina has given us a very clear picture of those 
things that perhaps went right, and those things that didn't go 
right, and those lessons that we can learn are going to be 
critical not so much to deal with the past hurricanes, or even 
the current hurricane, because of the time factor, but for the 
future and for the future of any other kind of disaster, 
manmade or natural, we need to know the lessons that we're 
learning and how to put them in place.
    I hope this hearing, for example, will shed some light on 
what measures of what were taken to mitigate the damage from 
the disaster that worked, as well as what we should be focusing 
on in preparation for future disasters. No one should believe 
that everything went wrong, and no one should believe that 
there aren't changes that could be made, but what we must hear 
from the witnesses today and others, is what we need to do to 
facilitate without frustrating technology, capability as well 
as the willingness of the industry to be able to take care of 
its own needs so that communication can occur before, during, 
and after any kind of natural disaster.
    So I thank you very much, Mr. Chairman, and look forward to 
the testimony today. Thank you.
    The Chairman. Thank you very much. For the Committee's 
information our DTV bill will provide spectrum to first 
responders as soon as the broadcasters move. It's intended that 
they will get 24 MHz. We'll mark that up in October in 
compliance with the reconciliation instructions the Committee 
has received from the Budget Committee, and the budget 
committee will mark it up on October 25. It is our intention 
that all communications will provide E-911, including VoIP, and 
we will provide the authority that the FCC needs to carry out, 
I believe, that desire.
    Chairman Martin, for myself I'll tell you we're very proud 
of what you're doing. I think you've demonstrated tremendous 
leadership during this disaster period with your emergency 
orders which we--I don't think any of us have any criticism at 
all of what you've done. We urge you to let us know if there's 
any further authority you need. We'd be pleased to provide you 
whatever you think you need, but we thank you also for coming 
this morning. We're pleased to hear your statement now.

         STATEMENT OF HON. KEVIN J. MARTIN, CHAIRMAN, 
               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Martin. Well, thank you, Chairman Stevens, for that 
personal note of support for the Commission's efforts. I 
appreciate that.
    Good morning, Chairman Stevens, Co-Chairman Inouye, and 
members of the Committee. I appreciate the opportunity to be 
with you today. As we all know Hurricane Katrina devastated the 
Gulf Coast. People lost their homes, their businesses, and even 
their lives. Our hearts go out to all the survivors who are now 
struggling to put their lives back together.
    My statement focuses on the effects of the hurricane on the 
Nation's communications infrastructure. First, I will briefly 
discuss the immediate impact on communications services in the 
area and provide a status report. Second, I will describe the 
steps the Federal Communications Commission has taken to 
facilitate the restoration of service and to provide support 
for evacuees. And, finally, I will offer some initial lessons 
learned from this terrible tragedy.
    The destruction of the facilities of the communications 
companies in the region and, therefore, the services upon which 
citizens rely, was extraordinary. Almost three million customer 
telephone lines were knocked down in the Louisiana, 
Mississippi, and Alabama areas.
    As you can see on this first chart the most significant 
damage was in the region colored red. The next most hard-hit 
area, colored yellow, reached out more than a 100 miles from 
where this storm first landed. And even the area in green above 
that sustained moderate damage. As you can see from this, just 
the size of the area demonstrates how far-reaching Katrina's 
impact was. In addition 38 9-1-1 call centers also went down.
    As you can see in this chart the area in blue reflects the 
extensive areas and locations where Hurricane Katrina knocked 
out 9-1-1 call centers, and the area in red indicates where the 
call centers remain out today, almost all of those in the New 
Orleans area. In addition to the wireline issues, facilities 
with damaged local wireless networks also sustained 
considerable damage, with more than 1,000 cell sites out of 
service.
    As you can see in this next chart, over 20 million 
telephone calls did not go through the day after the hurricane. 
The number of failed calls peaked that day, and then slowly 
decreased daily as service began to be restored. We also 
estimate that approximately 100 broadcast stations were knocked 
off-the-air.
    This chart follows the outages and the restoration of radio 
stations. You can see that the percent of radio stations on-
the-air in the Gulf Coast region fell to just over 20 percent 
on the day after the hurricane, and since then stations have 
been coming back on-the-air each day. And, finally, hundreds of 
thousands of cable customers also lost service. Now, as a 
result of these service outages it was extremely difficult for 
hundreds of thousands of people to receive news and emergency 
information and communicate with their loved ones. Emergency 
workers and public officials had difficulty coordinating, and 
it is at times like these that we are reminded of the 
importance of being able to communicate.
    Fortunately, the work to restore communication service 
began almost immediately, and while considerable work remains 
to be done, the companies in the region have made meaningful 
progress. They have overcome significant obstacles, including 
flooding, lack of power, and dwindling fuel resources for 
generators.
    Now, to the best of our knowledge, here is the current 
status. This chart demonstrates the spike in the number of 
customers who were out of service which, again, fell 
precipitously about a week after the hurricane. Approximately 
2.5 million customer lines have been restored leaving a little 
over 300 thousand customers still out of service.
    The 35 9-1-1 centers have also been restored, but again 
three in Louisiana remain out of service. And as you can see in 
this chart the sustained damage kept many call centers out of 
operation for almost nine days. All wireless switching centers 
in the affected area are now operational, and over 1000 cell 
sites have been restored.
    And as you can see in this chart where out of service sites 
are marked in red, approximately 600 sites still out of service 
are concentrated within the surrounding New Orleans area. The 
size of the graph indicates the size of each individual market, 
and the purple color slices indicate where cell sites were 
knocked out of service but have come back into operation. You 
can also see that cell sites were actually knocked out as far 
North as Hattiesburg.
    And, finally, as this next chart shows, almost 70 percent 
of the TV stations in the affected area were knocked off-the-
air the day after the hurricane. Since then, TV stations have 
been coming back on-the-air slowly and today only four remain 
off-the-air.
    Now, fortunately, satellite service providers did not 
experience damage to their infrastructure. They have helped 
bridge some of the gaps left by these other outages. They have 
provided satellite phones and video links to law enforcement 
officials, medical personnel, emergency relief personnel, and 
news outlets.
    The Commission has devoted significant time and resources 
to enable first responders to communicate, and to help 
facilitate companies' ability to quickly restore services in 
the region. We have granted over 70 special temporary authority 
requests and more than a 100 temporary frequency 
authorizations. For example, we allowed law enforcement 
authorities to use an ultra-wideband imaging system to locate 
hurricane victims underneath the rubble. The Commission waived 
numerous rules to enable telephone companies to reroute 
traffic, disconnect and reconnect lines, and switch long-
distance providers so the consumer's phone calls could still 
get through. And from the beginning the Commission has reached 
out to impacted industries, often numerous times a day, to 
identify their needs to pass information along to the Federal 
Emergency Management Agency and the National Communication 
System.
    And, finally, we have facilitated disaster relief efforts 
and fund-raising efforts, for example, by temporarily 
reassigning the toll free 800 number, 1-800-RED-CROSS, to the 
American Red Cross. And last week I also announced my intention 
for the Commission to take three additional actions, in an 
effort to continue to provide immediate relief to consumers and 
businesses and to enhance the Commission's planning and 
response efforts.
    First, I proposed to provide $211 million in Universal 
Service funding to the disaster area. For all people eligible 
for FEMA disaster assistance, we'll provide support for 
wireless handsets in a package of 300 free minutes. We will 
also allow public and nonprofit healthcare providers, including 
the American Red Cross shelters, to apply for support of their 
telecommunications needs. We will use the E-Rate Program to 
help reconnect schools and libraries throughout the region, and 
we will allow carriers to use the High Cost Program to 
prioritize rebuilding facilities damaged by the hurricane.
    Second, I am also establishing an independent expert panel 
composed of public safety and communications industry 
representatives that will be charged with reviewing the impact 
of Hurricane Katrina on the communications infrastructure in 
the affected area.
    And, third, I announced my intention to create a new Public 
Safety/Homeland Security Bureau that will develop policies and 
rules to promote effective and reliable communications for 
public safety, national security, and disaster management.
    While there is still much work for the Commission to do to 
facilitate the restoration of services in the Gulf Coast, I 
think it is important that we take the time to learn from this 
tragedy. We need to assess what worked, what did not, and what 
the Commission should do now to make our communications 
networks more robust.
    And I have three initial suggestions. First, we should 
ensure that the public has the tools necessary to know when an 
emergency is coming and to contact first responders. This 
should involve three steps. We should have a comprehensive 
alert system that allows officials at the national, State, and 
local levels to reach affected citizens in the most effective 
and efficient manner possible. It should incorporate the 
Internet, which was designed by the military for its robust 
network redundancy functionalities and other advances in 
technology, so that officials can reach large numbers of people 
simultaneously through different communications media.
    We also need to ensure that providers comply with our 9-1-1 
rules. The 9-1-1 system is critical to our Nation's ability to 
respond to a host of crises. The obligation to provide access 
to emergency operators should not be optional for any service 
provider regardless of whether that provider is wireless, 
wireline, cable, or VoIP.
    We also should ensure that Public Safety Answering Points 
are redundant. Hurricane Katrina severed communication links to 
multiple PSAPs, the key facilities that handle those local 
emergency and first responder calls. Going forward, we need to 
establish redundant routing that will help create a more 
resilient network to aid public safety.
    Second, I suggest we enable first responders to communicate 
seamlessly. First responders need an interoperable mobile 
wireless communication system that can be rapidly deployed 
anywhere in the country. Such a system must have two essential 
features.
    First, the system must be interoperable. It must allow 
different organizations from different jurisdictions to 
communicate with each other immediately through both voice and 
data transmissions. This requires that there be sufficient 
spectrum devoted to these purposes. It also requires that first 
responders have equipment capable of operating on multiple 
frequencies in multiple formats so that different systems can 
connect with each other. Properly implemented, a system with 
adequate spectrum and smart radios would help to ensure that 
both data and voice are transmitted between agencies instantly, 
replacing multiple lengthy phone calls to multiple agencies.
    Second, the system must be capable of rapid deployment and 
restoration. This requires the use of multiple flexible 
technologies and a truly mobile infrastructure. If we learned 
anything from Hurricane Katrina it is that we cannot rely 
solely on terrestrial communications. When radio towers are 
knocked down, satellite communications may be the most 
effective means of communicating. Additionally, mobile antennas 
should be used to establish communications quickly. Smart 
radios can enable first responders to find available towers or 
infrastructure on multiple frequencies. WiFi or spread spectrum 
technologies and other frequency hopping techniques can enable 
them to use limited spectrum quickly and efficiently. A system 
taking advantage of such measures would be capable of truly 
rapid deployment.
    My third suggestion is to enhance network resiliency. We 
should ensure that all communication providers develop and 
adhere to the best practices to ensure reliability in the event 
of a disaster and quick restoration of services and facilities 
in the event of a service disruption. We also should take full 
advantage of IP-based technologies to enhance the resiliency of 
traditional communications networks. IP technology provides the 
dynamic capability to change and reroute telecommunications 
traffic within the network. In the event of a systems failure 
within the traditional network, greater use of these 
technologies will enable service providers to restore service 
more quickly and to provide the flexibility to initiate service 
and new locations chosen by the customer.
    In conclusion, I look forward to working cooperatively with 
Members of this Committee, other Senators, the House of 
Representatives, and my colleagues at the Commission to achieve 
the goals outlined above. We would appreciate any guidance you 
may have on these issues. Thank you for the opportunity to 
testify, and I would be happy to answer any questions you may 
have.
    [The prepared statement of Chairman Martin follows:]

         Prepared Statement of Hon. Kevin J. Martin, Chairman, 
                   Federal Communications Commission

Introduction
    Good morning, Chairman Stevens, Chairman Inouye, and members of the 
Committee. I appreciate the opportunity to be with you today. As we all 
know, Hurricane Katrina devastated the Gulf Coast. People lost their 
homes, their businesses, and even their lives. Our hearts go out to all 
of the survivors who are now struggling with putting their lives back 
together.
    My statement focuses on the effects of the hurricane on the 
nation's communications infrastructure. First, I will briefly discuss 
the immediate impact on communications services in the area and provide 
a status report on the extent to which services have been restored. 
Second, I will describe the steps the Federal Communications Commission 
has taken both to facilitate the restoration of service and to provide 
support for evacuees. Finally, I will offer some initial lessons 
learned from this terrible tragedy.
Impact on Communications Infrastructure
    The destruction to the facilities of the communications companies 
in the region, and therefore the services upon which citizens rely, was 
extraordinary. More than three million customer telephone lines were 
knocked down in the Louisiana, Mississippi, and Alabama areas. 
Significant damage was inflicted both on the wireline switching centers 
that route calls and on the lines used to connect buildings and 
customers to the network. Thirty-eight 9-1-1 call centers went down. 
Local wireless networks also sustained considerable damage, with more 
than one thousand cell sites out of service. Over 20 million telephone 
calls did not go through the day after the hurricane. While we were not 
able to contact every station in the immediate aftermath, we estimate 
that approximately 100 broadcast stations were knocked off-the-air. 
Hundreds of thousands of cable customers lost service. As a result, it 
was extremely difficult for hundreds of thousands of people to receive 
news and emergency information and to communicate with their loved 
ones. Emergency workers and public safety officials had difficulty 
coordinating.
    It was at times like these that we were reminded of the importance 
of being able to communicate. While no communications network could be 
expected to remain fully operational in the face of a direct hit from a 
Category 4 or 5 hurricane, that fact was little consolation to the 
people on the ground.
    Fortunately, the work to restore communications services began 
almost immediately. While considerable problems remain, the companies 
in the region have made meaningful progress. They have overcome 
significant obstacles--including flooding, lack of power, dwindling 
fuel resources for generators, and security--to rebuild, reconnect, and 
broadcast. Three radio stations in New Orleans continued to operate 
throughout the storm, and a fourth resumed operations within several 
hours of losing power. Wireline carriers were able to begin restoring 
service within 5 days, with significant improvement accomplished within 
a week. Wireless carriers began to restore service within 2 days and 
achieved substantial improvement by the first weekend. These 
extraordinary efforts are being performed by the employees of these 
companies, many of whom have suffered their own personal losses, yet 
still continue to work to restore services to all.
    To the best of our knowledge, the current status is as follows:
    Wireline. Approximately 2,500,000 customer lines have been 
restored, leaving 301,000 customer lines still out of service (268,000 
in Louisiana and 33,000 in Mississippi). Thirty-five 9-1-1 call centers 
have been restored; three in Louisiana remain out of service.
    Wireless. All wireless switching centers in the affected areas are 
operational. Over one thousand cell sites have been restored. 
Approximately 600 cell sites continue to be out of service, the 
majority within New Orleans and other areas of Louisiana. BellSouth has 
committed its facilities in New Orleans to wireless providers to make 
restoration of wireless service a priority.
    Broadcast. Three television stations have come back on-the-air; 
four remain off-the-air. Although we cannot determine exactly how many 
radio stations have been restored, we do know that only 36 stations 
remain off-the-air.
    Cable. We cannot estimate how many customers have had their cable 
service restored since the hurricane. We do know that approximately 
143,000 customers have had their service restored in the last 2 weeks, 
and that approximately 280,000 remain without service.
    Satellite. Fortunately, satellite service providers did not 
experience damage to their infrastructure. They have helped to bridge 
some of the gaps left by the outages by providing satellite phones and 
video links to law enforcement officials, medical personnel, emergency 
relief personnel, and news outlets. Additionally, direct broadcast 
satellite providers provided equipment to over 100 shelters so that 
evacuees can receive critical information--as well as entertainment--
from television.

Commission Actions to Support Restoration
    The Commission has devoted significant time and resources to enable 
first responders to communicate and to facilitate companies' ability to 
quickly restore services in the region. On August 30, the Commission 
established an internal Task Force to coordinate hurricane response 
efforts. The Task Force's activities centered around three major goals: 
(1) Regulatory Relief for Industries; (2) Industry Outreach and 
Coordination with Other Federal Agencies; and (3) Assistance to 
consumers and evacuees. Hundreds of FCC employees have been directly 
involved in these efforts. The Commission stayed open late every day, 7 
days a week, for 3 weeks following the hurricane in order to assist 
consumers, the industries, and other Federal agencies. I am extremely 
proud of the efforts and dedication of the FCC staff that have helped 
us in this endeavor.

Summary of Commission Actions
    The Commission has taken a number of steps to cut bureaucratic 
``red tape.'' Although a thorough discussion of the Commission's 
actions can be found in the appendix, I will discuss a few here. Almost 
immediately after the hurricane subsided, the Commission notified all 
communications providers of expedited treatment for requests of special 
temporary authority (STA). We have granted over 70 STA requests and 
more than 100 temporary frequency authorizations for emergency workers, 
organizations, and companies to provide wireless and broadcast service 
in the affected areas and shelters around the country. In most cases 
these requests were granted within 4 hours, with all requests approved 
within 24 hours. The Commission released several public notices and 
quickly adopted orders to provide temporary relief, and we waived 
numerous rules to enable telephone companies to re-route traffic, 
disconnect and reconnect lines, and switch long-distance providers so 
that consumers' phone calls can get through. We have extended filing 
deadlines, construction requirements, and discontinuance of service 
rules for wireless licensees in the affected areas.
    From the beginning, the Commission has reached out to the impacted 
industries--often numerous times a day--to identify their needs to pass 
along to the Federal Emergency Management Agency (FEMA) and the 
National Communications System (NCS). The Commission provides the 
critical information about the necessary resources to FEMA and NCS, who 
are responsible for ensuring that priority needs are met, and we update 
FEMA and NCS daily on these evolving needs.
    In addition, critical information on operational status of 
communications companies is transmitted on a daily basis to the 
National Coordinating Center (NCC) for its Situation Reports. The 
Commission also has been coordinating with the Interagency Coordinating 
Council on Individuals with Disabilities, organized by the Department 
of Homeland Security, to ensure that the needs of the disability 
community are addressed in the coordinated Federal relief efforts.
    Finally, the Commission has worked closely with the communications 
industry to help identify resources for use by disaster response 
personnel. The Agency both transmits this information to NCC and 
facilitates industry's communication with other Federal officials. For 
example, we granted an STA to Time Domain for an ultra-wideband 
through-the-wall imaging system to help law enforcement authorities 
locate hurricane victims, and special temporary authority was granted 
to Intel to set up WiMax broadband communications systems to provide 
Internet service at Red Cross relief centers.
    Consumers in the Gulf Coast, and evacuees to other areas, also need 
information and assistance, and the Commission has worked to provide 
that support. We have manned our toll-free consumer line 7 days a week 
to help individuals get access to critical information about 
telecommunications and broadcast services in the affected area. 
Consumers, industry, and other agencies also can access the 
Commission's special webpage that provides information on all of the 
Commission's actions, and provide other valuable information. Finally, 
we have facilitated disaster relief efforts and fundraising efforts by 
temporarily reassigning the toll free 800-number ``1-800-RED-CROSS'' to 
the National Chapter of the American Red Cross, as well as providing 
temporary waivers to non-commercial radio and TV stations that wish to 
air Hurricane Katrina fundraising programming.

Proposal for Next Steps
    Last week, I announced my intention for the Commission to take 
three major actions in an effort to continue to provide immediate 
relief to consumers and businesses, and to enhance the Commission's 
planning and response efforts.

(1) Provide Over $200 Million of Immediate Relief to the Affected Areas
    First, I proposed to provide $211 million in universal service 
funding to the disaster area. We will work through four existing 
programs to provide this support. We will use the Low Income Program to 
help those who have been cutoff to reestablish their lines of 
communication. For all people eligible for FEMA disaster assistance, we 
will provide support for wireless handsets and a package of 300 free 
minutes for evacuees and people still in the affected area without 
telephone service. For all people eligible for FEMA disaster 
assistance, we also will provide support to pay the costs of 
reconnecting consumers to the network as the disaster-struck area is 
rebuilt.
    Through the Rural Health Care Program, we will support those 
individuals providing emergency healthcare services in the region. We 
will allow public and nonprofit healthcare providers, including 
American Red Cross shelters, to apply for support of their 
telecommunications needs. We will increase discounts from 25 percent to 
50 percent for qualified providers in the area. To speed the delivery 
of support, we will modify the filing window for this Funding Year to 
allow healthcare providers to submit new or revised applications.
    We will use the E-Rate Program to help reconnect schools and 
libraries throughout the region. We will open a new Funding Year 2005 
filing window for schools and libraries affected by the hurricane. We 
will treat schools and libraries struck by the hurricane at the highest 
level of priority (90 percent) for Funding Years 2005 and 2006. The 
Commission can authorize $96 million in E-rate funds for the 
approximately 600 schools and libraries in Louisiana, Mississippi, and 
Alabama hit by the hurricane. We will also allow schools and libraries 
serving evacuees to amend their Funding Year 2005 applications to 
account for the unexpected increase in population.
    Finally, we will allow carriers to use the High Cost Program to 
prioritize rebuilding facilities damaged by the hurricane. We will 
allow telephone companies greater flexibility to use USF support to 
prioritizing rebuilding wire-centers affected by the hurricane.

(2) Examine Ways To Improve Network Reliability and Public Safety 
        Communications in Times of Crisis
    Second, I am establishing an independent expert panel composed of 
public safety and communications industry representatives that will be 
charged with reviewing the impact of Hurricane Katrina on the 
communications infrastructure in the affected area. The panel will make 
recommendations to the Commission regarding ways to improve disaster 
preparedness, network reliability, and communication among first 
responders such as police, fire fighters, and emergency medical 
personnel.

(3) Create a New FCC Bureau To Better Coordinate Our Planning and 
        Response Efforts When Disaster Strikes
    Third, I announced my intention to create a new Public Safety/
Homeland Security Bureau. The Bureau will coordinate public safety, 
national security, and disaster management activities within the FCC. 
The Bureau will develop policies and rules to promote effective and 
reliable communications for public safety, national security, and 
disaster management. It will have responsibility for issues including:

  <bullet> Public Safety Communications, including 911 centers and 
        first responders

  <bullet> Priority Emergency Communications

  <bullet> Alert and Warning of U.S. Citizens

  <bullet> Continuity of Government Operations

  <bullet> Disaster Management Coordination (i.e., infrastructure 
        reporting and analysis in times of disaster)

  <bullet> Disaster Management Outreach

  <bullet> Communications Infrastructure Protection

  <bullet> Network Reliability and Interoperability

  <bullet> Network Security

Lessons Learned
    While there is still much work for the Commission to do to 
facilitate the restoration of services in the Gulf Coast, I think it is 
important that we take the time to learn from this tragedy in order to 
improve our ability to serve the public in the event of another 
disaster. We need to assess what worked, what did not, and what the 
Commission should do now to make our communications networks more 
robust in the future. The planned expert panel will be tasked with 
answering some of these questions, but for now, I have three 
suggestions.

(1) Ensure That the Public Has the Tools Necessary To Know When an 
        Emergency Is Coming and To Contact First Responders
    We should take three steps to help ensure that the public has these 
critical and life-saving tools. First, we should have a comprehensive 
alert system that allows officials at the national, State and local 
levels to reach affected citizens in the most effective and efficient 
manner possible. It should incorporate the Internet, which was designed 
by the military for its robust network redundancy functionalities, and 
other advances in technology so that officials can reach large numbers 
of people simultaneously through different communications media.
    Second, we need to ensure that all providers comply with our 9-1-1 
rules. The 911 system is quite literally one of life or death. It is 
critical to our nation's ability to respond to a host of crises. The 
Commission has been working hard to minimize the likelihood of 
situations where users are unable to access it. The obligation to 
provide access to emergency operators should be not optional for any 
telephone service provider--regardless of whether that provider is 
wireless, wireline, cable, or VoIP.
    Third, we should ensure that Public Safety Answering Points (PSAPs) 
are redundant. Hurricane Katrina severed communications links to 
multiple Public Safety Answering Points (PSAPs), the key facilities 
that handle local emergency and first responder calls. Going forward, 
we need to establish a process to work with states and municipalities 
to improve the redundancy of critical communications links that serve 
PSAPs. As part of this effort, the Federal Government should take a 
lead role to facilitate and encourage cooperation among local 
jurisdictions to address mutual restoration and redundant routing that 
will help create a more resilient network to aid public safety first 
responders.

(2) Enable First Responders To Communicate Seamlessly
    First responders need an interoperable, mobile wireless 
communications system that can be rapidly deployed anywhere in the 
country. Such a system must have two essential features. First, the 
system must be interoperable--it must allow different organizations 
from different jurisdictions to communicate with each other 
immediately, through both voice and data transmissions. This requires 
that there be sufficient spectrum devoted to these purposes. And, 
equally importantly, it requires that first responders have equipment 
capable of operating on multiple frequencies in multiple formats, so 
that different systems can connect with each other. So-called ``smart 
radios'' are ideally suited to this purpose, as they can intelligently 
jump to different frequencies and formats as needed to establish 
communications. Properly implemented, a system with adequate spectrum 
and smart radios would help to ensure that both data and voice are 
transmitted between agencies instantly, replacing multiple, lengthy 
phone calls to multiple agencies.
    Second, the system must be capable of rapid deployment and/or 
restoration. This requires the use of multiple, flexible technologies 
and truly mobile infrastructure. If we learned anything from Hurricane 
Katrina, it is that we cannot rely solely on terrestrial 
communications. When radio towers are knocked down, satellite 
communications are, in some instances, the most effective means of 
communicating. At the same time, we should use new technologies so that 
first responders can take advantage of whatever terrestrial network is 
available. Smart radios would enable first responders to find any 
available towers or infrastructure on multiple frequencies, and WiFi, 
spread spectrum and other frequency hopping techniques would enable 
them to use limited spectrum quickly and efficiently. Additionally, 
mobile antennas--for both satellite and terrestrial technology--should 
be used to establish communications as quickly as possible. This could 
include inflatable antennas, antennas-on-wheels, or other mobile 
facilities. A system taking advantage of such measures would be capable 
of truly rapid deployment.

(3) Enhance Network Resiliency
    We should ensure that all communications providers develop and 
adhere to best practices to ensure reliability in the event of a 
disaster and quick restoration of service and facilities in the event 
service is disrupted. These best practices should address, among other 
things, maintaining service during extended commercial power outages 
through the use of back-up generators and equipment.
    We also should take full advantage of IP-based technologies to 
enhance the resiliency of traditional communications networks. IP 
technology provides the dynamic capability to change and reroute 
telecommunications traffic within the network. In the event of systems 
failure within the traditional network, greater use of these 
technologies will enable service providers to restore service more 
quickly and to provide the flexibility to initiate service at new 
locations chosen by consumers.

Conclusion
    I look forward to working cooperatively with Members of this 
Committee, other Senators, the House of Representatives, and my 
colleagues at the Commission to achieve the goals outlined above. We 
would appreciate any guidance you may have on these issues. Thank you 
for the opportunity to testify, and I would be happy to answer any 
questions you may have.

 Appendix A--FCC Hurricane Katrina Relief Efforts (As of September 21, 
                                 2005)

    The Commission continues its work to assist consumers, industries 
and other Federal agencies with Hurricane Katrina relief efforts. Below 
is a list of FCC actions taken since the start of the disaster. The 
list is arranged by service with state-specific actions noted 
separately. Public Notices and other decisions can be viewed on the 
FCC-established Hurricane Katrina webpage (http://www.fcc.gov/cgb/
katrina/). The webpage was created on August 31, 2005, in order to 
centralize and disseminate hurricane related information.
Wireline

General FCC Actions
    FCC granted a temporary waiver of a variety of procedural rules 
relating to the Universal Service Fund to carriers, state commissions, 
and other program beneficiaries, such as schools and libraries. 
Accordingly, affected entities in the hurricane-affected areas may 
postpone filing numerous USF forms, payments, and data, allowing 
affected parties adequate time to file appropriately (9/21/05).
    FCC granted a temporary waiver of Commission rules that require 
BellSouth and other incumbent LECs to provide advance notice and 
waiting periods before certain network changes may be implemented to 
help speed restoration of network services (9/21/05).
    FCC granted an STA giving BellSouth temporary authority to provide 
interLATA (long-distance) services using its internal corporate network 
in order to relieve its over-burdened separate affiliate, BellSouth 
Long Distance (9/13/05).
    FCC granted a temporary waiver for certain carrier change 
requirements to allow customers whose long-distance service has been 
disrupted by Hurricane Katrina to be connected to an operational long-
distance provider (9/5/05).
    FCC granted a temporary waiver of the FCC's rule for aging 
residential numbers for customers in the affected areas. Waiver of this 
rule will allow carriers, upon request, to disconnect temporarily 
customers' telephone service to avoid billing issues, and reinstate the 
same number when the service is reconnected for customers in the 
affected areas (9/4/05).
    FCC assisted LaFourche Telephone Company's restoration of long-
distance service (9/4-9/5/05).
    FCC provided BellSouth with information necessary to port the 
Mississippi Department of Wildlife's 800 number from Sprint to 
BellSouth because Sprint's facilities used to provide that number are 
down (9/4/05).
    FCC granted an STA for Verizon to use 4 microwave POPs in Baton 
Rouge to restore damage due to the hurricane (9/3/05).
    FCC granted the emergency request of the American Red Cross for 
reassignment of the toll free number 1-800-RED-CROSS to help in the 
disaster relief and coordination effort for the multi-state area 
affected by the hurricane (9/2/05).
    FCC provided authority to NeuStar (the North American Telephone 
Number Administrator) and other service providers to use local number 
portability technology to reroute telephone traffic to switches 
unaffected by the hurricane (9/1/05).
    FCC granted a 60-day extension to carriers operating in Louisiana, 
Mississippi, or Alabama for the filing of Form 477 local competition 
and broadband data. This extension also applied to carriers that rely 
on personnel, facilities, or records located in these states (9/1/05).
    FCC reached out to VoIP service providers in Alabama, Louisiana, 
and Mississippi to determine whether adjustments were needed in the 
filing deadline for VoIP E-911 status report due September 2, 2005 (8/
31/05).

Wireless
General FCC Actions
    FCC granted an STA to Chevron USA, Inc. to use frequency in the 
Gov/Non-Gov M941-M944 shared band for the purpose of restoring 
communications capabilities damaged by Hurricane Katrina (9/15/05).
    FCC modified the STA previously granted on 9/2/05 to Verizon for 
Rivada to allow leasing of spectrum to Ericsson on behalf of Northcom 
(9/9/05).
    FCC granted an STA to the North Carolina Forestry Commission to 
operate VHF mobile units in the disaster area (9/8/05).
    FCC released a Public Notice to list the names and contact 
information of the FCC-certified frequency coordinators for land mobile 
radio operations and coordinating bodies for microwave radio operations 
(9/7/05).
    FCC released a Public Notice to ensure that wireless service 
providers do not improperly disconnect consumers displaced by the 
hurricane because they are unable to pay their bills (9/7/05).
    FCC granted an STA to Florida Power and Light to use 900 MHz 
frequencies in Louisiana, Mississippi, and Alabama for electric power 
maintenance and restoration (9/7/05).
    FCC granted an STA to Detroit Edison to use VHF and UHF frequencies 
in hurricane-affected areas (9/7/05).
    FCC informed amateur radio operators that they have the authority 
to make transmissions necessary to meet essential communication needs 
and facilitate relief actions, and that prior FCC approval is not 
required (9/1/05).
    FCC issued a Public Notice that provides information to wireless 
licensees in the affected areas about STAs, FCC points of contact for 
various radio services, rule sections addressing ``emergency 
communications,'' and the temporary waiver of application filing 
deadlines (e.g., renewals, construction notifications, discontinuance 
notices, etc.), construction requirements, and discontinuance of 
service requirements (9/1/05).
    FCC granted STA to BellSouth to use GMRS radios (commercially 
available walkie talkie-type radios that require licenses) in support 
of restoration of communications facilities in Florida, Alabama, 
Louisiana, and Mississippi (8/31/05).
    FCC granted an STA to Detroit Edison Company to operate on eleven 
VHF mobile frequencies in Florida in support of restoration of 
electrical service to areas affected by Hurricane Katrina (8/31/05).
    FCC granted an STA to Ameren, a utility services company licensed 
in the Industrial Radio Service, to operate outside its licensed area 
of operation due to hurricane relief (8/31/05).

Louisiana-Specific Actions
    FCC granted an STA to Verizon to use 6 microwave paths (18 and 10 
GHz) in the New Orleans, LA area to restore communications due to 
damage from Hurricane Katrina (9/16/05).
    FCC granted an STA to Chevron USA, Inc. to use frequency pair 451/
456.3125 MHz in Plaquemines County, LA, to replace communications lost 
in Chevron's Venice offshore loading facilities when Nextel's 
facilities sustained damage (9/16/05).
    FCC granted an STA to the State of Louisiana to use twenty 700 MHz 
frequency pairs in New Orleans, LA, to replace all first responder's 
public safety communications (9/16/05). These channels are in addition 
to those 700 MHz channels authorized under their state license.
    FCC modified the STA previously granted on 9/3/05 to Verizon to use 
4 microwave POPs in Baton Rouge to restore damage due to the hurricane 
(9/15/05).
    FCC granted an STA to Cingular Wireless LLC to operate on PCS 
spectrum at two sites located in Columbia and Monroe, LA, to provide 
critically needed communications services in support of the relief 
effort from Hurricane Katrina (9/14/05).
    FCC granted an STA to BellSouth to operate two microwave paths on 
18 GHz microwave and fixed satellite service frequencies as part of 
emergency radio systems that helped restore BellSouth's 
telecommunications to the New Orleans area (9/14/05).
    FCC granted an STA to Chevron USA, Inc. to use a single base 
frequency 451.1125 MHz and five mobile frequencies in Plaquemines 
County, LA, to replace communications lost in Chevron's storage 
facility when Nextel's facilities sustained damage (9/14/05).
    FCC granted an STA to Amoco Production Company to use frequency 
153.335 MHz within 40 KM of the Mandelville, LA, area for restoration 
of petroleum facilities (9/12/05).
    FCC granted an STA to the State of New Jersey to operate a repeater 
and 200 mobiles on 806/851.3375 MHz in New Orleans for law enforcement 
assistance (9/12/05).
    FCC granted an STA to Texas Utilities to operate station WPFM603 in 
Louisiana (currently operation is limited to Texas only) for 
restoration of utilities (9/12/05).
    FCC granted an STA to Chevron to operate 900 MHz microwave links 
from the coast at Leeville, LA, and Coden, AL, to offshore platforms in 
the Gulf of Mexico (9/9/05).
    FCC granted an STA to Motorola to use channels licensed to Saint 
John the Baptist Parish and Jefferson Parish in New Orleans for public 
safety; the Parishes' systems are not operational due to storm damage, 
and the Parishes have consented to Motorola's request (9/9/05).
    FCC granted an STA to Chemtura Corp. for one base frequency and ten 
mobile frequencies in the 460-470 MHz band in the Saint Charles County, 
LA area (9/9/05).
    FCC granted an STA to the California Highway Patrol to operate 
portable and mobile radios in support of other law enforcement and 
relief agencies in Louisiana (9/6/05).
    FCC granted an STA to Duke Energy to operate an 800 MHz system near 
Tangipahoa Parish in Louisiana (9/6/05).
    FCC granted an STA to LifeCom/Air Methods to set up a control 
center with mobile radio communications in the 460 MHz band in the New 
Orleans area for disaster relief (9/6/05).
    FCC granted an STA to Alltel to operate a 17-watt short range 
cellular system in direct support of the FEMA Director. The system will 
operate initially from Baton Rouge and will later be moved to the New 
Orleans Superdome (9/3/05).
    FCC granted an STA to Cingular wireless to operate on microwave 
frequencies on 6 GHZ microwave frequencies at 21 sites in Louisiana (9/
2/05).
    As part of a Public Notice in the 800 MHz proceeding initiating 
``Wave 2'' negotiations in the 800 MHz rebanding process, FCC granted a 
request from the 800 MHz Transition Administrator to move Louisiana 
from Wave 2, which begins in October 2005, to Wave 3, which begins in 
January 2006. This will enable public safety entities in Louisiana to 
focus on immediate public safety needs (9/2/05).
    FCC granted Alcatel an equipment authorization for a new digital 
microwave radio system that will be deployed by Verizon Wireless in 
Baton Rouge and the southern Louisiana area for transport facilities to 
replace equipment lost in the hurricane (9/1/05).

Mississippi-Specific Actions
    FCC granted an STA to Clearwire to allow operation in BTA 042 
(Biloxi-Gulfport-Pascagoula, MS) to permit service in and around 
Biloxi, MS, and to the Hancock Medical Center in Bay Saint Louis, MS, 
to provide Internet services and computers for access by victims (9/16/
05).
    FCC granted an STA to Sea Tow International to use Marine VHF 
channel 7 in Harrison County, MS, and Marine channel 8 in Hancock 
County, MS, to provide marine rescue and recovery services (9/14/05).
    FCC granted an STA to an amateur radio operator providing 
communications services to the American Red Cross in Ocean Springs, 
Mississippi, to operate on High Frequency bands that he could not 
otherwise use (9/11/05).
    FCC granted an STA to the California Highway Patrol to operate 
portable and mobile radios in support of other law enforcement and 
relief agencies in Mississippi (9/6/05).
Alabama-Specific Actions
    FCC granted an STA to the Marengo County Commission in Demopolis, 
Alabama, to operate on two VHF public safety frequencies (156.12 and 
159.12) for mobiles and base stations within the county (9/8/05).
Tennessee-Specific Actions:
    FCC granted an STA to a Red Cross office to use GMRS frequencies to 
provide security and support in Knoxville, TN (9/7/05).

Broadcast and Cable
FCC Actions
    FCC granted an STA for silent authority to WLVV-AM, WLVV, Inc., 
Mobile, AL (9/15/05).
    FCC released a Public Notice to extend retransmission consent/must 
carry elections in areas affected by Hurricane Katrina (extension from 
October 1, 2005 to November 15, 2005) (9/14/05).
    FCC granted an STA for silent authority to two LPTV stations: 
W30ID, New Orleans, and W36CU, Gulfport (9/12/05).
    FCC granted an emergency authorization to the Houston Independent 
Media Center for use of a low power FM system on 95.3 MHz, to broadcast 
emergency information to evacuees housed in the vicinity of the 
Astrodome, from an area adjacent to the Astrodome (9/11/05).
    FCC granted an application from Austin Airwaves to operate stations 
on 94.9, 95.3, and 99.5 MHz to broadcast emergency information to 
evacuees inside the Astrodome (9/5/05). As of 9/8/05, Harris County 
officials have suspended use of these stations within the Astrodome.
    FCC released a Public Notice to remind video program distributors 
of the need to make emergency information regarding Hurricane Katrina 
evacuation and relief effort accessible to persons with hearing and 
vision disabilities (9/9/05).
    FCC granted an extension for the FCC Cable Horizontal and Vertical 
Ownership Limits Proceeding Reply Period (9/8/05).
    FCC released a Public Notice to extend the Auction No. 84 
settlement period for certain mutually exclusive AM auction 
applications and for the submission of Section 307(b) showings; 
extension given from September 16, 2005 to October 31, 2005 (9/7/05).
    FCC created database to capture information about AM/FM/TV 
broadcasters impacted by the hurricane (9/4/05).
    FCC released a Public Notice waiving certain non-commercial 
educational (NCE) rules to permit NCE television and radio stations in 
the New Orleans area to simulcast and rebroadcast commercial station 
programming (9/2/05).
    FCC compiled information regarding the radio and television 
broadcast operations in Louisiana, Mississippi, and Alabama through 
direct calls and e-mails to over 150 AM/FM/TV broadcasters in the area; 
continually updating information and referring needs to other Federal 
agencies (9/1/05-Present).
    FCC granted waivers to the following non-commercial FM and TV 
stations to permit them to air fundraising programming to aid disaster 
relief efforts (9/1-present):

  <bullet> Association of Public Television Stations, for all its 
        member public television stations to permit interruptions in 
        regular programming for fundraising.

  <bullet> National Public Radio, on behalf of its affiliates, to 
        permit interruptions in regular programming for fundraising for 
        victims and for NPR affiliates directed affected by the 
        hurricane.

  <bullet> National Federation of Community Broadcasters, on behalf of 
        its 183 member stations, to permit interruptions in regular 
        programming for fundraising.

  <bullet> KXPW-LP, Georgetown, TX--two week fundraising effort.

  <bullet> WITF-FM, Harrisburg, PA, for one-minute fundraising spots, 
        from 9/9/05 to 9/30/05.

  <bullet> WBGO, Newark, NJ, for four-hour benefit concert from Lincoln 
        Center, on 9/17/05.

  <bullet> Arkansas Educational Television Commission on behalf of its 
        five-station network.

  <bullet> Greater Cincinnati Television Educational Foundation to 
        permit fundraising by WCET-TV.

  <bullet> KRFC(FM), Fort Collins, CO to permit the broadcast of an 8-
        hour benefit concert on 9/3/05.

  <bullet> Grand Valley State University, Michigan Association of 
        Public Broadcasters, and Michigan Public Radio Network, on 
        behalf of Michigan NCE radio and television stations to permit 
        interruptions in regular programming for fundraising.

  <bullet> KATB(FM), Anchorage, Alaska, to permit interruptions in 
        regular programming to air pre-produced 30- and 60-second 
        segments supporting the North American Mission Board's Disaster 
        Relief efforts, running from 9/2-9/9/05.

  <bullet> WACC-LP, Enfield, Connecticut, to promote and air coverage 
        of a fundraising car wash to be held on 9/10; proceeds to be 
        donated to the American Red Cross.

  <bullet> WRNK-LP, Lanett, Alabama, to make announcements requesting 
        that listeners drop off certain items (bottled water, personal 
        hygiene items, etc., but not cash or other money) from 9/6-9/8/
        05; donated items will be taken to the New Life Family Church 
        in Biloxi, Mississippi.

  <bullet> WHCF-FM, Bangor, Maine, to conduct an on-air fundraiser 
        soliciting pledges for Operation Blessing International, a 
        relief agency based in Virginia Beach, Virginia.

  <bullet> KTIS-FM, Minneapolis, Minnesota, to participate in a 
        fundraising campaign with at least 24 other stations in the 
        market on 9/9/05; funds raised will be given to the Red Cross.

  <bullet> KULA-LP, Ili'ili, American Samoa, to permit KULA-LP to 
        broadcast a fundraising program to benefit disaster relief 
        efforts on 9/8/05.

  <bullet> WVUA-FM, Tuscaloosa, Alabama, to permit the station to 
        promote a fundraising concert to be held on 9/9/05; this is a 
        periodic fundraiser for the station--in this instance, 25 
        percent of the proceeds will be donated to the Red Cross.

  <bullet> KBCS-FM, Bellevue, Washington, to permit the station to air 
        fundraising requests to help rebuild NCE station WWOZ, New 
        Orleans.

  <bullet> WETD, Alfred, New York, to permit the station to air a live 
        broadcast of a ``Coins for Katrina Benefit Concert'' on 9/11/
        05.

    FCC released a Public Notice to help radio and television stations 
resume and maintain broadcast operations to residents of the affected 
areas by outlining streamlined instructions to apply for STAs and by 
waiving requirements that stations notify the FCC within 24 hours of 
using emergency antennas (8/31/05).
    FCC released a Public Notice to assist cable television and other 
multi-channel video programming distributors in the affected areas by 
outlining streamlined instructions to apply for STAs to install 
temporary facilities or modify existing facilities and by waiving 
certain technical requirements (8/31/05).
Louisiana-Specific Actions
    FCC granted an STA for silent authority to WBOK-AM, Christian 
Broadcasting Corporation, New Orleans, LA (9/15/05).
    FCC granted an STA for silent authority to WDSU-TV and WDSU-DT, 
Hearst-Argyle Television, New Orleans, LA (9/15/05).
    FCC granted an STA for silent authority to KMRL-FM, White Dove 
Fellowship, Buras, LA (9/14/05).
    FCC granted an STA for silent authority to WTUL-FM, Tulane 
Educational Fund, New Orleans, LA (9/14/05).
    FCC granted tolling pursuant to Section 73.3598(b)(1) via letter to 
American Family Association, extending the period to construct KSUL-FM, 
Port Sulphur, LA, by at least 6 months (9/14/05).
    FCC granted 90 additional construction days via letter to Star Over 
Orlovista, permittee of WEUS(AM), Orlovista, FL (9/14/05).
    FCC granted an STA for silent authority to WHNO-TV, CH 20, New 
Orleans, LA (9/13/05).
    FCC sent a letter to Equity Offices, in Louisiana, to expedite 
entrance by station staff to WUPL-TV facility located in Jefferson 
Parish, LA (9/13/05).
    FCC granted an emergency authorization pursuant to the Salvation 
Army to operate an emergency FM station on 107.9 MHz to broadcast to 
residents and recovery workers in New Orleans, LA (9/12/05).
    FCC granted an STA for WWOZ(FM), Friends of WWOZ, Inc., New 
Orleans, LA, to remain silent; station has been silent since August 27, 
2005 (9/9/05).
    FCC granted an STA for WVUE and WVUE-DT, LA, licensed to Emmis 
Television, to remain silent (9/8/05).
    FCC granted an STA for WWL-DT (WWL's digital station), New Orleans, 
LA, licensed to Belo Corporation, to remain silent (9/8/05).
    FCC granted an STA for WTIX-AM, WTIX, Inc., New Orleans, LA, that 
ceased operations on August 29, 2005, to remain silent (9/7/05).
    FCC granted an STA for WTNO-LP, New Orleans, LA, licensed to Tiger 
Eye Finance, Inc., to remain silent (9/7/05).
    FCC granted an STA for WWNO(FM), New Orleans, LA, to operate from 
its licensed site with an emergency antenna and reduced power (9/7/05).
    FCC granted an STA for stations licensed to American Family 
Association in Louisiana that ceased operations on August 28, 2005, to 
remain silent (9/6/05).
    FCC granted an STA to WUPL(TV) of Slidell, LA, to remain silent for 
60 days (9/1/05).

Mississippi-Specific Actions
    FCC expedited grant of program test authority and covering license 
for major facilities upgrade to WBBN, Taylorsville, MS, providing 
greatly increased coverage area (9/13/05).
    FCC granted an STA to permit Mississippi Public Broadcasting, 
licensee of NCE station WMAH-TV, Biloxi, MS, to rebroadcast September 
11 NFL games of the New Orleans Saints and Green Bay Packers (9/8/05).
    FCC granted an STA to Hancock County Emergency Management to 
operate an emergency FM station on 103.5 MHz to broadcast to the Bay 
City-Wavelend-Shoreline Park, Mississippi area; we understand this to 
be the only station operating in the area (9/8/05).
    FCC granted an STA for stations licensed to American Family 
Association in Mississippi that ceased operations on August 28, 2005, 
to remain silent (9/6/05).
    FCC granted an STA for WFMM(FM), Telesouth Communications, Inc., 
Sumrall, Mississippi, to remain silent after it went silent on 8/29/05 
(9/6/05).

Satellite
General FCC Actions
    FCC granted Harris the authority to operate twelve temporary-fixed 
earth stations to transmit voice and data communications between points 
in the Gulf Coast Region and various agencies in Florida in their 
disaster relief efforts (9/21/05).
    FCC granted an STA to BBC News to use 1.2 Meter temporary-fixed Ku-
Band antenna to provide news coverage of the Hurricane Katrina 
aftermath (9/19/05).
    FCC granted an STA to PetroCom for use of a C-Band antenna to 
restore its digital backhaul operations from the Gulf of Mexico (9/13/
05).
    FCC granted an STA for Maritime Telecommunications Network to use 5 
conventional Ku-Band Earth stations for communications in the area 
affected by the hurricane (9/10/05).
    FCC granted an STA to Viasat to operate conventional Ku-Band VSAT 
to provide Internet access service to FEMA (9/7/05).
    FCC granted an STA to BJ Services to operate conventional Ku-Band 
VSAT remotes to reinitiate Internet access services lost by Katrina (9/
7/05).
    FCC granted an STA to ARD German Television to use a suitcase 
antenna on a German satellite news-gathering truck to provide news 
coverage (9/5/05).
    FCC granted an STA to Maritime Telecommunications Network to 
operate 5 satellite dishes providing transportable Internet access (9/
4/05).
    FCC granted an STA to MTN to offer satellite Internet access on 3 
government-run cruise ships (9/4/05).
    FCC granted an STA to Canada TV to use a transportable satellite 
news gathering truck (9/3/05).
    FCC granted an STA to Iridium to use spectrum owned by Globalstar 
to increase Iridium's capacity (9/2/05). Iridium has turned on its 
equipment on this frequency and no interference problems have been 
reported.
    FCC granted an STA to Loral Skynet for authority to use a satellite 
dish transportable on a Humvee to provide free VoIP and Internet access 
at the site of the relief efforts (9/2/05).
    FCC released a Public Notice to help satellite and submarine cable 
providers maintain operations to emergency communications services in 
the affected areas by outlining streamlined instructions to apply for 
STAs (9/1/05).
    FCC granted an STA to Independent Television News to use satellite 
spectrum to serve a transportable news gathering truck from London in 
support of hurricane relief (9/1/05).

Louisiana-Specific Actions
    FCC granted an STA to VSL Networks to use a Ku-Band antenna to 
provide service to Motorola in support of the Louisiana state police 
(9/7/05).

Mississippi-Specific Actions
    FCC granted an STA to Telenor Satellite Services to operate one 1.8 
meter temporary fixed C-Band antenna to communicate with NSS-7 @ 2.2 
W.L. at Camp Barron Point, MS (9/16/05).
    FCC granted an STA to permit Telenor Satellite Services to operate 
a 2.4 meter temporary fixed C-Band antenna on a hospital ship at Bay 
St. Louis, MS (9/9/05).

Coordination With NTIA
    FCC assisted with NTIA's grant of STAs for the U.S. military to use 
75 frequencies.
    FCC granted an STA to Intel Corporation for operation in the 
frequency band 3650-3700 MHz to provide wireless services for relief 
center located at Kelly Air Force Base, Texas (9/8/05).
    In coordination with NTIA, FCC granted an STA to Intel Corporation 
for operation in the frequency band 3485.5-3585.5 MHz to provide 
wireless services for relief center located at Kelly Air Force Base, 
Texas (9/8/05).
    In coordination with NTIA, FCC granted an STA for Intel to set up a 
WiMax system in the area from Biloxi and New Orleans to provide 
Internet connectivity to 225 Red Cross Disaster Centers (9/3/05).
    In coordination with NTIA, FCC granted an STA request from Time 
Dominion for authorization to use high-power ultra-wide band equipment 
for through-the-wall imaging system operations (9/2/05).
    In coordination with NTIA, FCC granted an STA to France Telecom to 
provide Inmarsat services and to operate Inmarsat terminals in support 
of hurricane relief (9/1/05). FCC extended STA on 9/8/05.

        Appendix B will be retained in Committee files.

    The Chairman. Thank you very much and I would propose we 
have a five minute limitation. We still have four witnesses on 
another panel.
    Mr. Chairman, would it make any sense for us to authorize 
you to issue the credentials that repair crews need in advance 
so they can move immediately in the event of a disaster of this 
type?
    Mr. Martin. Well, Mr. Chairman, we certainly try to 
coordinate with FEMA in getting them to issue those 
credentials, and I think the Commission being able to play an 
increased role in that is important, but in the end I think 
that the FEMA and the emergency personnel that are on the 
ground are probably going to be the ones that need to issue the 
credentials. Sir, the Commission could be more involved in that 
process and try to play a more responsive role, but I do think 
that emergency management personnel on the ground ultimately 
have to be the ones that can actually issue those credentials.
    The Chairman. Almost every one of these areas has a 
disaster plan. Some of them use them, some don't. But the 
disaster plan itself could provide that you could authorize 
persons in advance to have such credentials so they can move 
before FEMA. FEMA will be very busy. I'm not sure we can rely 
upon them taking the time to issue the credentials to 
communications crews so we would urge you to talk to FEMA and 
see if it can't be worked out in advance.
    Mr. Martin. We certainly may end up considering that. Maybe 
there's a way to authorize a certain number of personnel in 
advance to do that.
    The Chairman. I certainly applaud and I think the Committee 
would applaud your action using the universal service funds in 
the way you've just outlined. We want to make certain, of 
course, that those networks are set up as quickly as possible. 
What is the timeframe? Did you put a limit on the amount of 
time they can use these monies for universal service for the 
things you outlined?
    Mr. Martin. Well, we, for example, allowed some of the 
schools and libraries to apply for money from the schools and 
libraries program. They could do that for 2005 and 2006 funding 
cycles, so we have established some limits but we have 
recognized it's going to take some time for them to be able 
utilize those resources.
    The Chairman. Is that Fund robust enough to withstand this 
disaster and the next one coming?
    Mr. Martin. We certainly hope so and will do everything we 
can. I think that the Universal Service Fund has certainly been 
critical to making sure that everyone in the country is 
connected. I think that it's traditionally done a very good job 
of making sure that we can utilize those resources so that 
everyone can stay connected. I think it will be able to take 
care of this as well, I hope.
    The Chairman. We've scheduled a hearing on interoperability 
in disaster areas for next Thursday morning. I wonder, you 
mentioned a blue ribbon panel commission to examine into the 
disaster that has taken place already, would you intend to ask 
that panel to look into the question of legislation in those 
items that you believe you should have authority for that you 
don't have now.
    Mr. Martin. Yes, sir, we'll make sure that will be one of 
the things they would look into.
    The Chairman. What's the time frame for that report?
    Mr. Martin. Well, we actually have a report that is due on 
the interoperability issue and some of the other spectrum needs 
of public safety that is actually due in December, but I would 
imagine that we will have this other report which will be due 
sometime in the early part of next year.
    The Chairman. Well, is our hearing next Thursday premature 
as far as you're concerned? This legislation is forthcoming now 
about interoperability.
    Mr. Martin. I wouldn't comment on whether the Senate would 
want to do hearings or not, whether that would be premature, 
but I'm sure that you all would continue to gather the 
information you need to make the judgments about legislation.
    The Chairman. Thank you very much. Again, I congratulate 
you for the way you and your colleagues at the Commission have 
acted during this disaster. We hope you have similar 
preparation for the one that is coming. Senator Inouye.
    Senator Inouye. Thank you very much. Chairman Stevens 
brought up this blue ribbon panel that you intend to have 
appointed. Will this panel differ from the present two panels 
you have, the Network Reliability Interoperability Council and 
Media Security and Reliability Council?
    Mr. Martin. Well, I think it will in that those were 
looking at more longer-term issues as they relate to making 
sure the network was more resilient. I think I would want this 
particular group to look at expressly what happened with 
Hurricane Katrina. What were some of the deficiencies that 
occurred, for example, with emergency responders being able to 
communicate? What are the immediate recommendations as opposed 
to just longer-term network resiliencies? I'd want them to be 
examining the flaws that may have occurred down in the Gulf 
area, and focus particularly on that. I also think it might be 
important to make sure that public safety were even more 
involved than they have been in the Network Reliability and 
Interoperability Council.
    Senator Inouye. Now these two councils adopted so-called 
voluntary best practices?
    Mr. Martin. Yes, sir.
    Senator Inouye. Were they effective?
    Mr. Martin. Well, some of the voluntary best practices 
about having, for example, backup power from the wireline 
networks, I think, were effective, but certainly the hurricane 
demonstrated that, even if you have backup power you still need 
to have access to fuel and adequate security to be able to get 
in and establish and service that backup power. And in some 
instances, for example, in New Orleans they needed to have 
adequate water to be able to continue to cool the generators 
that were working. While we did establish best practices for 
what the backup power requirements might be, I think those are 
the kind of issues that we need to thoroughly explore. So I 
think they were effective in setting up some of the parameters, 
but I think it needs to go further and we need to explore it in 
more depth.
    Senator Inouye. So this new panel will also be looking at 
best practices.
    Mr. Martin. Yes, sir.
    Senator Inouye. Now, will you make them voluntary or would 
you put some muscle in back of it?
    Mr. Martin. Well, I think we can see what recommendations 
come out of the panel for the best practices and whether they 
would recommend that they become more specific requirements or 
whether they continue to be voluntary.
    Senator Inouye. Were these best practices implemented 
during Katrina?
    Mr. Martin. Well, I think that they were. As I said, I 
think that, for example, on the wireline network I think that 
they, many of BellSouth's facilities I think did comply with 
the their best practices, but I don't think that those best 
practices had always anticipated some of the problems with 
security, getting access to fuel, that actually occurred in 
this instance.
    Senator Inouye. Well, both of us here commend you for your 
extraordinary leadership during Katrina. Do you believe that 
the Commission should have a more prominent role, maybe as a 
facilitator?
    Mr. Martin. I certainly think we did everything we could 
during Hurricane Katrina to act as a facilitator, and I think 
that the Commission does have both an expertise in the 
communication infrastructure and extensive contacts with the 
various companies, and I think that the government should be 
trying to take full advantage of that. So certainly if we are 
given the opportunity to have even more of a prominent role as 
a facilitator we would certainly be able to do that.
    Senator Inouye. Thank you very much.
    The Chairman. Senator Burns.
    Senator Burns. I guess I'm just kind of interested in that 
report that'll come out in December. I congratulate you on 
setting up and taking some action and changing some policies 
with regard to a disaster area. I have no questions other than 
that. I'm pretty interested in that report though and when it 
comes out and what your recommendations might be. As we move 
forward on this--you said that there were 23 call centers that 
were knocked completely out down there, and how many are back 
in operation now?
    Mr. Martin. There were 38 call centers that were actually 
knocked down and all but three are back in service now.
    Senator Burns. Now, in those call centers did they have 
mobile units? Did they have a unit that they could move out of 
their present location to be moved to a place where there's 
shelter, or was there shelter to be moved to that would be an 
alternative to usual operating areas?
    Mr. Martin. I don't think they had anything that was 
mobile. I don't think there--in some instances there might not 
have been anything in the immediate area that would have been 
able to withstand the storm either. But I think that when I 
talk about redundancy for the 9-1-1 call centers, what we need 
to do is make sure that the emergency call centers and the 
Public Safety Answering Points have redundant capabilities so 
that when the call center goes down they automatically identify 
what's the closest local 9-1-1 call center so they can 
automatically reroute that traffic of any that comes in to the 
call center to whatever local community or the next nearest 
town that has a call center. And, unfortunately, we didn't have 
that as a standard protocol for the Public Safety Answering 
Points, so when the call center went out the calls didn't go 
anywhere they just dropped right there. Rather than focus on 
the mobility of the infrastructure, we should make sure that 
the calls automatically get routed to a different call center 
going forward.
    Senator Burns. Well, that is probably what concerns most 
county executives. If you've got an integrated system where 
that's the call center for fire, police, and first responders 
the ability for that thing to survive or to be mobile or 
redirected is very important and we must take that under 
consideration whenever we pass this bill. Thank you.
    Mr. Martin. Thank you.
    The Chairman. Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Chairman 
Martin, you've certainly gotten into this issue and I 
appreciate your involvement very much. The FCC has stated a few 
months ago that the Agency lacks the authority to grant 9-1-1 
liability protections to the answering centers and the VoIP 
providers in the same way that you do with regard to wireless 
and wireline providers. You suggested that Congress would need 
to take that step, and I certainly agree, and that's why a 
number of members on this committee have co-sponsored this 
bill, S. 1063. In addition, I mentioned Senator Burns, it's 
also Senator Snowe, Senator Kerry, and others not on this 
Committee. Would that help the situation from your perspective 
as the FCC Chairman?
    Mr. Martin. Well, the Commission certainly has done 
everything it can within its authority today to require that 
all technologies including Voice over IP comply with the 9-1-1 
rule. We did at the time, though, state that the issues related 
to liability, Congress would need to end up addressing. As I 
understand it, the bill that both you and Senator Burns have 
introduced also does address the IP technologies access as a 
mandated access to some of the underlying telecommunications 
infrastructure which the Commission doesn't have the authority 
to do today. So I think that great progress is being made in 
trying to make sure that Voice over IP technologies are going 
to be meeting that kind of a 9-1-1 deadline, but I think that 
everyone should do all we can to make sure of that, so I think 
any additional help to facilitate that is obviously welcome.
    Senator Bill Nelson. One of the things we're hearing from 
the industry is that they're having trouble without the 
liability protection of getting insurance, various contracts, 
and getting capital investment that they need. Now, Congress 
gave this protection to the wireless and the wireline providers 
and so we'll see if that is the pleasure of this committee and 
I certainly hope it will be. Again, I say that, unfortunately, 
we had a personal experience of this in Deltona, which is north 
of Orlando, with a family and they got caught because they 
didn't have E-911 service.
    Let me ask you, the FCC has acted in requiring the VoIP E-
911 capability, but you directed the VoIP companies to shut off 
phone service to any customers who haven't acknowledged 
limitations in their VoIP 9-1-1 service. Well, there have been 
a bunch of us who have written you about this asking you not to 
cut off people's VoIP service. This, of course, could affect an 
awful lot of people nationwide. Can't your agency rethink this 
requirement especially in light of Hurricane Katrina?
    Mr. Martin. Well, Senator, we actually have tried to 
provide some additional flexibility on that in that we've 
continued to extend that deadline as we've seen the carriers 
make progress in trying to make sure that all of their 
customers are notified. And the family that you mentioned from 
Florida actually was one of the families that came before the 
Commission and petitioned us and asked us to put in both the 
requirement that the voice-over IP key providers provide access 
to 9-1-1 capability and that they inform all their customers 
about any of the limitations until they meet that requirement. 
And I think that in some companies we've seen extraordinary 
progress in making those customer notifications so that we've 
got some companies that have 100 percent compliance and 
numerous companies that have gotten over 90 percent compliance, 
but there are some that are still straggling in. We actually 
have a report that's due to the Commission today from all the 
voice-over IP key providers to give us a status update about 
where they are on obtaining those requisite notifications from 
their customers. So we're going to be anxious to take a look 
and see just how much progress has been made. Like I said, 
several have made extraordinary progress and I think some are 
still straggling in.
    Senator Bill Nelson. Well, to make my point, has the FCC 
ever ordered on a wide scale that residential phone service be 
cut off?
    Mr. Martin. Not that I'm aware of but I don't think that 
there has ever been someone marketing to residential customers 
service as a replacement service for wireline landline service 
that didn't provide 9-1-1 either, so while we haven't ever 
ordered the cutting off of retail customer service in the mass 
market, there also hasn't been an instance in which someone was 
marketing a replacement service for traditional telephone that 
was also not capable of providing that 9-1-1 service.
    Senator Bill Nelson. Well, obviously, the problems have 
been brought to the fore, and we'll do our part in trying to 
solve it. Thank you, Mr. Chairman.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. And, again, 
congratulations, Chairman Martin, on the fine job that you have 
done. Do you support providing additional spectrum to first 
responders as recommended by the 9/11 Commission?
    Mr. Martin. Yes, sir. I think that it's critical that first 
responders have all the access to the spectrum that they're 
going to need, and they're going to need some additional 
spectrum to have the interoperability capability they need.
    Senator McCain. And don't you think that the entire 
spectrum should be turned over rather penalize some 
broadcasters who happen to be on that spectrum, as opposed to 
others who are not?
    Mr. Martin. I think that it's, I think that it is important 
for the government to figure out a way to get to the end of the 
digital transition, and I think it'll be easier on consumers in 
many ways if more of the broadcasters are involved all at the 
same time, but my focus has been on what's going to be the----
    Senator McCain. If you can turn over some why shouldn't you 
be able to turn over all? I mean, why penalize one group of 
broadcasters who happen to reside on that first responder 
spectrum as opposed to others? It seems to me that there's a 
date certain, although that was emasculated by a provision in 
the Balanced Budget Act, but all spectrum should be turned over 
rather than having some turned over and some not. That it would 
be patently unfair to me.
    Mr. Martin. Maybe I misspoke. I was saying I think that it 
would also be more cumbersome or more burdensome on consumers 
if you didn't have all of the broadcasters trying to make the 
transition at the same time, so I wasn't in disagreement with 
you.
    Senator McCain. OK. You mentioned that satellite 
communications and I read satellite communications didn't break 
down, is that correct?
    Mr. Martin. That's correct. Satellite communications----
    Senator McCain. What's the lesson there? And I only have a 
few minutes. What's the lesson?
    Mr. Martin. Well, the lesson is that the satellite 
capabilities, while they can be more expensive and difficult to 
establish, they certainly have some additional resiliency 
because they're not relying on a terrestrial network, so we 
need to integrate satellite capability into emergency 
responders.
    Senator McCain. So we should certainly consider inclusion 
of satellite communications as part of the overall solution to 
our ability to respond to disasters, is that right?
    Mr. Martin. That's correct.
    Senator McCain. Tell us about smart radios, Chairman 
Martin. You've mentioned in your written statement that smart 
radios enabled people to jump from one spectrum to another, or 
one frequency to another. Talk to us a little bit about that.
    Mr. Martin. Well, smart radios have the ability to re-tune 
or to tune just like you do a regular radio from different 
frequencies, so what that would allow is during a time of 
emergency is, if the fire or the police from other surrounding 
areas, or even from places far away, might have radios that in 
their hometown communicate on a certain frequency could come 
into New Orleans and use any available frequency to continue to 
communicate. And so if everyone has radios that are smart 
enough to re-tune themselves then you could say, well, in New 
Orleans, here's all the spectrum that would be available even 
if that was a different area of spectrum or different 
frequencies than what might be available in New York where 
they----
    Senator McCain. So we should definitely encourage that kind 
of equipment?
    Mr. Martin. Yes, I think so. And it will allow for both 
more efficient and more resilient communications for first 
responders.
    Senator McCain. Mr. Citron is going to testify here in a 
minute that if he could offer this committee any advice on 
rebuilding communication infrastructure in the Gulf Coast it 
would be not to favor one facility or provider over another, 
instead he suggests that we create a climate that fosters 
deployment of all those technologies. Do you agree with that 
statement?
    Mr. Martin. Yes, I do.
    Senator McCain. How do we do it?
    Mr. Martin. Well, I think that the Commission has been 
attempting to move forward in not favoring any particular 
technology or any particular service provider, but I think that 
the--I think that we should continue on with the policy that 
we've adopted that does that, but I don't think there's any 
particular----
    Senator McCain. How are you progressing so far?
    Mr. Martin. Well, I think that we are making progress in 
making sure that other technologies can provide voice 
communications, not only wireline and traditional telephones 
but wireless and, for example, the cable companies are being 
able to take advantage of their infrastructure to provide 
voice-over IP for voice communications. So I think that we're 
seeing new technologies all the time that are able to take 
advantage of that, and I think that's what Mr. Citron is 
probably meaning although I haven't seen his testimony.
    Senator McCain. I think he may also mean that one entity or 
another should not dominate. In other words, there should be a 
number of corporations allowed to compete for these facilities. 
I think he means that as well, or these capabilities.
    Mr. Martin. Sure. And I think that that's--I think that is 
important as well.
    Senator McCain. If you had one major lesson that we should 
learn from this disaster as far as communications are 
concerned, what would that be, Mr. Martin?
    Mr. Martin. Well, I think that the--I think certainly the 
public safety interoperability and the importance of being able 
to re-establish that emergency responder network is the first. 
I would also say a more comprehensive emergency alert system is 
the second. And I think you've got to make sure that----
    Senator McCain. And whose job is that?
    Mr. Martin. What's that?
    Senator McCain. And whose job is that?
    Mr. Martin. The emergency alert system?
    Senator McCain. Yes.
    Mr. Martin. The emergency alert system currently, we've got 
one that applies to broadcast. We also are extending that to 
other digital mass media, but I think it needs to be more 
integrated into other new technologies as well. The Commission 
is asking whether we have the authority to but that's not 
clear. Other government agencies are looking at it as well, 
NOAA, for example, and I think that several bills in Congress 
are asking who should be responsible for that.
    Senator McCain. Well, it seems to me, Mr. Chairman, that 
they should at least--the FCC should at least play a role in 
developing that capability, and I hope we could perhaps address 
that to give them that authority if they don't have it. I thank 
you, Mr. Chairman. I thank you for holding this very important 
hearing.
    The Chairman. That is our intent. We'll have that hearing 
next Thursday. Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman. I certainly agree 
with Senator McCain about the value and robustness, the 
resilience created and offered by satellite phone systems. I 
think resilient was the word that you used, Chairman Martin. 
Has the FCC issued an order to require satellite phone 
providers to comply with 9-1-1 service?
    Mr. Martin. Well, we have issued an order that requires 
satellite phone providers to provide a 9-1-1 service. They do 
it in a slightly different way, trying to recognize they have a 
different technology and different technical benefits and 
limitations, but yes we have.
    Senator Sununu. Why not issue an order similarly 
recognizing the technological difference then with IP voice 
providers?
    Mr. Martin. I think we did, and I think in our order that 
we did recognize some of those similar limitations with IP 
technologies and tried to give them some additional advantages. 
For example, on the wireless side we require that the 
technology automatically provide location information and we 
haven't put on those requirements on voice-over IP providers, 
so I think that our orders thus far have recognized the 
limitations of those different technologies.
    Senator Sununu. Do you feel that you've worked effectively 
with providers and the emergency response community in 
structuring these orders to take into consideration the 
concerns of the providers with regard to technology in 
formulating the rule?
    Mr. Martin. I do. And I think we've worked very closely 
with both the providers that are utilizing this technology but 
also the public safety community, and both of them have come in 
and obviously not always agreed, but we've worked with both of 
them.
    Senator Sununu. You suggest that this kind of a requirement 
is typical, I guess, that no new system has been rolled out 
without this requirement, although to the best of my knowledge 
cell phone wireless providers when their service was first 
rolled out, were not subjected to this kind of a requirement.
    Mr. Martin. I think there are two different issues. I mean, 
I think that one is the difference between basic 9-1-1 
connections and enhanced or so-called enhanced 9-1-1 
connections. The basic 9-1-1 is just the ability to deliver the 
call to a public safety official, the Public Safety Answering 
Point. And the cellular technologies have been required to 
provide that basic 9-1-1 service since 1996, and all of them 
have been in compliance since then.
    Senator Sununu. Since 1996? I appreciate that, although I 
think the pace with which they've been able to comply with the 
enhanced services has been slower than many people would like, 
slower than the providers themselves would like, but even so, 
1996, that wasn't when cell phone service, wireless service, 
was introduced.
    Mr. Martin. No, it wasn't. It was introduced earlier, and 
actually it created a problem for the Commission at the time in 
1996 that the technology had become so widespread and many of 
the carriers complained that it made it more difficult to then 
implement a 9-1-1 service. And the fact that we delayed that 
requirement made it more difficult to implement later. And in 
addition to that, at the time, cellular service was not being 
marketed as a replacement for landline or wireline service, 
unlike what's occurring with voice-over IP today, where they're 
telling people to turn off their other phones. At the time 
cellular technology until the mid-1990s was only being used as 
a complementary service, and I think that's an important 
distinction between what's going on with voice-over IP today.
    Senator Sununu. Technology changes, times change, and I 
think that's the broad point here. You've got different 
services, each with different strengths and weaknesses, 
different qualities of resilience, cell phone service, 
satellite service, IP service, and I think the lesson is in 
each case, certainly in previous cases, the Commission has 
worked to identify or recognize technological capabilities, 
technological limitations, and to make sure that the orders it 
puts out do not inhibit, distort, the pace of innovation. We 
have liability issues that could dissuade a lot of people from 
making investments in emergency services if they're not 
addressed, and I just want to underscore the importance of the 
Commission recognizing that. If we put out too many arbitrary 
dates, or if we try to force everyone into the exact same 
position or the exact same approach to emergency services, 
customers and security and safety is ultimately going to 
suffer. You said there were 38 9-1-1 centers that went down. 
Why did those 38 centers go down?
    Mr. Martin. Many of them were actually destroyed along the 
Gulf Coast. Even in the Mississippi and Alabama area I saw 
several--I saw one Public Safety Answering Point that was 
actually physically destroyed, so they went down because they 
were physically destroyed.
    Senator Sununu. I imagine, of course, the ones near the 
coast but 38, it's a very long geographical pattern, you showed 
the charts there. I don't imagine that any more than half of 
those were physically destroyed----
    Mr. Martin. Oh, no, no, no. There was a wide variety of 
reasons why.
    Chairman Sununu.--inoperable. Were they able to switch and 
transfer calls to senders that were online in order to meet the 
emergency needs?
    Mr. Martin. They have the technology available to do that. 
They didn't have a protocol in place on who to switch it to, 
and that was what I was talking about in my testimony, when I 
said that we need to make sure that the PSAPs put in place when 
their call centers go down where the traffic is supposed to go. 
Many of the local Public Safety Answering Points hadn't 
actually told anyone where that traffic would go so it just got 
dropped. So it's not that the technology wasn't capable, it was 
actually that they hadn't told it where to be redirected.
    Senator Sununu. Well, and we can argue about what's 
technology-related and what isn't. There were obviously 
inadequacies in the existing system, things we'd like to change 
and improve in the existing system, which brings us back to the 
point of different technologies, different approaches. We want 
to make sure we're encouraging innovation and new ideas to make 
that overall system more robust and more resilient rather than 
just say everyone participate in the system as it is and 
subject everyone's system to the same shortcomings. So there's 
a value to redundancy, there's a value to different systems, 
whether it's the satellite systems spoken about by Senator 
McCain, the IP voice systems, the wireless systems, and the 
work that the wireless carriers did in being able to put mobile 
facilities on the site, and we want to make sure that we don't 
burden everyone with the same weaknesses because if we do so, 
we're going to create a lot less incentive for innovation. 
Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much. I do believe there's a 
capacity problem in some of these automatic adjustments as far 
as these systems are concerned. The weather bureau has a 
pilot's cell phone that you can get that's interoperable 
anywhere in the United States, so I would urge you to take a 
look at what the weather service has already done. I also want 
you to know I've just been informed there's a $2.5 billion 
dollar procurement going on at FEMA for emergency 
communications equipment, but for some reason or other 
satellite communications is ineligible for that. I would urge 
you to talk to FEMA and ask them why. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and I have an 
opening statement that I'd like to submit for the record.
    The Chairman. Thank you, but I----
    Senator Vitter. Sure.
    The Chairman.--failed to recognize the Senator Ben Nelson 
sitting over there.
    Senator Ben Nelson. Thank you, Mr. Chairman. I might be 
easily missed but I appreciate it very much.
    The Chairman. I think you must not have been there for a 
while, Senator.
    Senator Ben Nelson. I stepped out for a moment.
    Chairman Martin, we're looking at another hurricane 
advancing toward the coast of Texas we believe. Perhaps the 
latest update will tell us closer in proximity where it's going 
to hit. Given what you know from the Katrina experience, do you 
have any knowledge or any ideas or any guesses about what might 
happen with 9-1-1 centers in that area with all kinds of 
wireless and landline center or capability or service? Any idea 
about what might happen with interoperability to give us some 
idea of what we're facing this weekend?
    Mr. Martin. Well, many of the issues as it related to 
interoperability and the emergency personnel to be actually 
able to communicate when infrastructure has been damaged are 
hard to predict and I don't think there are any short-term 
fixes. I think the issues as they relate to making sure local 
PSAPs, the local 9-1-1 call centers, have identified who they 
want the traffic to go to if they're down. That's probably 
something that can be done even before the hurricane strikes.
    Senator Ben Nelson. So they are in a position to be able to 
make decisions like that, and perhaps they've learned from the 
Katrina experience what steps they might take to protect 
against being down?
    Mr. Martin. Yes, and so here at the Commission we'll make 
sure we try to reach out to those public safety communities 
along the coastline of the potential area. We've already 
started reaching out today to some of the communications 
infrastructure companies, the communication service providers, 
to try to help them with a contact point, identify what 
services they have in the area, and make sure that we're trying 
to get in touch with them before, whereas in Hurricane Katrina, 
we were actually trying to do that afterwards. So we were 
trying to reach out to radio stations, TV stations, afterwards. 
In this case we're trying to reach out to them before to 
establish lines of communication so it's easier to get an 
update.
    Senator Ben Nelson. What might we expect in other 
communication service, whether it's wireless or otherwise?
    Mr. Martin. Well, like I said, it's hard to end up 
predicting what will end up being the destruction to outside 
infrastructure. I certainly think that one of the things that 
was unique about New Orleans was the fact that when the--
because of the way it was situated below sea level that even 
the flooding that occurred, in most instances when a hurricane 
comes through, while there could be extensive damage, the water 
retreats, and then you can get communications workers in more 
easily. During my discussions with both wireless and wireline 
companies, they talked extensively about the unique aspect of 
New Orleans in which the water surged in and then stayed, and 
that really complicated their efforts to restore communications 
in a way that I don't anticipate it would be exactly the same 
along the coast of Texas where Hurricane Rita is supposed to 
strike. So I think that--I think some of the problems, as it 
related to Hurricane Katrina and exactly what happened in New 
Orleans, are somewhat unique. At least that's what I've been 
told by many of the companies that have been involved in 
numerous restorations, particularly in Florida last year, for 
example, where there were several hurricanes that hit, and 
Andrew previously in South Florida. So they said along the Gulf 
Coast, while there was significant destruction, that was a 
relatively normal operation to try to re-establish 
infrastructure, but New Orleans presented unbelievable problems 
because they couldn't even get their crews in because of the 
water and because of the security problems.
    Senator Ben Nelson. Now, the CEO of AT&T has called on the 
FCC to require every communications provider to adopt crisis 
management plans. Apparently, AT&T has taken on a fairly 
significant and extensive plan involving emergency vehicles. 
What are your thoughts about your authority to require that, as 
well as whether you think that that's a good suggestion or not?
    Mr. Martin. Well, I certainly think that the Commission 
would have the authority to require at this time that they have 
some kind of emergency response plans. I think that one of the 
things that the Commission should be evaluating is whether the 
best practices that were voluntary were sufficient in this case 
or whether we need to have some additional requirements or at 
least some minimum level of expectation of what the emergency 
response plan should be. So I think that's actually one of the 
things that the Commission should address first, is whether or 
not we need to be having some additional requirements.
    Senator Ben Nelson. Well, as things stand at the moment, 
obviously there are some questions about reliability, 
redundancy, with respect to communication systems. Do you have 
any particular thoughts that you would like to share or that 
you might put together in the form of a rule, regulation, that 
might cure the questions that exist right now? Answer the 
questions and cure the concerns that exist right now about 
redundancy and resiliency, as well as reliability?
    Mr. Martin. I don't have anything specific at this time, 
but we certainly are looking at it and I'll try to get back to 
you as quickly as we can with it.
    Senator Ben Nelson. Thank you. Thank you, Mr. Chairman. 
Thank you.
    The Chairman. Now, Senator Vitter.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. I have an opening 
statement that I'd like to submit for the record.
    The Chairman. Thank you. Yes, It will be.
    Senator Vitter. I guess if I could underscore just a few 
points from it as a person who was on the ground, first, in 
Baton Rouge and then after the storm in the stricken area, just 
want to underscore how just complete and total the implosion of 
communication seemed to be. And when you're right there trying 
to communicate with people it's very dramatic and I really 
can't--there's no way I can overstate it because it was pretty 
stunning to everybody involved how just completely dark the 
communication side was, not only initially but for some time 
after that. And I also want to underscore what complications 
that creates. Obviously, that's a problem coordinating relief 
and other activity, but it also gives folks in the stricken 
area an unbelievable sense of isolation, and the feeling that 
nobody in the outside world is doing anything, even when we're 
trying, and that is a very real negative impact. And the second 
thing it does is it puts the sort of normal process of rumors 
floating around, it puts it through the stratosphere, because 
all of a sudden there's no ability to get real and accurate 
information from the ground and so the rumors that begin go 
through the stratosphere and often make situations worse in 
terms of inflating concerns and not allowing folks to address 
the reality. So I just want to underscore that.
    I also want to underscore from my opening comments how 
first responders on the ground just performed heroically in the 
face of all this, including folks having to physically travel 
to Baton Rouge and elsewhere to communicate and get pleas for 
supplies and other things. So I certainly want to salute all of 
the first responders and local leaders who did that.
    [The prepared statement of Senator Vitter follows:]

  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana

    Mr. Chairman:
    I want to thank you for this hearing. Also, I want to thank 
Chairman Martin and the rest of our witnesses for being here today.
    One of the major problems experienced in almost every community 
after Hurricane Katrina was that they and their leaders were isolated. 
Communication in most communities was nonexistent because telephone, 
cellular phones, and other communication systems were so badly damaged.
    This lack of communication caused isolation that led to a number of 
the problems we experienced after the storm, including lawlessness, a 
lack of basics such as food and water, a slower-paced rescue effort 
than would have otherwise been possible, and a slow-paced evacuation of 
medical facilities.
    Because of the lack of communication, officials had to physically 
travel to Baton Rouge just to make their needs known and request 
assistance.
    Hurricane Katrina destroyed the communications infrastructure. More 
than 1,000 cell towers were knocked over. More than three million 
people on the Gulf Coast lost landline service. Bellsouth reported 
unprecedented losses of central offices from the storm, with many 
completely destroyed as never before in a storm. It's still hard to get 
calls through to Louisiana area codes.
    This lack of communication made real recovery extremely difficult. 
But we had true leaders and heroes who managed to get the job done 
anyway.
    I want to thank the first responders here today for going the extra 
mile. We saw numerous examples after the storm of police, firemen, and 
others performing admirably and heroically in terrible conditions.
    Sheriff's deputies in St. Bernard were living on a small riverboat 
so they could continue their vital work. Eight days after the storm 
most still hadn't seen their homes or talked to their families, but 
they were committed to keeping St. Bernard safe and putting their duty 
above their families and property.
    We need to learn from this experience and improve the 
communications infrastructure our first responders rely on.
    Also, some broadcasters were great examples of how to work together 
in a crisis. WWL Radio and other radio stations in New Orleans, 
including stations that were previously competitors, all banded 
together to form ``The United Broadcasters of New Orleans,'' pooling 
resources to stay on-the-air during the crisis. On the TV side, WWL TV 
moved in with Louisiana Public Broadcasting and continued to stay on-
the-air, and WGNO moved in temporarily with WBRZ in Baton Rouge. These 
broadcasters on their own decided to work together and do what would 
provide the best information possible, especially important since so 
many other forms of communications were down.
    I'm proposing several solutions to help us recover from this storm 
and overcome these challenges so we don't have the same problems in 
future storms. Senator Landrieu and I will be introducing a 
comprehensive package that includes many ideas to help spur our 
economy, including investment incentives to help our communications 
providers reinvest and restore their infrastructure.
    I am proposing a Major Disaster Restoration Investment Tax Credit 
that would give 3 years of additional tax incentives for investment in 
the impacted areas. This proposal will provide a credit of 20 percent 
of investment for the first year, 15 percent for the second year, and 
10 for the third year. This tax incentive would apply to all 
restoration investments in the area, but is it is especially important 
to telecommunications providers whose critical infrastructure was 
ravaged by Hurricane Katrina.
    Also, our Louisiana Recovery Package includes a change in law that 
will make telecommunications providers eligible for Federal resources 
to help them in maintaining and restoring communications during a 
disaster. We all heard horror stories of the lawlessness and unsafe 
conditions in many areas after the storm. I also heard accounts from 
Bellsouth about the threatening conditions their repair works had to 
work in--so threatening that they almost had to pull out of the city in 
the midst of vital repairs. To help ensure these workers can repair 
critical infrastructure, this proposal would ensure they can have 
access to protection, fuel, and other resources that FEMA can provide 
to government agencies and other forms of critical infrastructure 
during an emergency.
    To build on the plan I will introduce, I look forward to working 
with this Committee to address a few other concerns. First, we need to 
look at FCC rules, and find where we can streamline and cut red tape. I 
know Chairman Martin has been extremely helpful in what he's done so 
far, under the Commission's current authority, to waive many 
requirements, and I am thankful for his actions. But, because of the 
large scale of the rebuild in Southeast Louisiana and the Gulf Coast, 
we need to take a comprehensive look at where we can streamline to 
hasten the rebuild of our communications infrastructure. I expect we 
will need some expedited considerations for siting of cell towers, for 
example, and I sure we can find plenty of other regulations that need 
to be examined and modernized so we can facilitate a quick rebuild.
    Again, I want to thank you, Mr. Chairman, for having this important 
hearing, and I want to thank our witnesses. I wish you all the best in 
the recovery, and I look forward to hearing your views on what we need 
to do to aid quick recovery and long-term prosperity.

    Senator Vitter. A couple of very brief questions. You 
mentioned satellite communication as pretty reliable through 
all of this compared to cell and other things. My personal 
experience with satellite phones was that it was extremely 
spotty. Was that a function just of those systems not being 
very developed or robust in that geographic area do you think, 
or what do you think explains that?
    Mr. Martin. Well, one of the challenges for satellite 
communications is that it's very difficult for individual 
communications devices to communicate all the way back up to a 
satellite which is one of the reasons why it's oftentimes more 
expensive and less efficient. One of the things that I think we 
need to try to end up doing is integrating in satellite 
capability with the regular terrestrial cellular network. In 
other words, being able to potentially roll in towers that 
could put out a wide area of service for regular cell phones to 
work, but then--as opposed to trying to connect back into the 
landline infrastructure, which is the way they do it today--use 
that as a kind of a back-haul through the satellite, just like, 
for example, many cellular companies do so that your cell phone 
may still work on a cruise ship, and take advantage of 
satellite capability integrated in with the cellular 
infrastructure. And I think that might be a more effective way 
of making sure that everyone can still have coverage and take 
care of some of that spotty problem. I think that's one of the 
things that the Commission and the industry are looking at, is 
how that could be done more, so that satellite capability could 
be integrated as opposed to just being a stand-alone 
alternative.
    Senator Vitter. Right. Well, that's a good segue to my next 
question, which is just looking at the cell phone universe and 
capability, what sorts of things are you thinking of there to 
make that a lot more robust and get it back operating a lot 
more quickly?
    Mr. Martin. Well, one of--I think that's probably the 
primary ones. I mean, one of the benefits of----
    Senator Vitter. You mentioned mobile towers coming in.
    Mr. Martin. Yes. Yes, having--and they did that. Many of 
the companies brought those in. Many times they were still 
connecting back into a landline infrastructure which still had 
lots of damage to it. And there were several of those mobile 
towers that were rolled in that actually had satellite 
capability, and so what we really need to do is make sure that 
some of the mobile equipment that can be rolled in after there 
has been destruction has the capability to communicate with 
satellite and other technology that will be more resilient, so 
that they're not just plugging back into an infrastructure 
that's already damaged. And I think that's one of the things 
that I know that several of the companies have talked to me 
about something they can really do. Cingular, for example, 
talked to me extensively about that, and they had one satellite 
antenna that they used in that way in the Gulf region. I think 
the importance of having more of that capability to be easily 
deployed is critical.
    Senator Vitter. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Thank you very much, Mr. 
Chairman. Again we commend you very highly for what you've done 
and we'll do our best to get you the additional authority you 
need in some of these areas we've discussed.
    Mr. Martin. Thank you.
    The Chairman. As a matter of fact, we sent one of the bills 
over to the leadership clearance right now. We'll do our best 
to get it to you.
    Mr. Martin. All right. Thank you.
    The Chairman. Now, if I may, I'd like to call the next 
panel, Mr. Bill Smith, the Chief Technology Officer for 
BellSouth from Atlanta, Georgia; Mr. Paul Roth, the Executive 
Vice-President for External Affairs and Public Relations for 
Cingular Wireless of Atlanta, Georgia; Jeffrey Citron, Chairman 
and Chief Executive Officer of Vonage of Edison, New Jersey; 
and Hossein Eslambolchi, President of AT&T Global Network 
Technology Services and AT&T Labs from Bedminster, New Jersey.
    Gentlemen, we know you're very busy people. We're sorry to 
keep you waiting. We had some votes at the beginning of the day 
and had to start our hearing late, but we're very pleased that 
you have come to give us your points-of-view on the issues that 
we're considering today. I hate to put limitations on you, but 
I do hope we can make your statements as short as possible. We 
intend to put all of your statements in the record completely, 
but we are very interested in what you have to say so I don't 
want to cut you off in any way. Let me start with Mr. Smith, if 
I may, just in the way they appear on our program here today, 
witness list. Again, Mr. Smith, you're the Chief Technology 
Officer for BellSouth in Atlanta, Georgia. We thank you for 
coming.

                STATEMENT OF WILLIAM L. SMITH, 
              CHIEF TECHNOLOGY OFFICER, BellSouth

    Mr. Smith. Well, thank you, Mr. Chairman. My name is Bill 
Smith, I'm Chief Technology Officer of BellSouth, and the 
purpose of my testimony today is to describe the impact of 
Hurricane Katrina on our employees, our network, and our 
customers.
    First of all, I'm delighted to say that we've located all 
of our 6,500 employees in the impacted area. In the days and 
weeks following Katrina's landfall, we actually set up six tent 
cities where our employees and families could get food, 
shelter, medical care, and financial assistance, and we served 
over 8,000 meals daily in those facilities.
    Now, I'd like to summarize the preparation and the impact 
on our network. Given the area that we serve, BellSouth has a 
great deal of experience with hurricanes and we're proud of the 
resiliency of our network. Based in large part on the 
experience that we've gained from past hurricanes, we had 
located most of our critical switching equipment on upper 
floors of buildings in the New Orleans area, and this planning 
helped us reduce our restoration time from months to weeks. As 
of this morning, we have approximately 200,000 of the original 
almost 2.5 million lines that remain impacted. Much of that 
original impact was due to loss of commercial power. Many of 
our 578 central offices in those areas were running on 
batteries supported by generators, and as Chairman Martin 
mentioned, the prolonged flooding and unprecedented security 
issues resulted in our generator power being lost at several 
central offices due to our inability to get fuel into them. We 
are in the process of restoring service to all of those offices 
at this time.
    We've also been very focused on the wireless industry and 
its network restoration efforts. These carriers have actually 
provided input to us on priorities for restoration, and I think 
it's important to note that in this new and dynamic age of 
alternative technologies such as wireless and voice-over IP, 
those also use the traditional wireline network. So when you 
hear stories about the use of voice-over IP during this 
hurricane, keep in mind that there was some underlying network 
that that service was actually riding on.
    The significant progress that we've made to date is 
oftentimes the result of tireless and heroic efforts of our 
employees who've been working around the clock to restore 
service. I wish I could share more and more details with you, 
but I think the building at 840 Poydras Street in New Orleans 
which houses our main central office and is a major 
telecommunications hub is a great example of what they faced. 
Our employees there had an ordeal that was more like what you 
would expect a combat soldier to face than that of a 
telecommunications professional. Nevertheless, with the 
assistance of the Louisiana State Police, U.S. Marshals, and 
the FBI, they made sure that this key facility remained 
operational throughout and is today. Furthermore, many of the 
people that are assisting in this restoration have lost 
everything, including their homes, and some of them and their 
families have been living in our tent cities yet they continue 
to spend their days and their priorities on restoring service 
to their fellow-citizens.
    So what has happened and what could we do? I think the 
cooperation and assistance from local and State authorities and 
Federal agencies has been great. The FCC has been 
extraordinarily helpful in what they've done. As we continue to 
restore service to the area, we think several things are 
critical.
    First, is safe access to our facilities for our 
technicians.
    Second, flexibility and patience as we assess these areas 
and work with local communities to rebuild.
    And, finally, we believe the recognition that the cost for 
us to restore this infrastructure will be significant. We 
estimate it to be between $400 and $600 million, and we believe 
that legislative incentives such as tax credits would be very 
helpful.
    Finally, I'd like to close with some lessons learned so 
far. First, we believe that both network providers and their 
customers are more and more dependent on commercial power. This 
ranges from fiberoptic systems and networks to phone systems in 
hotel rooms to cordless phones in consumer's homes.
    Second, the communications industry and government bodies 
need to plan together to establish in advance, as Chairman 
Martin mentioned, alternate plans for routing E-911 traffic in 
the event of a catastrophe. We also believe that Katrina 
highlighted the critical need for E-911 support in all forms of 
communications. We believe that emergency personnel need radio 
equipment that accesses a common frequency.
    Third, we believe that critical telecommunications 
infrastructure owners and operators should be designated as 
first responders in the event of a major disaster and should be 
included in preparations for such events.
    Let me close by thanking you for your interest and thanking 
my colleagues at BellSouth. We've mobilized our company from 
top to bottom. We'll rebuild as we always do. Thank you.
    [The prepared statement of Mr. Smith follows:]

                Prepared Statement of William L. Smith, 
                  Chief Technology Officer, BellSouth

I. Introduction
    My name is Bill Smith, and I am the Chief Technology Officer for 
BellSouth. BellSouth is a full-service communications company providing 
service to customers in the nine southeastern states of Alabama, 
Florida, Georgia, Kentucky, Louisiana, Mississippi, North Carolina, 
South Carolina, and Tennessee. I have worked for BellSouth for 26 
years, and in my current position I am responsible for overseeing the 
planning of our overall network, integrating new technology into our 
network, and ensuring the interoperability between our networks and 
those of other carriers.
    The purpose of my testimony today is to address the impact of 
Hurricane Katrina on BellSouth's network, the status of the network 
based on restoration completed to date, where we expect to go from here 
as we continue to restore communications to the hard hit Gulf Coast 
area, and what the Federal Government can do to assist in those 
efforts. What I will give you today is a snapshot--the situation is 
still changing rapidly, as power is restored, flood waters are pumped 
out, field surveys occur, and repairs are made. Furthermore, because we 
are still assessing the full impact of the storm on our network and our 
customers, damage estimates are preliminary. It will take some time for 
us to know with certainty the total magnitude of the destruction caused 
by Hurricane Katrina. Given the force of the hurricane, however, we are 
very pleased with the resiliency of our network, and with the 
significant progress that our employees, working with the larger 
communications industry, have made to restore service to date.
    BellSouth's efforts in regard to hurricanes can be placed into 
three general categories: preparation, monitoring, and restoration. As 
is standard operating procedure for us during hurricane season, on 
August 23, 2005, BellSouth's network operations team began tracking 
Tropical Depression 12, then located over the southeastern Bahamas with 
thirty-five mile per hour winds and moving northwest at ten miles per 
hour. We continued monitoring the storm as the days progressed and 
began extensive preparations prior to Katrina making landfall in 
Florida. This is business as usual for us, but none could have imagined 
what was to follow. As Katrina worked its way across Florida toward the 
Gulf Coast, two integral pieces to this incredible story developed: the 
people, and the network. I plan to first walk you through the people 
side of this story, because without our people, we would have no 
company and no network. It is our employees who make BellSouth what it 
is.

II. Katrina's Impact on People
    BellSouth has about 13,000 employees in the States of Alabama, 
Mississippi, and Louisiana, approximately 6,500 of whom were in the 
hardest hit areas affected by the storm. I am delighted to report that 
we have made contact with all our employees, and all are alive and 
safe. This is in no small part due to the preparations BellSouth 
instituted well in advance of Katrina making landfall. For example, 
BellSouth already had in place an 800-number for BellSouth employees to 
call to report their status in the event of an emergency and a separate 
telephone number employees could call to get emergency information. 
Immediately prior to Katrina making landfall, we also took steps to 
ensure adequate supplies and services were on hand, sending non-
perishable food to strategic areas where employees could be stationed, 
setting up structural materials including tents, showers, toilets, 
tables and chairs, and engaging janitorial and guard services. Our 
experience with prior hurricanes taught us that our employees will be 
called upon to work round the clock, and they can best perform the 
extraordinary tasks expected of them if their basic needs for food, 
shelter, and the safety of their family are addressed.
    As Katrina hit the Gulf Coast on August 29, we assessed potential 
locations for what we call BellSouth tent cities--stations where 
employees, and their immediate families, in affected areas could seek 
shelter, receive food, ice, water, showers, laundry services, air 
mattresses, linens and clothing, medical care, and financial loans. In 
addition, we had on hand access to our employee assistance program to 
provide counseling services as needed. The first tent city was set up 
in Gulfport, Mississippi on August 30, a second opened in Baton Rouge, 
Louisiana on September 1, and a third on September 2, in Covington, 
Louisiana. With the addition of tent cities in Hattiesburg and Jackson, 
Mississippi, and Marrero, Louisiana on September 10th, BellSouth was, 
at the height of its restoration efforts, operating six tent cities 
that provided assistance for our employees and their families, 
including medical care, and serving over eight thousand meals daily.

III. Impact on Network Operations
    Given where our network is located, BellSouth has dealt with 
hurricanes for years, and is proud of the resiliency our network has 
consistently demonstrated. Based in large part on experiences gained 
from past hurricanes, as a part of our prior overall network planning 
and preparation in the low-lying areas of the New Orleans bowl, 
BellSouth had located most of its switches on the second floor (or 
above) in the buildings in that area. This planning helped to avoid any 
major damage to BellSouth's switches and reduced restoration time from 
months to weeks. In the coastal areas of Louisiana and Mississippi, 
BellSouth built certain flood-prone buildings on pilings in order to 
elevate those buildings approximately ten feet above ground level. Even 
these precautions, however, were not enough to withstand Katrina's 
sustained winds in excess of 145 miles per hour and storm surges of 25-
40 feet.
    Prior to Katrina making landfall in Florida, we activated our 
standard hurricane procedures. These include ensuring that our 1,000+ 
mobile generators are in working order and staged at the sites needed, 
fuel tanks are filled for our central office and key administrative 
office generators and vehicles, network supplies are relocated 
(including tents in the event tent cities need to be established for 
the safety and shelter of our employees), and support personnel are 
staged in nearby locations.
    The tropical depression became Hurricane Katrina and first made 
landfall in South Florida as a Category 1 hurricane on Thursday 
evening, August 25th, causing considerable damage to the area. After 
passing over Florida and reaching the Gulf of Mexico, Katrina developed 
into a Category 5 hurricane and then dropped to a Category 4 just 
before making her second landfall in our operating area at about 2 p.m. 
on Monday, August 29th, east of New Orleans.
    Operations in Florida, Alabama, Mississippi and Louisiana, all have 
been impacted by Katrina. Nevertheless, we have made significant 
strides toward restoration of communications capabilities. As I will 
describe in more detail below, we have three different types of 
restoration efforts underway. In places like Gulfport and Biloxi, 
Mississippi and New Orleans, Louisiana, the impact on our customers, 
our employees and our network have been catastrophic, and basic 
restoration is still encumbered by flooding, debris, and security 
issues. In other parts of Louisiana, Mississippi, and Alabama, we are 
well into our restoration efforts and progressing rapidly. In Florida, 
we are wrapping up our restoration efforts, and freeing up resources 
like generators and technicians to move to the other areas where they 
are needed.

IV. Network Status
    In the Gulf region of Mississippi, Alabama, and Louisiana, 
BellSouth has 4.9 million access lines. A snapshot on August 30, after 
the second landfall, estimated that 2.475 million lines, a little more 
than half of those in the area, were actually affected by the storm. As 
of the morning of Tuesday, September 20, approximately 210,000 (8.5 
percent) of the original 2.475 million lines remained impacted.
    BellSouth has 1,591 central office buildings across its region. 578 
of those central office buildings are located in Alabama, Louisiana, 
and Mississippi. Throughout the storm, 545 of the 578 central offices 
in Alabama, Louisiana, and Mississippi never lost service. As the loss 
of commercial power was widespread, many of these offices were running 
on batteries, supported by generators. Today, six central offices are 
still running on generators. Generators require fuel, and in the past, 
our network personnel have had access to the central offices where the 
generators are housed in order to ensure their proper fueling and 
operations. This was not true with Katrina.
    Katrina was different from any hurricane BellSouth has faced 
previously. It had three distinct phases--the Florida hurricane, the 
Gulf Coast hurricane, and the New Orleans flooding. Severe damage was 
associated with the storm's landfall, but the flooding that followed 
when the levees broke created significant additional disruption. 
Generally, hurricanes have an initial surge, the water recedes, power 
restoration begins, and then we follow the power company with telecom 
restoration forces. When the levees broke in New Orleans, the water did 
not recede. Because of the continued flooding, and the unprecedented 
security issues, generator power was lost at several central offices 
due to our inability to refuel. The flooding also caused extensive 
damage to buildings and other structures in the flooded areas.
    Since August 29th, BellSouth lost service at various times in a 
total of thirty-three of BellSouth's central offices in the impacted 
area. Today, there are fifteen central offices that have not been 
restored to service. Of the fifteen, ten are small offices along the 
coastal area with severe devastation. We have already begun restoring 
service in some of those areas using digital loop carrier systems. The 
remaining five offices are in the New Orleans flooded area. Four of 
these offices are currently being restored, and we started pumping the 
flood waters out of the fifth one on Tuesday, September 20.
    We continue to work around the clock to restore service. As a part 
of our restoration efforts, we conduct damage surveys throughout the 
area. We have completed 27,666 surveys to date, and are finished with 
surveys in all but the hardest hit areas where accessibility is still 
an issue. We are between 30 percent and 70 percent complete with 
surveys in those hardest hit areas. Initially, we concentrate on 
restoration of highest priority circuits, specifically those which 
support public safety including hospitals, E-911 centers, and law 
enforcement. Then we focus on supporting other carriers, including the 
wireless industry. I have listed these sequentially, but they are often 
worked simultaneously.
    Following the storm, in Florida and Alabama, there were no E-911 
centers that incurred outages. For Mississippi, service was impacted to 
forty-three out of 138 E-911 centers, and service to all forty-three 
centers has been restored onsite or by re-routing the calls to other 
centers. Many E-911 centers required the re-routing of traffic, and in 
most instances the re-routing was accomplished within hours after 
contact with the E-911 center officials. All of these centers were back 
in service by September 4th.
    In Louisiana, thirty-five of ninety-one E-911 centers were 
impacted, and thirty of these are partially or totally back in service, 
either onsite or through re-routing of calls to other centers. Of the 
five E-911 centers that remain out of service, all are in the New 
Orleans area. Three of the centers are located in Plaquemine and St. 
Bernard parishes, low-lying parishes along the Mississippi River. The 
remaining two are located in New Orleans. BellSouth is in contact with 
the E-911 officials in the five Louisiana E-911 centers that remain out 
of service, and we are working with them to implement plans to re-route 
traffic to alternate sites and restore E-911 service to these areas.
    BellSouth has also been extremely focused on the wireless industry 
in its network restoration efforts. Prior to the storm's landfall, we 
invited several key carriers to collocate at our emergency command 
center, recognizing the critical role that wireless plays in today's 
communications and also knowing the key role we play in enabling 
wireless service. Together with members of the wireless industry, we 
developed a joint wireless restoration plan, focused on inter-office 
rings, prioritizing cell site restoration, and the placement of 
microwave facilities. These carriers provided input for restoration 
priorities together with our team. We also conduct two daily calls--one 
with wireless carriers and one with wireline carriers. These 
collaborative efforts have been very important in the restoration 
effort. I am also proud of our efforts to re-route traffic from New 
Orleans to Texas, Florida, and/or to switches and locations requested 
by the carriers in order to create communications capacity and restore 
service for wireless and wireline customers. In this new and dynamic 
age of communications, alternative technologies, such as wireless and 
VoIP, utilize and interconnect with the traditional wireline network. 
Thus, as BellSouth restores and rebuilds our network, we are in fact 
enabling providers of such alternative technologies to re-institute 
their services as well.
    BellSouth will continue to work collaboratively with the industry 
on the ongoing restoration efforts in the New Orleans and Gulf Coast 
areas. However, there are challenges. As the New Orleans and Gulf Coast 
areas are restored, there has been a substantial amount of construction 
activity by utilities and their contractors, as well as other 
businesses and homeowners. This activity has caused damage to 
BellSouth's network that must also be repaired. Indeed, several major 
routes have already been cut multiple times. For example, on Monday, 
September 12, a major fiber route from Hammond, Louisiana to Covington, 
Louisiana was cut by a tree trimming company. This had an impact on 
both wireline and wireless carriers. Even though we are deploying 
damage prevention crews, it will not be possible to prevent these types 
of occurrences for some time in the future, given the level of 
construction activity in the area.
    Efforts are ongoing as we search collectively to overcome the 
unique problems caused by flood waters that blocked access to switches 
and cellular sites in need of restoration. Escorted teams traveled by 
boat to several of the sites to survey accessibility and status to 
determine what equipment was needed to restore service. Microwave 
antennas have already been placed in New Orleans to enable 
communications from two of these sites. The first one, at Florida 
Boulevard, serves T-Mobile, AllTel, and Sprint/Nextel; the second, at 
Franklin Road near Lake Airport, serves Verizon, Sprint/Nextel and 
Cingular. A third microwave antenna has now been placed in Biloxi, 
Mississippi.
    The significant progress toward restoration is due to the tireless 
and often heroic efforts of our employees who are working around the 
clock with a single minded mission of restoring communications to these 
hard hit areas, and to the efforts of our wireless and wireline 
industry colleagues who have partnered with us with an unwavering 
commitment to enable communications.
    Our experience in the New Orleans Main Central Office at 840 
Poydras Street gives a sense of the situation on the ground. BellSouth 
employees began staffing an Emergency Operations Center (EOC) on the 
12th Floor of the building on Sunday, August 28. The office lost power 
and engaged generators when the storm hit on Monday, but occupants 
breathed a sigh of relief that there was no flooding. Then, the levee 
broke and conditions rapidly deteriorated on Tuesday. Technicians and 
engineers in the office were trying to re-establish service and 
maintain power by keeping the generators fueled and running. As the 
situation in New Orleans deteriorated with violence and looting, the 
New Orleans Police and the Louisiana State Police told us to evacuate 
the building. There was gunfire in the area and we were told it was 
unsafe for our employees to remain. At 3 p.m. CST, the Louisiana State 
Police arrived and provided us with an armed escort so we could leave 
the building. We moved to Baton Rouge and, concerned for the security 
of the building, we arranged for FBI agents to take occupancy of the 
building at approximately 9 that evening. By Friday morning, the 
Louisiana State Police and the FBI occupied the building. At that time, 
we began armed and escorted caravans to the building to bring fuel for 
the generator, water for the chillers, BellSouth personnel, as well as 
personnel from other carriers (at BellSouth's open invitation). In 
spite of these harrowing facts, this key switch, which serves as a 
regional hub for multiple carriers, remained in operation. And, of 
course, some of the Poydras Street personnel, as well as personnel 
assisting in restoration efforts across the impacted area, are putting 
forth Herculean efforts in trying circumstances. Many of them have lost 
everything. Some of them are now residents, with their families, of the 
BellSouth tent cities. Yet they continue to demonstrate commitment and 
resolve to rebuild the communications network expected by their fellow 
citizens.
    Another heroic story rises out of the coastal town of Gulfport, 
Mississippi. On September 3, a brick wall protecting the main generator 
keeping the central office alive started to give way. Nine workers from 
that central office ran from the basement, where they had been working 
while riding out the storm, to the rooftop room and fortified the walls 
with whatever they could find--plastic tarps, plywood and even the 
cardboard from a science project of one worker's son. The main wall in 
the office collapsed, yet their efforts to protect the switch were 
successful.

V. Government Cooperation and Needs
    The cooperation and assistance from local, State, and Federal 
agencies overall has been good. The FCC, along with its Staff members, 
has been extraordinarily helpful. The FCC reached out to offer 
assistance in many areas: waiving rules that will help customers who 
are without service; taking actions that have and will allow for the 
quick restoration of network facilities (including the emergency 
routing of traffic over whatever facilities are available for use); and 
helping with the publication of ``find me'' numbers to help locate 
BellSouth employees. Because of this, BellSouth has been able to make 
its interLATA corporate communications network available to companies 
like Sprint and Telapex, a Mississippi wireless carrier, for use in 
emergency routing of their traffic impacted by Katrina. BellSouth has 
also been in constant communication with other Federal agencies and has 
received strong support from the White House Executive Office of the 
President.
    We will continue to need this type of help, particularly related to 
the efforts to restore communications in Louisiana and the Mississippi 
Gulf Coast areas. The magnitude of the damage will present unique 
issues that will need to be resolved quickly and efficiently in order 
to restore service. The Louisiana and Mississippi Public Service 
Commissions have also stepped up to provide assistance to the industry 
in efforts to assess damage, maintain the operation of the remaining 
network, and restore service to impacted areas.
    As we continue to restore service to the area, several things are 
critical. First, we need safe access to our network facilities. This 
will require the abatement of the flooding in New Orleans, which is 
underway. Now, and when the flood waters have receded, we need adequate 
security measures to ensure the safety of our technicians trying to 
assess and conduct repairs.
    Second, we will need flexibility and patience. It will take many 
months for BellSouth to permanently repair the damage caused by Katrina 
and restore service to residents in all areas. We will continue to work 
around the clock to restore service to our customers as they re-build 
and become ready to be served. BellSouth has experienced twenty-two 
hurricanes since 1992, storms such as Andrew, Hugo, and now Katrina. 
Congress and the private sector alike should be cautious about building 
unrealistic expectations about how long it takes to fully recover from 
a storm packing the furor of a Katrina. Also a key difference in this 
storm is the amount of social dislocation experienced by the fact that 
nearly one million people have been moved because of the storm. Many of 
the population patterns may never return as they were. Cities like 
Baton Rouge, Memphis, and LaFayette have experienced significant 
population growth with the attendant stress on all infrastructures, 
including the communications. Building capacity will take time.
    Third, the government needs to recognize that the cost to BellSouth 
to restore the communications infrastructure will be significant. 
BellSouth has estimated that the cost to restore our network as a 
result of Hurricane Katrina will be between $400 and $600 million. By 
comparison, the cost to BellSouth of the damage caused by the four 
hurricanes that hit Florida last year was approximately $200 million. 
And, of course, we're still in the middle of the hurricane season, and 
the long-term impacts of the flooding in New Orleans are hard to 
estimate. Legislative incentives, such as tax credits, would be 
tremendously helpful as companies rebuild areas devastated by Katrina.
    Restoration of our near-ubiquitous infrastructure will demand that 
we deploy capital, not as a cost-plus utility, but as a company re-
building its network in a very competitive industry. We will be 
expected to rebuild without knowing what our ultimate demand will be. 
And, we will rebuild this network in an environment where many 
companies depend on our network for providing service to their 
customers, but where policy doesn't equally distribute the burden of 
restoration among all players. The FCC has been very helpful in waiving 
rules that hamper restoration. We will, however, need continued focus 
from the policy community on rules and regulations that hamper access 
to capital. Timely restoration requires that we spend this money now, 
well in advance of knowing what people and businesses will actually 
return to affected areas, and when, and that we add capacity in areas 
like Baton Rouge, or even state parks where tent cities have emerged, 
without having any expectation of long-term continued service revenues 
out of that installed capacity.

VI. Path Forward and Lessons Learned
    So what are the lessons learned thus far? Because we are still in 
the midst of restoration, it is difficult to create an exhaustive list 
of lessons learned as a result of the unique circumstance that has been 
presented by Hurricane Katrina and the consequent flooding in New 
Orleans, but the following are some of our more significant experiences 
to date.
    First, both network providers, as well as customer/consumers, have 
become more and more dependent on commercial power. As networks deploy 
more advanced technology in the more remote parts of the network 
(remote terminals, DLC systems), these systems require power to 
operate, and thus introduce more potential points of failure in the 
event of an extended power outage. Consumers are using more cordless 
phones, which also require commercial power to operate. And the vast 
proliferation of cellular phones, which could potentially use 
automobile batteries for recharging, also becomes an issue when your 
automobile is six feet under water. As a result, many 
``communications'' failures flow from the loss of power to customer 
premises equipment (CPE) and other power driven applications, not from 
a fundamental loss of connectivity in the telecommunications network.
    Second, the communications industry and government bodies need to 
work more closely together to establish, well in advance, multiple 
alternate retreat points and paths for the routing of E-911 traffic in 
the case of a catastrophe. BellSouth has a proud history of service to 
E-911 centers and will continue its commitment to find new and better 
ways to ensure that emergency traffic can be successfully routed and 
handled during emergencies. BellSouth is concerned that some 
communications providers are using Katrina as a means to delay 
implementation of E-911 obligations. BellSouth believes that Katrina 
has highlighted the converse; which is a need for ubiquitous E-911 by 
all communications providers.
    Third, emergency personnel need radio equipment that can access a 
common frequency. Many of the first responder issues in Katrina arise 
from the use of dedicated radio emergency communications equipment. As 
we saw in 9/11, oftentimes different departments (i.e., police and 
fire), or different jurisdictions (i.e., state and city or Louisiana 
and Arkansas), have equipment based on different frequencies and thus 
can not communicate with each other. This needs to be resolved, 
probably by the promulgation of national standards.
    Fourth, carriers should be mindful of, and plan for, flooding when 
locating their switch equipment in flood-prone areas, locating them, 
where practical, above flood lines. As I previously mentioned, 
BellSouth has taken this step in the vast bulk of its offices, locating 
both switches and generators on upper floors of buildings. In addition, 
the location and availability of fuel needs to be addressed in a way 
that ensures that fuel can be available for emergency generators no 
matter the circumstance. This likely will have some environmental 
questions attendant to it that will require flexibility and engagement 
to resolve.
    Fifth, critical telecommunications infrastructure owners and 
operators should be designated as first responders in the event of a 
major disaster and should be included in preparations or responses to 
such events. Unfortunately, that is not the case today, which has 
impeded response capabilities and undermined restoration efforts. The 
importance of restoring telecommunications networks during a disaster 
cannot be underestimated. When you hear stories about customers being 
able to use Vonage's service during the hurricane, keep in mind that 
they need an underlying network to ride in order for Vonage's service 
to work.
    Finally, industry cooperation throughout the recovery from Katrina 
has been extraordinary. This should be used as a template to build 
industry-wide emergency response and restoration plans for future 
catastrophes of this kind.
    I would like to close by thanking you for your interest and help 
and by thanking my colleagues at BellSouth. As FCC Commissioner Copps 
noted after seeing our response efforts, we have mobilized this company 
from top to bottom. In conjunction with that mobilization, our 
BellSouth family of employees and retirees has stepped forward with 
over $838,000 in contributions to aid the impacted families. Our 
company continues to match these contributions on a 2-to-1 basis. In 
addition, we have started an adopt-a-family program, which matches 
employees willing to help those needing help. And, we have announced a 
$5 million grant to the Departments of Education in Louisiana, and 
Mississippi, to facilitate e-learning, and to ensure that those high 
school students displaced by the storm can continue with their studies, 
through the use of technology, and graduate on time. We will restore 
and rebuild as we always do. That's what we expect of ourselves. That's 
what we do.

    The Chairman. Thank you very much. Mr. Roth, who is the 
Executive Vice President of External Affairs and Public 
Relations with Cingular. Thank you. I must commend you. I had a 
Cingular system I took over to Kuwait, Iraq, Turkey, and Italy. 
It was an international chip and I never missed a lick anywhere 
along the line so, congratulations.

       STATEMENT OF PAUL ROTH, EXECUTIVE VICE PRESIDENT, 
    EXTERNAL AFFAIRS AND PUBLIC RELATIONS, CINGULAR WIRELESS

    Mr. Roth. Thank you, sir. Thank you. Thank you, Chairman 
Stevens and Members of the Committee. I appreciate the 
opportunity to testify today. I am Paul Roth the Executive Vice 
President of External Affairs and Public Relations for Cingular 
Wireless and I'm here today on behalf of Stan Sigman, our CEO, 
who is actively preparing for Hurricane Rita and still working 
on the restoration from Hurricane Katrina.
    Katrina damaged our network like no storm or disaster had 
ever done. As the storm passed Cingular had lost approximately 
85 percent of our coverage in the hardest hit areas of New 
Orleans and Biloxi. Of the lost towers, 20 percent were 
physically damaged and approximately 80 percent were lost when 
the infrastructure supporting them was damaged. We've all seen 
pictures of damage, and I'd like to call your attention to at 
least two examples of what the damage did to our wireless 
network.
    The first one is of a concrete structure. This is what 
housed our electronics for one of our cell sites. The storm 
surge completely eradicated everything but the concrete 
foundation.
    The second poster is of a crushed cell tower. Our towers 
are built on the coast for 200 mile an hour winds but they are 
not invincible to debris thrown at 150, 160 miles an hour. This 
is a tower that was knocked down, struck by debris.
    But the real loss in the New Orleans area, was to one of 
our two switches. When the levees broke the switch was flooded 
knocking out the majority of the service in that area.
    That's what happened and this is what we've done about it. 
We've learned from past disasters and we have a very 
comprehensive disaster plan. It's one that we practiced, 
rehearsed with the DHS just this spring in anticipation of the 
hurricane season. Our disaster response team set up staging 
areas, two of them, one in Mississippi, one outside of New 
Orleans. We had 800,000 gallons of fuel, we had 500 generators, 
30 portable cell sites, and we had over 800 technicians staged 
ready to move in when the storm passed.
    Because of our preparation Cingular was the first responder 
for many in the community. We loaned a generator to the Trent 
Lott Airport to assist in refueling efforts so that disaster 
flights could continue. We loaned generators to hotels and 
churches that had become temporary shelters for those escaping 
the storm. And we loaned 230 satellite and 3,500 wireless 
priority service-enabled phones to first responders.
    We are also very proud of the fact that we treated 
customers as victims not as accounts. Examples of things we've 
done. We automatically waived up to 50 percent of the 
customer's monthly access charge for those in the affected 
area. We charged no overage, long-distance, or roaming charges 
for customers in these areas as well, and no customers will be 
suspended in September, not even those who have not paid their 
bill.
    As we move to restore service quickly and continue the 
restoration process, I'd like to give you an update. As of 
September 19, all of the areas were up to 100 percent of their 
original coverage. New Orleans was at 92 percent of its 
coverage. Biloxi was at 97 percent of its original coverage. 
With 68 cell sites physically damaged in those two areas, New 
Orleans' capacity is at 75 percent and improving daily. 
Capacity in Biloxi is up to the pre-storm level of a 100 
percent.
    As we look back we realize two things. One is no two 
disasters are the same, but we prepare and we learn from each 
one. And no amount of steel or redundancy can guarantee that 
communications will survive a disaster, either manmade or 
natural.
    We have learned a couple of key lessons that I think the 
panel would be most interested in. The first is that wireless 
priority access which is a technology-prioritizing calls and 
capacity for first responders worked, and worked well in this 
area. This was a network solution that was built in to every 
Cingular wireless network following the lessons learned from 9/
11.
    The second, and this is something I think you'll find very 
interesting, is a project we call Pegasus. Pegasus is a 
solution for a worse-case scenario when the local 
infrastructure is completely destroyed.
    Let me start by calling your attention to this poster of a 
COLT. A COLT is a cell site mounted on a light truck. What 
makes this one unique is the satellite dish that you might be 
able to see mounted on top that truck. The one pictured here is 
one of two built and used currently in the New Orleans area. It 
was in the works and was expedited for Katrina. The inspiration 
came from our cruise ship experience where we back-haul traffic 
off of a ship to a switch on the mainland. It can be driven 
into a disaster area or possibly engineered so it can be flown 
in instead of being on top of a building or on a beach 
following a disaster area. It can be operational in hours. It 
requires no commercial power or local telco facilities. It is a 
fully independent solution to local infrastructure. It uses the 
satellite dish you see on top to connect to an operational 
switch. The one in New Orleans, the one in this picture, is 
outside of Hammond, Louisiana, and is actually connected to our 
switch in Miami, Florida. So we're routing calls and probably 
as important as anything is the fact that it works with any 
existing Cingular cellular phone. So whether you're a victim in 
the affected area or a first responder, your current Cingular 
phone will work with this fully independent solution. One of 
these trucks is right now on its way to San Antonio in 
anticipation it will be needed following Hurricane Rita.
    Pegasus, which is what we've named this project, should be 
developed and staged in key U.S. locations across the country 
that are vulnerable to such disasters. The Pegasus concept can 
be expanded, it can be engineered better, it can be deployed 
faster, and we are willing to work with government and the rest 
of the wireless industry to develop this project and evaluate 
other options and lessons learned.
    Thank you for your time today and your interest.
    [The prepared statement of Mr. Roth follows:]

      Prepared Statement of Paul Roth, Executive Vice President, 
        External Affairs and Public Relations, Cingular Wireless

    Mr. Chairman and members of the Committee:
    Thank you for the opportunity to appear before you today to discuss 
the impact of Hurricane Katrina and its aftermath on the Cingular 
Wireless Network. I am Paul Roth, Cingular's Executive Vice President 
for External Affairs and Public Relations, and my testimony today will 
describe what happened after we put our hurricane crisis plan into 
effect, how we responded to the ensuing events, and what actions we are 
taking to improve our overall crisis response.

I. What Happened
    I'd like to begin with an overview of the damage to our network and 
its causes with an emphasis on the hardest-hit areas in and around New 
Orleans and Biloxi. By the time Katrina and the related flooding that 
it caused reached its peak, we had lost about 85 percent of our network 
in the hardest hit areas. The primary network-affecting events were 
split between physical damage (20 percent) to our facilities and damage 
to the additional infrastructure that we depend on for power and 
connections (80 percent). Of course, simple percentages and familiar 
words don't always convey the magnitude of the destruction that our 
network infrastructure endured.
    I'd like to call your attention to Attachments #1 and #2 below. The 
first shows an active cell site that turned into nothing but a concrete 
platform after Katrina. The second shows a crushed cell tower. Though 
we build our towers to withstand winds of 200 miles per hour, that does 
not make them invincible to the ``debris-missiles'' launched by 150 
mile per hour winds. As bad as the damage from wind and debris was, the 
most significant single hit that our network took came when the levees 
broke and one of the two core switches in New Orleans became completely 
submerged.

II. How We Responded
    Our first response to Katrina began long before the hurricane ever 
hit land. Both Cingular and AT&T Wireless had well-developed crisis 
plans before our merger. After our merger, one of the first actions we 
took was to meld these plans together. In the late spring we ran an 
exercise in crisis response and used one of the first storms of this 
season as a live, real-time test of our plan.
    First Response. Our initial response was to set up staging areas to 
support our employees and to restore service. We engineered an initial 
deployment that included 500 portable generators, 800,000 gallons of 
fuel, 1,000 service personnel, and more than 30 portable cell sites 
called COWS and the first of a new breed of devices called satellite 
COLTS. In some instances we were among the first responders in heavily-
damaged communities. In those cases we provided support to other first 
responders in the area. These joint efforts included: setting up a 
generator at Trent Lott Airport and restoring power so the airport 
could support emergency flight operations; providing fuel to police and 
other emergency personnel; and making 230 satellite phones and more 
than 3,500 other wireless phones with Wireless Priority Service to 
other first responders.
    Employees. We moved immediately to take care of our employees so 
they could take care of our customers. We provided food, water, and 
basic supplies from trailers that we trucked into the affected areas. 
We also set up tent cities in Ocean Springs and Hammond that housed as 
many as 400 people. And, in less than 2 weeks, we were providing 
inoculations, banking services, and even daycare from licensed 
providers at our call center in Ocean Springs.
    Services. We brought in trained personnel from throughout the 
country to restore service as expeditiously as possible. Within 3 weeks 
of Katrina's landfall in Louisiana, we had restored geographic coverage 
in New Orleans to 92 percent and in Biloxi to 97 percent. But coverage 
is not the same as capacity. Even though our restored network covers 
nearly all the geography it did before the storm, the overall capacity 
of our network is a bit further behind. The combination of physical 
damage to 68 cell sites and the disruption of the wired networks in New 
Orleans and Biloxi means that as of 9/19 our network is functioning at 
75 percent of capacity in New Orleans and 100 percent of capacity in 
Biloxi. But in Biloxi, where wireless is the sole means of 
communication for many people, call volumes are at 140 percent of 
capacity; and people are still experiencing some blocking as we add 
additional capacity.

III. What We Learned
    Katrina has demonstrated that there is no thickness of steel or 
level of network redundancy that can guarantee any communications 
network will survive a worst-case natural or man-made disaster. 
However, with each crisis faced we improve our crisis plan and increase 
the speed and efficiency of our response.
    The two most important lessons we learned from Katrina were the 
effectiveness of Wireless Priority Services (WPS) and the need to 
develop a wireless solution for worst-case scenarios where the local 
network infrastructure has been destroyed.
    Wireless Priority Access. Because of the unprecedented volume of 
calls made on the wireless network following 9/11, we built (per 
Federal direction) the capability to prioritize wireless calls 
following a disaster so that the most important calls coming from first 
responders were the first calls completed. This functionality was put 
to its first real test after Hurricane Katrina and it worked well.
    Solution for Worst Case Scenarios--Project Pegasus. Prior to 
Katrina, we had been working on a project we called Pegasus. Pegasus is 
our vision of a way to increase the scope and deployment of portable, 
satellite, cell sites (satellite COLTS) in an emergency.
    These COLTS are portable cell sites with satellite connectivity 
mounted on light trucks. They can be driven or flown in to a disaster 
area. They work with any Cingular GSM phone enabling victims and first 
responders to use their existing phones during a crisis. These COLTS 
provide a satellite connection to any of our operational switches, 
become operational in a matter of hours, and require no commercial 
power or wired network infrastructure. The satellite COLT shown as 
Attachment #3 below is one of our two prototypes that was expedited for 
delivery to New Orleans and is working there today via its satellite 
connection to our switch in Miami.
    Next Steps. We are moving as expeditiously as possible to expand 
our Pegasus Project so satellite COLTS can be built and made available 
in key locations around the U.S. for more-effective deployment. We know 
that Pegasus is only a start to a more fully-developed set of tools for 
worst-case scenarios.
    We have resolved to open this project through the CTIA for 
cooperative rather than competitive development so that we can truly 
bring together the best-of-the-best to develop the full potential of 
wireless to help people stay connected in even the worst crises.
    I thank you for your time and attention today and in the days 
ahead.
                              Attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 3

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Roth. Next is 
Jeffrey Citron, the Chairman and Chief Executive Officer of 
Vonage. Good morning.

         STATEMENT OF JEFFREY A. CITRON, CHAIRMAN/CEO, 
                  VONAGE HOLDINGS CORPORATION

    Mr. Citron. Well, good morning, Chairman Stevens, Chairman 
Inouye, and esteemed Members of the Committee. My name is 
Jeffrey Citron, and I am the Chairman and CEO of Vonage 
Holdings Corporation. Thank you for the opportunity to testify 
today on behalf of the entire Vonage family and our hundreds of 
thousands of customers. I want to extend my deep sympathy for 
those who lost family and friends and for all those who are now 
homeless as a result of the Gulf Coast disaster.
    Our Nation is responding to this emergency with astonishing 
generosity and I am proud that Vonage employees are no 
exception. They dug deep into their pockets, but more 
importantly they have given their time and energy to keep 
people communicating throughout the disaster. They have worked 
24 hours a day, seven days a week to donate several thousand 
working Internet phones to relief workers and families in the 
affected areas, keeping them in touch when other networks had 
failed.
    The Wall Street Journal reported that when Katrina hit the 
Mayor and Chief of Police in New Orleans used several Vonage 
lines as their only connection to the outside world. President 
Bush while aboard Air Force One was able to call the Mayor on a 
makeshift Vonage phone bank, one of the first to establish with 
local officials in the affected areas. Much like September 
11th, the phone networks failed. Wireless networks failed, 
satellite phones were unreliable, but the Internet was still 
alive in some places and so was Internet phone service. For 
example, as thousands of patients arrived at Baton Rouge 
General Hospital, Vonage was the only long-distance phone 
service doctors and emergency medical personnel could use to 
track down medical records and to reunite families. To support 
aid workers from shelters to FEMA, Vonage has been working with 
a nonprofit Part-15.org and other partners such as Cisco and 
Intel to build large wireless Internet hotspots with free 
Internet phone service in cities like Pass Christian and 
Biloxi, Mississippi.
    Mr. Chairman, and members of the Committee, to be clear 
Vonage's service is successful in maintaining its operations 
during these critical moments because of the redundant and 
resilient nature of the Internet itself. Vonage services relies 
upon a high-speed Internet connection which we do not own nor 
do we provide. Our customers get broadband through many 
different means, cable modem service, DSL, wireless, broadband 
and, of course, even satellite. Vonage applauds the network 
operators that kept the Internet connections working for our 
users, and without their hard work and dedication our service 
would not be available to so many in need.
    The flexibility that allows our service to work over any 
high-speed network, any connection anywhere, is the reason our 
subscribers were able to communicate in the midst of the 
Katrina disaster. Still while some of the thousands of Vonage 
customers in affected areas were able to maintain 
communications, hundreds of our customers were not. Vonage not 
only relies upon broadband but electricity as well. Many of our 
users lacked the power, and to make matters worse, our partners 
servicing the New Orleans area was unable to send calls from 
the wireline telephone network to the Vonage Internet gateways 
and switches for an entire day.
    If I can offer the Committee any counsel in rebuilding the 
Gulf region, it would be not to favor any one technology or 
provider over another. Instead, create a climate that fosters 
the development of many different networks. A robust 
communications infrastructure needs both wired networks, such 
as cable and DSL, as well as wireless networks, such as cell 
towers, WiFi, WiMax, and satellite.
    As policymakers and as entrepreneurs we'll never know 
exactly which facilities will be available in a moment of a 
crisis. But a range of redundant infrastructure provides our 
chance of having something that will work. It is evident that 
cable and DSL and cellular are just not enough.
    Mr. Chairman, not only did Katrina highlight the failure of 
the communications network, it should the underscore the urgent 
need to make our 9-1-1 network every bit as flexible and 
resilient as the Internet itself. Vonage is running hard and 
fast to build a nationwide E-911 network this year. As a 
result, Vonage has taken a serious look at our country's 9-1-1 
systems and, frankly, what we found is sobering. When the phone 
network essentially fails, so does much of our 9-1-1 network as 
well. In far too many cases today's 9-1-1 system is 
characterized by local technology decisions and outdated 
infrastructure. Left to fend for themselves dedicated 9-1-1 
professionals are unable to share resources or utilize today's 
technology. One of the main reason citizens in New Orleans 
cannot return to their homes is still a lack of functioning 9-
1-1 as reported by Chairman Martin. A robust 9-1-1 system 
wouldn't be eliminated by the bounds of any single provider 
network but instead utilize the flexibility and resilience of 
the Internet itself. As we rebuild New Orleans and the affected 
regions, we would be foolish to ignore the technologies that 
are already on the table and available for use.
    Additionally, Congress can play a role in accelerating the 
upgrade of our 9-1-1 systems by granting the same legal 
safeguards to all communication service providers that offer 9-
1-1 emergency dialing.
    In times of a crisis communications is critical. For a 
successful and speedy recovery the Internet is an incredible 
resilient and redundant network. This is exactly the kind of 
performance we need in a crisis and exactly what we need from 
communications and from 9-1-1 networks of tomorrow.
    Our hearts go out to the families affected by this 
disaster. Mr. Chairman, we look forward to working with you and 
all the Committee Members to improve our nation's response and 
capabilities in the future.
    Thank you very much for letting me speak here today.
    [The prepared statement of Mr. Citron follows:]

        Prepared Statement of Jeffrey A. Citron, Chairman/CEO, 
                      Vonage Holdings Corporation

    Good morning, Chairman Stevens, Co-Chairman Inouye and esteemed 
members of the Committee. My name is Jeffrey Citron, Chairman and CEO 
of Vonage Holdings Corporation. Thank you for the opportunity to 
testify today. On behalf of the entire Vonage family and our one 
million users, I want to extend my deep sympathy for those who lost 
family and friends, and for all those who are now homeless as a result 
of the Gulf Coast disaster.
    Our Nation is responding to this emergency with astonishing 
generosity and I'm proud that Vonage employees are no exception. They 
dug deep into their own pockets to give money to relief organizations--
but perhaps more importantly they've given time and energy to keep 
people communicating throughout the disaster. Vonage teams have worked 
24/7 to ready and ship several thousand donated Internet phones that 
have helped relief workers and affected families keep communicating 
when other networks failed.
    The Wall Street Journal reported that immediately after Katrina 
hit, the Mayor and Chief of Police of New Orleans used several Vonage 
lines as their only connection to the outside world. President Bush, 
while aboard Air Force One, was able to call the Mayor's Vonage number, 
establishing some of the first communications with local officials.
    Much like September 11, phone networks failed. Wireless networks 
failed. Satellite phones stopped working. But the Internet was still 
alive in some places, and so was Internet phone service.
    As thousands of patients were coming into the Baton Rouge General 
Hospital, Vonage was the only long-distance voice system available to 
doctors and emergency medical personnel.
    Vonage is also working with a not-for-profit (Part-15.org) and 
other partners such as Cisco and Intel to build large wireless Internet 
``hotspots'' with free Internet phone service in many of the affected 
areas. In the cities of Pass Christian and Biloxi MS, police and other 
emergency responders are now using these wireless Internet connections 
for voice, video and data access. These networks are allowing local and 
Federal officials like FEMA to communicate and share information in 
areas where there is limited connectivity otherwise.
    Mr. Chairman and members of the Committee, to be clear, Vonage's 
service is successful in maintaining operations during these critical 
moments because of the redundant and resilient nature of the Internet. 
Vonage's service relies upon a high-speed Internet connection. We don't 
own the last mile facilities that run to our users' homes. Our 
customers get broadband through many different means--cable modem 
service, DSL, wireless broadband, even satellite. Vonage applauds the 
network operators that kept Internet connections working for our users. 
The flexibility that allows our service to work over ANY high-speed 
Internet connection ANYWHERE is the reason our subscribers are able to 
communicate in the midst of the Katrina disaster.
    Still, while many of the thousands of Vonage customers in the 
affected areas were able to maintain communications, some of our 
customers were not. Several hundred were without service. This is 
primarily because those users lacked power, and because our partner 
serving New Orleans was unable to send calls from the telephone network 
to Vonage's Internet gateways.
    Despite these network failures and lack of power, our customers 
were able to use the Internet to forward their calls to cell phones and 
other locations.
    If I can offer this Committee any counsel in rebuilding the 
communications infrastructure in the Gulf region, it would be NOT to 
favor one facility or provider over another. Instead, create a climate 
that fosters deployment of all these technologies. A robust 
communications infrastructure needs wired networks such as cable and 
DSL, as well as wireless networks such as cell towers, WiFi and WiMax.
    As policymakers, and as entrepreneurs, we'll never know exactly 
which facilities will be available in a moment of crisis. But redundant 
infrastructure improves our chances of having SOMETHING that works.
    Mr. Chairman, in addition to highlighting the failure of 
communications networks, Katrina also underscored the urgent need to 
make our 9-1-1 network every bit as flexible and resilient as the 
Internet.
    Vonage is running hard and fast to build a nationwide E-911 network 
this year. As a result, Vonage has taken a serious look at our 
country's 9-1-1 system and frankly, what we've found is sobering.
    In far too many cases, today's 9-1-1 system is characterized by 
local technology decisions and outdated infrastructure. Left to fend 
for themselves, dedicated 9-1-1 professionals are unable to share 
resources or utilize today's technology.
    Did you know that many 9-1-1 centers are unable to transfer calls 
within a given state or region? Had this capability been in place 
before Katrina, when 9-1-1 centers in affected areas went down, calls 
could have been transferred to working 9-1-1 centers. At the very least 
state and national law enforcement could have had a better picture of 
where resources were most urgently needed.
    Additionally, Congress can play a role in accelerating 9-1-1 
deployment by granting the same legal safeguards to all communications 
services that offer 9-1-1 emergency dialing. Internet phone providers 
are given no legal protection for completing 9-1-1 calls, unlike 
wireless and wireline phone companies.
    One of the main reasons citizens in New Orleans cannot return to 
their homes is the lack of a functioning 9-1-1 system. A robust 9-1-1 
system wouldn't be limited by the bounds of a single provider's 
network, but would instead utilize all the flexibility and resilience 
of the Internet. As we rebuild New Orleans and the affected regions, we 
would be foolish to ignore technology already on the table.
    In times of crisis, communications is critical for a successful and 
speedy recovery. The Internet is an incredibly resilient and redundant 
network. This is exactly the kind of performance we need in a crisis, 
and exactly what we need from the communications and 9-1-1 networks of 
tomorrow.
    Our hearts go out to families affected by this disaster. Mr. 
Chairman, we look forward to working with you and the Committee to 
improve our response capability in the future.
    Thank you.

    The Chairman. Next, pronounce it for me, will you?
    Mr. Eslambolchi. Eslambolchi.
    The Chairman. Mr. Eslambolchi, AT&T Global Networking. 
Thank you very much. Appreciate your testimony.

   STATEMENT OF HOSSEIN ESLAMBOLCHI, PRESIDENT, AT&T GLOBAL 
   NETWORKING TECHNOLOGY SERVICES AND AT&T LABS; AT&T CHIEF 
                 TECHNOLOGY OFFICER AND CHIEF 
                      INFORMATION OFFICER

    Mr. Eslambolchi. Thank you, Chairman Stevens, Senator 
Inouye, and Members of the Committee. My name is Hossein 
Eslambolchi. I'm the President of AT&T Global Networking 
Technology Services at AT&T Laboratories. I also serve as 
AT&T's Chief Technology Officer and AT&T Chief Information 
Officer. I also serve on AT&T's Governing Executive Committee. 
My duties include responsibility for AT&T's global network, 
including network disaster recovery.
    Let me report to you first on AT&T's encounter with 
Katrina, then offer some policy recommendations. AT&T's network 
remained overwhelmingly intact following the hurricane and 
flooding. At all times we were able to carry at least 95 
percent of the calls in the Gulf Coast area that came through 
our network. In addition, within just a few minutes our network 
automatically restored half of the capacity that was initially 
lost. Another quarter was restored within 24 hours through 
manually rerouting, and the final quarter was restored within 
48 hours when AT&T workers physically installed two cables to 
re-route traffic on damaged regeneration equipment. We built 
our only major switching station in the New Orleans area on 
high ground. It did not flood and it remained operational. 
While this switch and more than 100 other offices lost 
commercial power at one time or another, we had sufficient 
backup generators, fuel, and batteries to meet that challenge.
    Our greatest concern was security. Security concerns forced 
our employees to evacuate the switching facilities on August 
31, as local law enforcement was unable to ensure the safety of 
the site. Fortunately, the building was subsequently secured, 
our employees returned the following day with necessary 
supplies and food. During the period our employees were out of 
the building, the network infrastructure was put on automatic 
controls and monitored remotely by AT&T Global Network 
Operation Center.
    On a nationwide basis following Katrina, we carried traffic 
at levels that exceeded the prior week's demand by about 10 
percent. Nonetheless, we could not complete calls to other 
networks that suffered more severe disruptions. As a result, we 
were forced to block millions of calls a day into the affected 
area due to the outages in terminating local and cellular 
networks.
    During the crisis the National Coordination Center, NCC, an 
industry forum with government participation and the National 
Communication System of the Department of Homeland Security 
played very positive roles in matching available resources to 
pending needs, the FCC stepped up in leadership and authority 
as a clearing house for telecommunication recovery needs.
    AT&T worked with these entities and also put its resources 
to work to help others. We helped first responders, for 
example, by dispatching five emergency communication vehicles, 
ECVs with satellite capabilities to assist the Louisiana State 
Police, the Louisiana National Guard, Stennis International 
Airport, NASA Space Center, which became an evacuee center, and 
other civil emergency authorities in Mississippi and Louisiana. 
We also helped other carriers by providing generators and fuel 
and carrying a significant amount of traffic for other carriers 
that could not do so for themselves. We worked to help evacuees 
as well, working with other companies we helped establish voice 
and data communications services at the Houston Astrodome. We 
also issued 35,000 prepaid calling cards for survivors and 
evacuees, donated more than $1.5 million, including matching 
funds for our employees' donations, and gave 148 laptops to the 
Red Cross for relief efforts. In addition, we provided toll-
free calling and 10 call centers to help with the national 
fundraiser, Shelter From The Storm.
    For residential customers in southern Mississippi and the 
greater New Orleans area, we are waiving monthly fees and not 
billing for local and long-distance service from homes in the 
affected area until those customers once again originate 
service from home. We have temporarily stopped billing 
collection efforts in Louisiana, Mississippi, and Alabama.
    For government and business customers, we are restoring 
services at damaged sites and augmenting the capabilities at 
other locations as needed. To do so, we operate a war room to 
meet and prioritize their needs. We are also waiving recurring 
and non-recurring charges that affect the sites until they can 
re-establish operations.
    I've discussed in my written submission the importance of 
the preparation, execution, and ongoing improvement to provide 
vital communication infrastructure. Here though, I would like 
to offer a few specific policy recommendations based on our 
Katrina experience.
    Make additional spectrum available for public safety 
purposes and ensure that all first responders can access it in 
a coordinated and interconnected fashion.
    Furnish, standardize, and approve emergency credentials to 
infrastructure providers in advance, so that AT&T and others 
can get into affected areas to restore vital capability without 
delay or interference.
    Pre-determine security needs for law enforcement deployment 
to protect critical infrastructure facilities immediately 
following a disaster.
    Establish and routinely exercise mechanisms for public/
private coordination across all essential disciplines.
    Drill for emergencies under various scenarios frequently, 
and include the public and private sector. Do not be satisfied 
just with a written plan.
    Consider incenting emergency preparations for 
infrastructure companies.
    We can never anticipate every contingency, nor can we 
assure a foolproof communications network under all 
circumstances. Nonetheless, at AT&T we have done much to 
maintain reliability and restorability of networks, and 
together as an industry and as a nation we can do more.
    I thank you for holding this hearing to advance this 
important discussion, Mr. Chairman.
    [The prepared statement of Mr. Eslambolchi follows:]

   Prepared Statement of Hossein Eslambolchi, President, AT&T Global 
  Networking Technology Services and AT&T Labs; AT&T Chief Technology 
                 Officer and Chief Information Officer

    Thank you, Chairman Stevens, Senator Inouye, and members of the 
Committee.
    My name is Hossein Eslambolchi, and I am the President of AT&T's 
Global Networking Technology Services and AT&T Labs. I also serve as 
AT&T's Chief Technology Officer and Chief Information Officer. I advise 
AT&T's Chairman and senior leaders on technology issues, and serve on 
AT&T's Executive Committee, the company's governing panel.
    In particular, I am responsible for AT&T's strategic technology 
direction, network operations, research and development, and 
information technology systems and processes. My network operations 
duties include responsibility for the design, development, engineering, 
operations, reliability, and restorability of AT&T's global network, 
and the development and creation of new services, tools, and 
capabilities for next-generation Internet Protocol (IP) networks. I 
joined AT&T's Bell Laboratories in 1986 and have more than 17 years of 
expertise in designing and developing packet networks. I also have 
spent significant time working on the reliability and restorability of 
telecommunications networks. In this regard, I headed the development 
team for AT&T's Fast Automated Restoration System (FASTAR), which AT&T 
successfully deployed in 1992, making it possible to quickly restore 
service when high-capacity fiber optic cables are damaged. As head of 
AT&T's global network, I am also responsible for AT&T's network 
disaster recovery capabilities and operations.
    I want to thank you, Mr. Chairman, for calling this important 
hearing and for allowing me the opportunity to share with you what we 
have done and are doing generally to ensure the reliability and 
restorability of AT&T network services, and what we at AT&T have been 
doing specifically in response to Hurricane Katrina. After discussing 
our efforts generally to protect our network and our customers from 
disruption, there are four areas on which I would like to focus my 
remarks today: the impact of Katrina on AT&T's network; AT&T's 
assistance to first responders, other carriers, and those people 
directly affected by the storm; the lessons we have learned; and our 
policy recommendations. You also will see why we at AT&T speak of a 
spirit of service and a spirit of compassion in connection with our 
disaster-related activities.

I. Protecting Critical Communications Infrastructure

A. Preparation
    As a preliminary matter, there are three overarching steps that 
AT&T has taken--and that are essential to protecting vital 
communications infrastructures. The first begins long before any 
disaster occurs. It entails preparation to ensure that the network and 
its components are as reliable as possible through proper design, 
hardening, redundancy, and performance at levels that far exceed 
routine needs. At AT&T, for example, we engineer our network to ``five 
nines'' of reliability--99.999 percent reliability--that requires a 
diversity of communications links and equipment. When links and 
associated systems fail, there must be instantaneous and seamless 
rollover to backup facilities. This capability must be periodically 
tested, and given the frequency of cable dig-ups throughout the 
country, let alone emergencies of unprecedented scale such as Katrina, 
this testing must occur frequently.
    Proper preparation, however, also contemplates that even the best 
facilities could fail. Proper preparation therefore requires rigorous 
planning for service restoration, including advance placement and 
availability of service restoration equipment where it can quickly meet 
identified needs, and ongoing training to ensure the availability of 
the skilled work force needed to restore service. We make restoration 
our first priority and then move on to make repairs.
    Such a commitment to preparation, excellent service in the face of 
disaster, and responsiveness to threats to our networks and customers, 
does not come cheaply. At AT&T, we have invested approximately $350 
million since 1991 in our mobile network disaster recovery (NDR) 
infrastructure. We can quickly bring emergency communications vehicles 
(ECVs) wherever needed to provide communications services in an 
emergency, and we have more than 150 tractor trailers of various kinds 
stored in locations around the country and loaded with generators, 
fiber and other supplies, repair and restoration facilities, circuit 
and packet switching, HVAC capabilities, lights, batteries, chillers, 
pumps, food, first-aid, and whatever else may be necessary to make our 
response effective. We have extensively drilled our teams in various 
scenarios on a quarterly basis to ensure that readiness remains at peak 
levels.
    Our NDR disaster planning and Continuity of Operations Plan (COOP) 
gives us the ability to duplicate necessary capabilities quickly to 
meet or exceed our customers' business needs and continuity 
requirements, including those of our government customers. This has 
many components, including unparalleled security capabilities, logical 
systems, and physical capabilities. Network security is of particular 
importance given the prevalence of attacks through worms and viruses 
and the possibility of related threats. AT&T works diligently to 
provide network security for our infrastructure and to our customers, 
and although that was not an issue in this disaster, it is a critical 
issue and threat almost every day. Network security requires great 
focus and attention, and will certainly remain a critical challenge 
that may someday be the subject of another ``lessons learned'' hearing.
    AT&T also established a system-level certification and assurance 
governance process whereby we measure our estimated likelihood of 
recovery in the event of an incident. We then drill down to the 
component level and assess the consequences of a potential failure and 
the impact to our business. We work to mitigate the risk of failure by 
either eliminating the threat and the vulnerability, or by mitigating 
the exposure. This process informs our rigorous business case analysis 
and brings clarity to investment decisions. We regularly assess these 
components both for ourselves and on behalf of our customers.

B. Execution
    The second vital step to protect communications infrastructure 
requires execution during and immediately following a disaster. In many 
respects, execution is a function of proper preparation, particularly 
having a robust infrastructure, a well-trained and frequently-drilled 
work force, and facilities and capabilities available for service 
restoration. Effective execution also requires a sophisticated command 
and control structure in emergencies to make every minute count, every 
deployment as effective and efficient as possible, and to enable our 
dedicated employees to work as safely and effectively as possible. We 
follow an ``incident command structure,'' which is led at every moment 
by an experienced Executive Duty Officer. A similar system is 
frequently used by first responders.
    In addition, execution requires close coordination with third 
parties, including Federal, State, and local government authorities and 
first responders, others in the telecommunications industry, and others 
in the private sector trying to restore essential services and 
facilities, such as power, water, roadways, and the like. This 
communication and coordination effort is often the most difficult part 
of execution during and immediately after a disaster. In the 
communications field, the telecommunications industry response to 
disasters, other than that of a company responding to damage to its own 
facilities, is typically coordinated through the National Coordination 
Center (NCC). The Department of Homeland Security participates in the 
NCC through the National Communications System (NCS), as did the 
Federal Communications Commission (FCC) during the response to 
Hurricane Katrina. This important entity matches telecommunications 
companies to those governmental entities with unmet emergency 
telecommunications needs.
    Finally, execution requires ingenuity and resourcefulness when the 
unforeseen happens. Each emergency situation presents its own unique 
set of challenges. Even the most thorough planning and training cannot 
take the place of highly skilled and resourceful emergency responders 
who can recognize and adapt to unplanned circumstances.

C. Evaluation and Improvement
    Finally, the protection of the communications infrastructure 
requires a thorough and frank after-the-fact evaluation of performance, 
distillation of lessons learned, and implementation of improvements. In 
this regard, one outcome of Hurricane Katrina should be a critical 
reassessment of our performance as individual communications companies, 
as an industry, and as a nation, and implementation of the policy 
recommendations needed to improve performance in the future.
    I hope to address each of these steps in my testimony today, both 
in general and in light of our recent experience with Hurricane 
Katrina. At the end of this testimony, I also offer some policy 
recommendations to advance this necessary national discussion.

II. Impact of Katrina on the Network and its Restoration
    Overall, AT&T's network remained overwhelmingly intact following 
the hurricane and flooding. At all times, we were able to carry at 
least 95 percent of the calls in the Gulf Coast area that came to our 
network. Of the 5 percent of our capacity in the area that was 
initially lost, FASTAR, our software system that redirects and reroutes 
traffic, restored half of that capacity within a couple of hours. 
Within 24 hours of the storm making landfall, another quarter of that 
capacity was restored via manual rerouting, and the final quarter was 
restored within 48 hours of the storm making landfall when AT&T workers 
physically installed two cables in the ground and rerouted certain 
traffic. This latter effort successfully worked around the loss of 
certain regenerators that send digital bits long distances over fiber. 
On a nationwide basis, on the day of Katrina and over the next few 
days, we successfully carried intercity traffic at levels that exceeded 
demand the week prior to Katrina by approximately 10 percent.
    Nonetheless, because we interconnect with other carriers, including 
local exchange carriers and wireless carriers, we could not complete 
calls to other networks that suffered more severe disruptions. As a 
result, following Hurricane Katrina's landfall on the Gulf Coast, we 
needed to block millions of calls a day into the affected area due to 
outages in other networks.
    We built our only major switching station in the New Orleans area 
on high ground and, therefore, it was not flooded. One of our most 
immediate concerns in the aftermath of Katrina regarding that facility, 
however, was looting and security. Security concerns forced employees 
to evacuate our switching center late in the afternoon on August 31, as 
local law enforcement was unable to ensure the safety and security of 
the site. Fortunately, the building was secured late that night, and 
our employees returned to the building the following day, together with 
BellSouth employees who worked in the same building. At that time, our 
people delivered to the building fuel for the generators, water for the 
air conditioning chillers, food, and other supplies. Law enforcement 
authorities also set up operations in the lobby of the building in 
order to utilize the telephone connectivity available there. During the 
period that our employees were out of the building, the network 
infrastructure was put on automatic controls and monitored remotely by 
the AT&T Network Operations Center.
    We had more than 100 offices lose commercial power, usually 
briefly, at one time or another. Fortunately, we had sufficient backup 
generators and enough fuel for them. We were able to restore power by 
putting many of these sites on generators, and by making use of 
batteries or fuel cells in connection with a few. We replenished fuel 
supplies as necessary to avoid disruption, but our preparations 
included staged supplies of thousands of gallons of gas in portable 
containers, thousands of gallons of diesel fuel in portable cells, and 
thousands of gallons of water in portable tankers for cooling towers. 
We continue to have fueling plans in place for each of our sites in the 
area, all of which have at least 2 to 3 days of fuel supply which we 
are topping off regularly. Importantly, very good progress has been 
made now in the region to restore commercial power.
    At this time, the AT&T network has been fully restored and 
repaired. We will remain engaged, however, during broader recovery 
efforts to ensure continued operation of our facilities, and to lend 
support to others where we can.

III. AT&T's Katrina Response and Outreach
    AT&T began moving equipment and teams from around the country 
toward the Gulf States in the days before the storm made landfall. As 
the path of the storm became clearer, AT&T moved its assets closer to 
where they would be needed, but not so close as to be put in danger by 
Katrina. We followed our prescribed approach. The first team restored 
AT&T's service to its prior levels, the next maintained and monitored 
AT&T's facilities so as to prevent new issues from arising, and the 
third came in to help others. AT&T worked around the clock to respond 
to this crisis and safeguard its network, support efforts to respond to 
the disaster, and address the needs of evacuees.
    Because we fully restored and secured all of our network 
capabilities within the first 48 hours of the crisis, in a spirit of 
service and compassion, AT&T was able to direct its efforts to benefit 
its customers, other telecommunications competitors and their 
customers, first responders, and evacuees as needed. In this instance, 
we were largely able to use our in-place capabilities to meet not only 
our own needs, but also those of others. We put a variety of our 
facilities to work for other carriers and their customers, and continue 
to carry significant amounts of additional traffic for other carriers 
that cannot currently do so themselves. AT&T is also helping to provide 
relief to those directly affected by the hurricane and flooding, and 
assistance to charitable relief activities.
    Back at our offices, we continue to operate a war room, which is 
focused on helping our customers get back on their feet and on 
providing and prioritizing services to business customers with special 
needs. For example, a business that has relocated out-of-state due to 
the hurricane and flooding requires rapid and professional deployment 
of numerous phone lines and data capability. This effort is part of our 
command and control structure.
    Of course, the same is particularly true of our work with 
government customers like FEMA. In addition to immediately increasing 
FEMA call capacity and toll-free number availability, over the weekend 
of September 10th, AT&T was able to install an additional 140 T1 
circuits to boost call center capacity to support FEMA. AT&T worked 
directly with the IRS to execute in less than 24 hours an agreement to 
direct calls using IRS trunks which IRS provided to give FEMA necessary 
increased call capacity.
    At the same time, we coordinated with the NCC regarding the 
considerable resources that we could make available. First, we focused 
on the broader telecommunications network and the critical needs of 
first responders and ongoing rescue operations. In coordination with 
the NCC, we dispatched five emergency communications vehicles (ECVs) 
with satellite capabilities, and other forms of assistance, to assist 
in the relief efforts. Never before had we deployed so many to a single 
area. During the first 13 days of the crisis, over 104,000 calls were 
made through AT&T ECVs. We assisted the Louisiana State Police, the 
Louisiana National Guard, Stennis International Airport, NASA and 
others, including civil emergency communications authorities in 
Mississippi and Louisiana.

  <bullet> One ECV and other equipment were provided to NASA's Stennis 
        Space Center in Mississippi, in a complex that hosts several 
        Federal agencies, and which also became an evacuee center. By 
        September 1, we were providing NASA with Internet connectivity 
        and a phone bank, which has been used by shelter managers to 
        make outgoing calls on behalf of area shelter residents.

  <bullet> We provided diesel-powered generators to Louisiana State 
        Police Troop L headquarters in Mandeville, LA on Saturday 
        morning, September 3. They had lost their back-up power 
        generator that morning. We offered an AT&T generator until its 
        own could be repaired or commercial power restored.

  <bullet> We deployed satellite communications capabilities through an 
        ECV at a National Guard staging and billeting center at the 
        Alario Sports Center in Westwego, LA, a few miles southwest of 
        downtown New Orleans. We provided phone lines and Internet 
        connectivity for the command staff, which it did not otherwise 
        have available. Separately, we also enabled troops there to 
        communicate with their families and others.

  <bullet> We deployed communications facilities, including an ECV with 
        satellite communications, near the Loyola Bus Station in 
        downtown New Orleans--the station had been converted into a 
        holding location for prisoners. The service was provided for 
        public and administrative use.

  <bullet> On September 3rd, our restoration, repair, maintenance and 
        clean-up efforts added an air wing as one of our helicopters 
        and that of a vendor were put to use, partly to provide support 
        and also to patrol seven of our own fiber routes in the area to 
        ensure that the routes remained safely in place and 
        unobstructed.

  <bullet> Network operations provided several phones for use by a 
        temporary air coordination tower at Stennis International 
        Airport. This was crucial because this airport became a focal 
        point of relief flights and related efforts.

  <bullet> Network operations gave generators and fuel to BellSouth to 
        enable some of their facilities to remain in operation. 
        BellSouth continues to use some of our generators.

    The second part of our response was to provide relief to 
individuals, telecommunications services in support of charitable work, 
and to make our own charitable contributions.

  <bullet> Working with Avaya, Cisco, and SBC, we helped establish a 
        communications network for evacuees at the Astrodome, including 
        more than 1,000 phone lines as well as data infrastructure.

  <bullet> We established a phone bank to assist displaced college 
        students to find alternative educational opportunities.

  <bullet> We provided toll-free calling and 10 call centers for a 
        successful fundraiser: ``Shelter from the Storm: A Concert for 
        the Gulf Coast.''

  <bullet> We are not billing any local or long-distance residential 
        customers in southern Mississippi and the greater New Orleans 
        area unless the customer originated home long-distance usage 
        after September 1. This includes waiver of fixed monthly fees. 
        We have also stopped all outbound bill collection efforts in 
        Louisiana, Mississippi and Alabama.

  <bullet> We are also helping our business customers get back in 
        business by restoring services at damaged sites and augmenting 
        their capabilities at new locations. We are waiving recurring 
        and non-recurring charges at affected sites until businesses 
        can re-establish operations.

  <bullet> The AT&T Foundation also pitched in to address the needs 
        created by this disaster. It donated $1.5 million \1\ and 148 
        laptops to the Red Cross for relief efforts. It issued 35,000 
        pre-paid calling cards for distribution to survivors and 
        evacuees.
---------------------------------------------------------------------------
    \1\ This figure includes $500,000 in matching funds for donations 
from AT&T employees.

IV. Lessons Learned
    Each emergency situation presents its own unique set of challenges, 
and even the most thorough planning cannot take the place of ingenuity 
and resourcefulness when the unforeseen happens. That said, much can be 
anticipated, and we must plan and drill to address a variety of events 
on any scale. I am sure I join all of you in saluting our first 
responders and relief workers in their tireless efforts on the ground. 
But the importance of resourcefulness does not in any way obviate the 
need for very carefully thought out emergency planning led by seasoned 
professionals. In this respect, we believe that Katrina has taught us 
several lessons which we all must incorporate into future planning:

  <bullet> Establish and Practice Disaster Recovery Processes in 
        Anticipation of Emergencies: Communications, Command and 
        Control. Communications resources can be brought where needed 
        very quickly, but it is essential that there be clear lines of 
        command and control at all times in order to direct those 
        resources effectively and to the area of greatest need. 
        Moreover, if because of the scale or nature of the disaster, 
        some aspect of the plan affecting the command structure is not 
        workable, an alternative must also be part of the plan and 
        ready for implementation. Finally, without practice and 
        drilling, no team will be ready, and no plan will be ready to 
        implement.

  <bullet> Internalize the 3P Paradigm: Preventative Action, Proactive 
        Focus, Predictive Models. It is crucial to invest in facilities 
        and plan and drill regularly and thoroughly for a wide variety 
        of contingencies. Investment cannot be deferred and possible 
        scenarios ignored. We cannot wait for a disaster to occur 
        before we are prepared to move aggressively.

  <bullet> Pre-Position Physical Resources at Optimal Locations for 
        Fast Response--Sheltered and Above Sea Level. This lesson 
        certainly seems obvious now, but the fact remains that it was 
        not always easy to do or done in New Orleans in a variety of 
        different industries--telecommunications included. One strength 
        of our response to Katrina was moving resources into the area 
        quickly. Because we are a national corporation that created 
        mobile resources to be deployed wherever needed, we are able to 
        move our emergency resources far enough from at-risk areas to 
        be out of harm's way, but close enough to be deployed quickly 
        into affected areas.

  <bullet> Make Risk Analysis Routine: Harden Critical Infrastructure 
        Where Indicated. It is imperative to know what part of your 
        infrastructure is critical to continued operation of the 
        network in times of crisis and how to harden it as much as 
        possible and to replace or restore it to the extent it may be 
        damaged. Such analysis must be part of any risk assessment, and 
        the assessment must be followed promptly by action.

  <bullet> Design Wireless Hubs for Worst-Case Scenario. Wireless 
        services in the Gulf Coast area suffered in Katrina's wake 
        because of several perils. Some towers were simply blown over 
        in the storm; others were knocked out due to flooding of the 
        electronics at the base. Remaining towers were overloaded with 
        rerouted traffic. Better planning for disastrous events is 
        necessary and hardening and redundancy are crucial.

  <bullet> Establish Crisis Management Plan. Every emergency situation 
        is different, and even the best planning may not prevent things 
        from going wrong. Thus, we need to prepare ourselves for that 
        eventuality. Crisis management plans must recognize and allow 
        for improvisation to adapt to the given circumstances.

  <bullet> Coordinate Restoration and Recovery Effort. There should be 
        no wasted effort in recovery operations. Everyone available 
        should be participating, and there needs to be coordination so 
        that efforts are not duplicated or in conflict with one 
        another. The NCC and NCS played very positive roles in matching 
        available resources to pending needs, and the FCC stepped in 
        with leadership and authority as a clearinghouse for 
        telecommunications recovery needs. It is essential that 
        logistical information such as what roads are closed and what 
        medical precautions need to be taken be readily available. 
        Moreover, a recommendation we made after 9/11 still has not 
        been implemented--companies who are crucial to the response to 
        disasters such as AT&T should have special credentials designed 
        for employees and accredited in advance in order to access 
        disaster areas--AT&T employees only were able to respond and 
        move mobile resources into the Gulf Coast area by virtue of 
        their resourcefulness in talking their way into affected areas.

  <bullet> Design Five 9's of Reliability. This storm again confirmed 
        that telecommunications companies that design their networks to 
        this standard--99.999 percent reliability--have excellent 
        disaster recovery and response capabilities, as well as 
        reasonably hardened networks. That is the only way to maintain 
        this standard. In times of crisis, this capability becomes a 
        vital national asset.

  <bullet> Interoperability and Spectrum Availability. A crisis on the 
        scale we saw in the Gulf Coast, and smaller challenges as well, 
        demand a well coordinated information and communications 
        delivery system. We must resolve the spectrum needs highlighted 
        by the 9/11 Commission, among others, to provide first 
        responders and others with a better and more effective means of 
        communicating quickly and easily in an emergency.

IV. Policy Recommendations
    These lessons learned lead to several specific policy 
recommendations. These include:

  <bullet> Make additional spectrum available for public safety 
        purposes, and ensure that all first responders can access it in 
        a coordinated and interconnected fashion.

  <bullet> Furnish standardized and approved emergency credentials to 
        vital communications and other infrastructure providers in 
        advance, so that AT&T and other specialized disaster staff can 
        get into affected areas to restore vital capabilities without 
        delay or interference. While our teams were given letters from 
        state officials authorizing them to enter impacted areas, those 
        were not necessarily recognized by security and other personnel 
        in the field.

  <bullet> Predetermine security needs for law enforcement deployment 
        to protect critical infrastructure facilities immediately 
        following a disaster.

  <bullet> Establish and routinely exercise mechanisms for improved 
        public/private coordination, communication, and leadership 
        across all essential disciplines. In this emergency, many of 
        the challenges were operational, not technical. For example, we 
        needed testing of the air and water to assess the risks to our 
        teams, advice on medical precautions that should be taken given 
        the flooding and fires, crucial logistical information such as 
        notice of road closings, flyover authority, and overnight 
        accommodations for our technicians (who slept in trucks because 
        military bases were closed to them). Better communication and 
        coordination across the range of public and private responders 
        would improve operations.

  <bullet> Drill for emergencies under various different scenarios 
        frequently, and include the public and private sector. Do not 
        be satisfied with a written plan. Resolve all command and 
        control issues.

  <bullet> Consider subsidizing some emergency preparation by 
        infrastructure companies since the government is likely to call 
        such capabilities into use or would otherwise need to duplicate 
        resources inefficiently.

    We can never anticipate every contingency in an emergency, nor can 
we assure a foolproof communications network all the time under all 
circumstances. Nonetheless, at AT&T, we have done much to ensure 
reliability and restorability of communications networks and together--
as an industry and as a nation--we can do more. I thank you for holding 
this hearing to advance this important discussion.

    The Chairman. Thank you all very much. That's a marvelous 
series of statements. I've just gotten word this morning that 
70 of the 400 TSA screeners at Houston's airport showed up. The 
problem really is of getting people to report for work as their 
families have to be evacuated. Did you experience that in 
general in terms of your operations during the disaster, the 
Katrina disaster? Mr. Smith.
    Mr. Smith. Mr. Chairman, we really had not experienced a 
significant amount of that. Our people I think come from a 
service ethic and, in fact, many even after losing their homes 
showed up at some of our facilities, our work centers, and said 
``I'm ready to go to work.'' And that's one of the things that 
we learned through the long history of hurricane experience we 
have, is that we've got to help our people be able to know 
their family's cared for, know they've got shelter, and that's 
why we started building these tent cities, so we have gained 
the experience to be able to come in, set it up, let our 
employees know that their families are well cared for so they 
can go to work and start helping us restore, so it's been a 
very limited problem for us.
    The Chairman. And have you had any problems that way?
    Mr. Eslambolchi. We did not have, Mr. Chairman, any 
problems in that construct at all. Most of the problem that we 
faced was more on the logistical side, how do you get the 
people to the right location with fuel, batteries, and 
generators. That was more of a logistical problem for us, and 
technically and operationally I think that was a little bit 
more challenging for us in this case than it was in the case 
for 9/11 incident. But we did not have that problem. We were 
able to get the right people with a spirit of service and 
compassion that AT&T has, we know our people are putting a lot 
of focus on restoring service and helping employees and other 
people.
    The Chairman. Mr. Roth.
    Mr. Roth. No, Mr. Chairman, we did not have that problem, 
but I will tell you that one of the key learnings is that as we 
prepare for Hurricane Rita we have asked our employees to take 
care of their families. We have employee volunteers from 
unaffected parts of the country who are coming in to do their 
jobs so the technicians that will be manning and staying at our 
switching centers during the storm are actually volunteers 
coming from other parts of the country so employees in that 
area are able to take care of their families.
    The Chairman. Mr. Citron.
    Mr. Citron. No, none affected.
    Mr. Eslambolchi. Mr. Chairman, if I may just add that we 
have such a dedicated set of employees that one of our 
technicians with a Gulfport, Mississippi, location, one of our 
central offices, with 75 and 80 mile-an-hour wind, the roof 
actually lifted off and came back on, and they had water 
actually into the building, and that employee was so dedicated 
almost for about 12 hours were mopping the floor to ensure that 
the electronic equipment stays out of the water. So it was 
very, a heroic event that happened in terms of to protect the 
service.
    The Chairman. Let me ask you just a general question. This 
may sound sort of stupid, but have any of you been advised by 
your legal sections that you don't have authority to do things 
you would like to do during an emergency like this?
    Mr. Roth. No, sir.
    The Chairman. Mr. Smith, has anybody told you you can't do 
that, you don't have authority to do it?
    Mr. Smith. No, sir, we haven't seen that. We've had 
challenges on getting things that we need like priority 
security escorts and so forth, so one of the things that we 
hope will come out of this as I mentioned in my testimony is 
that we be treated as a critical responder. So it hasn't been 
something from inside the company, but I think from the local, 
State, and Federal Government issues have come up around 
letting our people into those areas.
    The Chairman. Well, we're going to examine that. We think 
the FCC should have that authority to issue, in advance, the 
credentials for the responders and for those people that you 
need. We haven't solved the problem of security yet, and that I 
think has to be part of a disaster plan. Mr. Roth.
    Mr. Roth. No, sir. I would agree with Mr. Smith's comments.
    The Chairman. Mr. Citron.
    Mr. Citron. In addition to the comments raised here there 
is one issue that affects us directly. We do not have the 
statutory authority from the FCC to get direct interconnection 
to necessary critical facilities or to have the ability to 
manage our own numbering pools, and thus during natural 
disasters we did lose, or one of our partners lost, critical 
infrastructure. And because we did not have direct access to 
those facilities, we were unable to re-route those calls as my 
other partners here would have been able to do. We would 
recommend in any legislative activity that the VoIP providers 
be provided direct interconnection to network tandems and to be 
allowed the assignment of numbers directly to us so that we can 
better manage in a natural disaster.
    The Chairman. All right. Mr. Eslambolchi.
    Mr. Eslambolchi. We did not have any legal constraints in 
executing our strategy around the disaster recovery supporting 
those services.
    The Chairman. Are there any constraints in the anti-trust 
laws that prevent you from working together in a disaster 
scenario?
    Mr. Smith. No, sir, Mr. Chairman. In fact, one thing I 
should have pointed out that helped a great deal is the quick 
action from the FCC. There were some things we did to start 
porting numbers that normally would not be allowed or to start 
using facilities that otherwise would not have been allowed. 
The FCC acted very quickly in that regard, so I commend them 
for their help. In terms of collaborative activity, in fact, 
Mr. Eslambolchi and I talked on the day of the hurricane. We 
had people in the same building. We coordinated armed caravans 
to get into the building and make sure we had material and 
supplies. We actually coordinated calls with wireless providers 
and other carriers, so I think in the time of a service 
emergency we do what needs to be done.
    The Chairman. Well, as you go back to your offices if you 
find that you have any such advice from your people, we'd 
appreciate knowing it. We expect to handle a comprehensive 
disaster preparedness bill. We're seeing it now. The Texas plan 
is being exercised two days in advance and they are moving now 
and probably will have less real human loss because of the fact 
their plan is being initiated right away. Senator Inouye.
    Senator Inouye. It has become evident that network 
providers such as traditional telephones whether they be 
computers, modems, wireless phones, or cordless phones, are 
very dependant upon commercial electricity and commercial 
power; whether it's for recharging or even batteries, and as a 
result these network providers have become very vulnerable to 
disasters of this nature. And my question is, what steps can we 
take to minimize this vulnerability or this dependancy? Because 
you may have the best equipment, but if you don't have the 
electricity you're out of business. And this has happened in 
Katrina, it will happen in Rita, and steps have to be taken. Is 
there a role for the government? And the second question is, 
are you satisfied that we're ready for Rita?
    The Chairman. Mr. Smith.
    Mr. Smith. The case of the first point on commercial power, 
you're absolutely right. We are more and more dependent, and as 
we move to fiberoptic-based systems and even cordless phones in 
homes we find many consumers don't realize that their cordless 
phone now requires commercial power. So we have people who 
report their phone out of service when the phone is actually 
working, it's just lost commercial power. It is an issue. We 
deal with that quite often. We had four hurricanes in six weeks 
last year in Florida. We have over a thousand generators that 
we move into areas to supply key power. The thing that was 
unique to us in Katrina was the flooding and security issues 
inside the core part of New Orleans. We've never had a 
situation before where we couldn't get fuel trucks into those 
locations either because of security or flooding. We've started 
looking at how we might change that. We had already provisioned 
our equipment on upper floors to get it out of the water risk, 
but if you go for several days in that situation and you can't 
get tanker trucks into a flooded area, or you have security 
issues, that's a problem. So we're working on the possibility 
of natural gas and other things as backup, but sometimes in the 
event of a natural disaster natural gas systems shut off for 
safety reasons as well. So we haven't determined a foolproof 
system yet, although we are exploring other options.
    The Chairman. Mr. Roth.
    Mr. Roth. Senator, in answer to your first question, the 
wireless network that Cingular uses has redundancy. We do 
depend on commercial power. We also have battery power as 
backup and we have generator as backup. What did make this 
storm unique from any other storm or disaster we've faced was 
the flooding, also flooded our generators, put them under 
water, and those that were not under water were inaccessible. 
We tried to float fuel into them, but it was not easy. That was 
the thing that was most difficult about it. I think that 
situation's quite unique. As your second question relates to 
Hurricane Rita, we have staging centers currently set up like 
the ones we had for Hurricane Katrina. We have staging centers 
in both San Antonio, Texas, and just outside of Dallas to move 
into the Houston/Galveston areas. We are prepared, I think, 
even better prepared for this one, because it's our 
anticipation of the water as it rises and surges will also 
retreat back to the ocean and will allow us quicker access back 
in whether it's for power or the restoration of the towers or 
anything else that is damaged in the storm, sir.
    Mr. Citron. While we also employ battery backup mechanisms 
as well as generators powered by diesel fuel, I think we miss 
the fact that the underscored importance of the electrical 
transmission system that exists in the United States. We have 
seen major blackouts in the Northeast not too long ago that 
crippled a lot of our telecommunications infrastructure. I 
think the underscoring message is while there's a lot that we 
can do with generators and power and fuel, there's a lot to be 
done with the electrical network itself that could add 
resiliency and redundancy to it in delivering that power down 
to critical communications infrastructure and even down to 
people's homes. As we now prepare for Rita as well, I think 
that we as a nation have learned a lot of lessons, and as a 
company I know that we are fully prepared for the impact of 
that storm.
    Mr. Eslambolchi. We do have a significant amount of 
generator backup which uses normal fuel. We also have battery 
backup. Some of them go as much as days, some of them as much 
as 12, 14 days, couple of weeks of support, but clearly we need 
alternative sources of energy. I believe fuel cell technology 
is coming up very quickly to the research and the development. 
I think we need to think very hard about some investment in 
that area. I think it's going to really pay off big dividends. 
We could ask equipment providers to think about fuel cell 
technology as they develop new technologies that require power 
in that space. I also think we need to really fundamentally 
think about different ways to protect the reliability that is 
very close to what I call five nines of reliability. If you 
think about the public-switched network, it was designed for 
many, many decades. The mentality has always been around five 
nines of reliability, which means it's not just having a backup 
generator or backup power, you also have to protect yourself 
against flooding. So, you know, when you look at the New 
Orleans office, you know, we built the New Orleans office with 
BellSouth with 40 foot submarine walls. So we don't want to 
have the water get into the building. So you have to think 
about something called the process 101 engineering you have to 
do in designing big telecommunication infrastructure, whether 
it is a public-switched network, whether it's PSAPs systems, or 
whether it is VoIP 9-1-1 or VoIP services, these are all 
fundamental structures that have to be in place, and everybody 
does it differently. There is no unique method, methodology 
that exists, and if you do the best practices and given the 
knowledge and experience that we have in this industry, if you 
apply that knowledge at the best in class to the other 
industries we could literally provide significantly more 
resiliency and reliability, not only for VoIP infrastructure 
but also for a cellular infrastructure which literally doesn't 
exist at a high level today across the country.
    The Chairman. Thank you very much. Senator Burns.
    Senator Burns. As I go over your testimony here, most of it 
was loss of power. Most of you had redundant systems, systems 
that you could switch, but I agree with you that getting 
power--when the electricity goes off, everything goes off. I 
was interested, Mr. Smith, in your testimony on policy 
recommendations, you think your losses down there will be 
around $400 to $600 million. That's quite a bit. Do you carry 
any protection in your company for business disruption or 
anything like that, that you're reimbursed for if you hit a 
catastrophe like this?
    Mr. Smith. We have some coverage that primarily takes care 
of our building structure, but after Hurricane Andrew in South 
Florida, we were insured up until that point. After Hurricane 
Andrew we could no longer get insurance for outside plant 
facilities so the bulk of that damage of $400 to $600 million 
will not be insured.
    Senator Burns. In other words, you're recommending some 
sort of a tax situation so that you can recover that?
    Mr. Smith. We think that would be one mechanism, yes, sir, 
for helping us recover what will be at least two to three times 
larger than the largest storms we've ever faced. And as we 
pointed out earlier, many other people rely on our 
infrastructure as well, so we think one of the things that 
could help would be tax incentives.
    Senator Burns. I want to ask the panel, now, being as you 
were wiped out in certain areas, does this give you an 
opportunity for the deployment of new technologies and do some 
things differently than you've done before? And give me an idea 
of what those would be.
    Mr. Smith. I'll give you one example to start with. We do 
intend to build back anything that needs to be replaced with 
state-of-the-art infrastructure. That will include packet-based 
including voice-over IP systems, fiberoptic systems. So what 
we're doing right now is we're in the phase of trying to 
provide immediate restoration for emergency services. In Pass 
Christian, for example, we had a 5,600 line office. There's 
very little left other than police and fire and emergency 
services. So we're trying to get their service back and have 
established that. Then we'll come back and put state of the art 
facilities in that will be packet-based and fiber-based, and we 
think it does provide new opportunity.
    Senator Burns. Interoperability?
    Mr. Smith. Absolutely.
    Senator Burns. Mr. Roth.
    Mr. Roth. Senator Burns, we intend to rebuild the area, and 
we will build it with the technology that we were currently 
using which is state of the art in the wireless network.
    Senator Burns. Mr. Citron.
    Mr. Citron. Sure. I think there's an interesting 
opportunity for an industry as a whole to look at how you might 
go about rebuilding New Orleans and other affected areas, 
giving the opportunity for new players and new technology into 
the markets to build additional redundant systems so that we 
don't have one network owned by one operator, even several 
networks owned by a limited number of operators. Some of the 
infrastructure might include the ability to deploy new and 
competing fiberoptic network, new and competing WiFi networks, 
new and competing WiMax networks, and new networks to take 
advantage of additional frequencies that might be opened up.
    Senator Burns. We've got the complaints about your E-911, 
your 9-1-1 calls do not go through on voice-over IP. What's the 
barrier there?
    Mr. Citron. The primary issue with voice-over IP, E-911 and 
its deployment largely rests with our ability to access that 
infrastructure. As I had mentioned earlier and have testified 
to as such, there's no statutory obligation for infrastructure 
owners to provide us access to all the necessary elements in 
order to complete voice-over IP E-911 calls. This has been the 
largest barrier to Vonage's deployment. Only recently under the 
help of the FCC and its encouragement have other operators been 
able to open up their networks and start allowing entry into 
commercial arrangements. For example, we do have a commercial 
arrangement with BellSouth. Mr. Smith and I have worked very 
hard on making that commercial relationship a reality, but 
there are over 6,000-plus different individual local first 
responder locations known as PSAPs that we still need to 
contract with and work through in order to get this entire 
nation online and we are making great progress in that area.
    Senator Burns. Is the barrier at the PSAPs?
    Mr. Citron. The barrier is everywhere. It starts with 
access to the selective routers that switch the calls, the 
trunking facilities necessary to access those facilities, the 
requirements of meeting different, very different and very 
local standards for PSAP activity, the testing of all 6,000 
PSAPs in this country to provide reliable service, and the lack 
of liability protection.
    Senator Burns. Mr. Eslambolchi.
    Mr. Eslambolchi. We have been transforming our AT&T network 
for many years. We have been moving to an IP and MPLS 
infrastructure. So it's primarily we carry more IP traffic 
today than we carry voice traffic across the network, but 
clearly New Orleans offers a green field approach as we try to 
rebuild that infrastructure itself and there are many 
dimensions. You can take a look at that infrastructure itself. 
At the network layer, you can look at fiberoptic cables, you 
can think about new technology such as passive optical network 
and this is used in terms of fiber to the home, for example, 
environment itself. I also have a strong belief system around 
the wireless technology, not only in this country but also 
globally, because I think the wireless technology will dominate 
the telecommunications for many decades to come. There are ad 
hoc mesh wireless networks, so if one link fails there's a 
resilience and redundancy built into the wireless 
infrastructure. There are new technologies such as cognitive 
radios. Chairman Martin talked about smart antennas. I think 
these cognitive radios primarily eliminate the need for any 
licensed spectrum, so you really don't necessarily have to rely 
on FCC. The technology is very sophisticated, enough that it 
will detect the best signal as you're trying to relay the 
traffic. You can do it very, very quickly. On the power line 
also I think the question came up earlier on the power line 
infrastructure, clearly, the power is the most dominant factor 
for any telecommunications, and most of our power lines were 
actually built almost a hundred years ago. We have built our 
cities for horses and buggies, and we're trying to put the 21st 
Century technology and application into a 20th Century 
infrastructure. Directly burying the fiberoptic cable and 
directly burying the power lines I think becomes very important 
with the very sophisticated dock system that will protect you 
against the flooding and all kind of attributes becomes a very 
important technological aspect.
    There's one other technology if I may just kind of add on 
is what I call the sensor networks, wireless sensor networks. 
For example, in the event of the logistical problem for us to 
get fuel to specific locations was a big problem because we 
didn't know which roads are closed, which roads are open, which 
roads there are trees on that we can't get the trucks into and 
get fuel into a location. If there are sensor networks 
available and including ultra-wideband imaging type 
technologies, we can correlate all that information and make 
that available to the carriers so we can get the fuel, we can 
get support directly out to the right people, the right 
infrastructure, and that was kind of a lessons learned from 
this infrastructure that hopefully we can apply for all the 
disasters. Hopefully, nothing will happen, but clearly we have 
to be prepared for any kind of disaster as we go forward.
    Senator Burns. I want to reiterate what I thought before 
because you made a remarkable recovery down there in a very 
short time after that storm, more than we could ever do as a 
Federal Government, and what I have always said, you know, we 
should step back and get out of the way and let you all do it 
and then if you need some help, well, let us know and we'll 
help you. I've said that and I think local governments and 
state governments work much more efficiently than the Federal 
Government and there again the same statement would be true, 
whatever your shortcomings are, whatever replacements you have 
to be made or whatever, we can handle that from up here. But as 
an initial person going back into restoring some sort of way to 
make our communities work, you all do it quicker than anybody. 
And your people are to be congratulated. I know of people that 
work for telephone companies and power companies, they do have 
that mentality. They just seem like they forget everything when 
they hit the pole, so to speak. They're just--that's that mind-
set. We have to get it up, we got to get it going. And I 
congratulate you for that and I think we'll be in dialogue as 
we move along on legislation regarding how voice-over IP is 
going to affect and how it works with, your system and your 
system, and your system and how we can make this work in an 
area where communications is our life blood almost. So I 
congratulate you on this, but I think it offers us some 
opportunities, some real opportunities, that when we build back 
we will be better and we will--our technologies, but if we need 
some policy changes to make some things happen that's what 
we're about up here. Give us an idea of how these systems, how 
they do interoperate and some of the barriers that have to be 
taken down and redone in order to make all your systems work 
and talk to one another. The smart radio I've always said we've 
always had the ability to build a smart radio to change 
frequencies and to talk to one another. I've always said the 
State police could always talk to the sheriff's department if 
they just could flip a switch and get on their frequency. My 
gosh, we do that in an airplane every day. If you're sitting up 
there flying an airplane, we change frequencies for every 
control center, every ATC, every departure, and every landing. 
We know the technology's available. Now, the next thing is 
getting I suppose enough money into those centers--I hear you 
pecking over there, Mr. Chairman, I want to make a point here--
that the reason we passed E-911 was to let those PSAPs and 
these people who depend on interoperability to buy the 
equipment. It's not that we don't have it. It is just putting 
it in a little box. I mean, you don't need a big console like 
you've got on your board on an airplane. But, in other words, 
you can change frequencies and talk to one another. We have 
that capability now, and now it's getting the money to them to 
make sure that it works. We've even had--we had one company 
down there that was integrated, telephone, wireless, and 
wireless and radios, they were set up in an hour and a half 
down there and were clearing for the emergency situations. 
Those--they're available and what we have to do is make sure 
the policy is right so it's deployed. Thank you very much, Mr. 
Chairman. I just wanted to make that point. There, now you can 
peck all you want to over there. Thank you for your testimony 
today.
    The Chairman. Thank you very much for joining us. Again, I 
would urge that if you do, as you return to your offices, 
discover there are things that we should know that we might be 
able to assist you with future actions, let us know. And I 
think Senator Burns speaks for all of us, your people handle 
the life-line to not only those who are in danger, but those 
who want to know if their family, their people have survived, 
and it's a fantastic capability that you've developed. So we 
thank you for what you've done in this emergency. We hope that 
you're prepared for the next one, but in any event we're here 
to try and make changes in the law to ensure that, as we go 
forward we've learned from these disasters. We're going to have 
a hearing on interoperability. As I said it's scheduled for 
next Thursday morning. If you have any suggestions concerning 
that hearing, we'd be pleased to have them.
    Senator Inouye and others have asked if they could submit 
some technical questions to you for your assistance. I would 
appreciate it if we do that if you'd respond to them so we can 
try to include your remarks in the record. The record will 
remain open for seven days to make sure that we've got a chance 
to put those responses in the record and we will use them as we 
mark up these bills.
    Again, we thank you very much for your cooperation and for 
your service to the country.
    [Whereupon, at 12:25 p.m., the Committee adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon

    Thank you. Mr. Chairman, for holding this important hearing to 
examine the Nation's critical communications infrastructure and how it 
can be protected before, during, and after a disaster.
    I would like to welcome Chairman Kevin J. Martin of the Federal 
Communications Commission (FCC) our esteemed witnesses from BellSouth, 
Cingular Wireless. Vonage, and AT&T. Thank you all for your dedication 
to the difficult task of rebuilding the various communications networks 
damaged by Hurricane Katrina in the Gulf region.
    As we begin this review of our Nation's communications capability 
in the event of a disaster, I would like to highlight the importance of 
ensuring that the unique needs of the elderly are incorporated into all 
emergency communications plans.
    Many elderly citizens live alone and suffer from physical ailments 
or mental diseases. As a result, widely used forms of communications 
are not always an effective means of informing the elderly of a 
disaster and the need to quickly take action and reach safety.
    For example, some elderly individuals have hearing impairments that 
prevent them from clearly hearing a siren or other urgent communication 
messages, while others suffer from mental conditions like Alzheimer's 
and are unable to comprehend the message being communicated and the 
need to take immediate action.
    It is imperative that we effectively reach out to the elderly 
citizens who live by themselves and address the specific needs of the 
elderly as we move forward in crafting emergency communication plans 
for our citizens.
    I would also like to draw attention to the important role the 
Universal Service Fund plays in supporting our critical communications 
infrastructure, particularly in times of disaster.
    Recently, the FCC announced its intention to use universal service 
funds to rebuild communications networks in Louisiana, Mississippi, and 
other areas affected by Hurricane Katrina. The FCC's proposal would 
make approximately $211 million available to consumers, schools, 
libraries, healthcare providers, and telecommunications carriers 
affected by the hurricane.
    I join Chairman Stevens in commending the FCC, under Chairman 
Martin, for its leadership in directing the Universal Service program 
to play a significant role in the reconstruction effort. The FCC's 
rapid response to the hurricane crisis is indeed laudable, and an 
important first step in rebuilding the communications infrastructure.
    Unfortunately, the heightened demands on the fund are likely to 
further threaten its long-term solvency. For some time, the pool of 
money from which the fund draws--interstate revenues--has been 
shrinking, while demand for support from consumers, schools, libraries, 
healthcare facilities, and telecommunications carriers has increased.
    Now more than ever, the Committee must take up reform of the 
Universal Service system to ensure that it is robust and sustainable in 
the long term. A bill I introduced in July with Senators Dorgan and 
Pryor addresses this critical need.
    The ``Universal Service for the 21st Century Act'' does two 
important things. First. it directs the FCC to revise the Universal 
Service Fund contribution mechanism to ensure the sustainability of the 
fund. Second, it creates a new account within the Universal Service 
Fund that will be used to build broadband networks in unserved areas of 
the country.
    By reforming universal service and spurring the deployment of 
broadband, our legislation will ensure that our nation's communications 
infrastructure will continue to grow, and to be the robust and 
connected network that Americans expect and deserve. These 
considerations are particularly important in light of the damage 
visited on communications networks in the Gulf region by Hurricane 
Katrina.
    Again, I would like to thank our witnesses for their efforts in 
this difficult time, and I look forward to their testimony.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
